<html>
<title> - SMALL WATERSHED INFRASTRUCTURE: CONTINUING THE MISSION, BUILDING UPON SUCCESS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                    SMALL WATERSHED INFRASTRUCTURE:
             CONTINUING THE MISSION, BUILDING UPON SUCCESS

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON CONSERVATION AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 13, 2017

                               __________

                            Serial No. 115-7
                            
                            
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
 
 
              Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
 
                         
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-913 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b7d0c7d8f7d4c2c4c3dfd2dbc799d4d8da99">[email&#160;protected]</a>                            


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov


                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

GLENN THOMPSON, Pennsylvania         COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia,             DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
BOB GIBBS, Ohio                      JAMES P. McGOVERN, Massachusetts
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas, Vice Ranking 
ERIC A. ``RICK'' CRAWFORD, Arkansas  Minority Member
SCOTT DesJARLAIS, Tennessee          MICHELLE LUJAN GRISHAM, New Mexico
VICKY HARTZLER, Missouri             ANN M. KUSTER, New Hampshire
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
DOUG LaMALFA, California             CHERI BUSTOS, Illinois
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
TED S. YOHO, Florida                 STACEY E. PLASKETT, Virgin Islands
RICK W. ALLEN, Georgia               ALMA S. ADAMS, North Carolina
MIKE BOST, Illinois                  DWIGHT EVANS, Pennsylvania
DAVID ROUZER, North Carolina         AL LAWSON, Jr., Florida
RALPH LEE ABRAHAM, Louisiana         TOM O'HALLERAN, Arizona
TRENT KELLY, Mississippi             JIMMY PANETTA, California
JAMES COMER, Kentucky                DARREN SOTO, Florida
ROGER W. MARSHALL, Kansas            LISA BLUNT ROCHESTER, Delaware
DON BACON, Nebraska
JOHN J. FASO, New York
NEAL P. DUNN, Florida
JODEY C. ARRINGTON, Texas

                                 ______

                   Matthew S. Schertz, Staff Director

                 Anne Simmons, Minority Staff Director

                                 ______

               Subcommittee on Conservation and Forestry

                   FRANK D. LUCAS, Oklahoma, Chairman

GLENN THOMPSON, Pennsylvania         MARCIA L. FUDGE, Ohio, Ranking 
JEFF DENHAM, California              Minority Member
DOUG LaMALFA, California             TIMOTHY J. WALZ, Minnesota
RICK W. ALLEN, Georgia               ANN M. KUSTER, New Hampshire
MIKE BOST, Illinois                  RICHARD M. NOLAN, Minnesota
RALPH LEE ABRAHAM, Louisiana         TOM O'HALLERAN, Arizona
TRENT KELLY, Mississippi             FILEMON VELA, Texas

                                  (ii)
                             
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................     4
Fudge, Hon. Marcia L., a Representative in Congress from Ohio, 
  opening statement..............................................     3
Lucas, Hon. Frank D., a Representative in Congress from Oklahoma, 
  opening statement..............................................     1
    Prepared statement...........................................     2
    Submitted report.............................................    85
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     4

                               Witnesses

Bramblett, Jimmy, Deputy Chief, Programs, Natural Resources 
  Conservation Service, U.S. Department of Agriculture, 
  Washington, D.C................................................     5
    Prepared statement...........................................     7
Emmons, Jimmy, President, Oklahoma Association of Conservation 
  Districts, Leedey, OK..........................................    23
    Prepared statement...........................................    24
Burns, Hon. Kevin, Commissioner, Wise County, Texas, Decatur, TX.    28
    Prepared statement...........................................    29
Peterson, John W., Director of Government Relations, Land 
  Improvement Contractors of America, Burke, VA..................    31
    Prepared statement...........................................    33
Finney, John, President, Red River Management Board; Co-Chair, 
  Red River Retention Authority, Humboldt, MN....................    39
    Prepared statement...........................................    41

 
                    SMALL WATERSHED INFRASTRUCTURE:
             CONTINUING THE MISSION, BUILDING UPON SUCCESS

                              ----------                              


                         TUESDAY, JUNE 13, 2017

                  House of Representatives,
                 Subcommittee on Conservation and Forestry,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 1300, Longworth House Office Building, Hon. Frank D. Lucas 
[Chairman of the Subcommittee] presiding.
    Members present: Representatives Lucas, Thompson, LaMalfa, 
Allen, Bost, Abraham, Kelly, Conaway (ex officio), Fudge, Walz, 
Kuster, Nolan, O'Halleran, and Peterson (ex officio).
    Staff present: John Weber, Josh Maxwell, Patricia Straughn, 
Rachel Millard, Stephanie Addison, Anne Simmons, Evan 
Jurkovich, Liz Friedlander, Matthew MacKenzie, and Nicole 
Scott.

 OPENING STATEMENT OF HON. FRANK D. LUCAS, A REPRESENTATIVE IN 
                     CONGRESS FROM OKLAHOMA

    The Chairman. This hearing of the Subcommittee on 
Conservation and Forestry entitled, Small Watershed 
Infrastructure: Continuing the Mission, Building Upon Success, 
will come to order. I recognize myself for an opening 
statement.
    Good morning, and welcome to today's hearing.
    Nearly 70 years ago, our predecessors exhibited exceptional 
foresight through their investment in watershed infrastructure 
projects. The lasting benefits of those investments through the 
Watershed and Flood Prevention Operations Program, commonly 
known as P.L. 83-566, have allowed the NRCS to partner with 
local communities to provide technical and financial assistance 
to build structures necessary to protect communities, allowing 
them to thrive.
    Since 1948, nearly 12,000 small flood prevention dams have 
served local communities by providing both economic and 
conservation benefits. It is unsettling to imagine the 
destruction of property that would have taken place if these 
investments had not been made.
    While we celebrate the success of these programs, we cannot 
overlook that their strategic infrastructure is aging and 
requires upkeep. By the end of 2017, nearly 5,500 structures 
will have reached the end of their intended life-span. 
Maintaining and updating these structures is often unaffordable 
for the communities that have benefited from the P.L. 83-566 
program.
    In 2000, understanding the urgency of this issue, I 
introduced legislation to rehabilitate many of our watershed 
projects through the Small Watershed Rehabilitation Act. At the 
time, my message was simple: If we take no action to 
rehabilitate, we will be left with the cost of removing these 
structures or faced with constant threats to life and property 
as these dams continue to age. And we would definitely watch 
our $8.5 billion investment in the successful partnership wash 
away.
    Those concerns are as important today as they were 17 years 
ago. I am confident that a modest investment now will pay off 
greatly over the next 70 years, across rural America.
    Both watershed construction and rehabilitation are 
necessary and important to maintaining and expanding our rural 
infrastructure, which is why I made those programs a priority, 
helping secure several hard-fought gains over the past several 
years.
    For example, in the 2014 Farm Bill, we created partnership 
opportunities to target and leverage Federal conservation funds 
through the Regional Conservation Partnership Program. 
Additionally, Congress agreed to $250 million in mandatory 
funding for small watershed rehabilitation to address the 
program backlog.
    And, finally, I am pleased that the 2017 appropriations 
language included funding for P.L. 83-566 also. While those 
represent important steps in working towards the current 
backlog of P.L. 83-566 programs, more work must be done. This 
rural infrastructure may be largely out of sight, but it is of 
critical importance to those communities affected.
    I look forward to hearing the testimony today about the 
success of these programs.
    [The prepared statement of Mr. Lucas follows:]

Prepared Statement of Hon. Frank D. Lucas, a Representative in Congress 
                             from Oklahoma
    Good morning and welcome to today's hearing.
    Nearly 70 years ago, my predecessors exhibited exceptional 
foresight through their investment in watershed infrastructure 
projects. The lasting benefits of those investments through the 
Watershed and Flood Prevention Operations program--also commonly known 
as P.L. 83-566--has allowed NRCS to partner with local communities to 
provide technical and financial assistance to build structures 
necessary to protect communities, allowing them to thrive.
    Since 1948, nearly 12,000 small flood prevention dams have served 
local communities by providing both economic and conservation benefits. 
It is unsettling to imagine the destruction of property that would have 
taken place if these investments had not been made.
    While we celebrate the success of these programs, we cannot 
overlook that this strategic infrastructure is aging and requires 
upkeep. By the end of 2017, nearly 5,500 structures will have reached 
the end of their intended life-span. Maintaining and updating these 
structures is often unaffordable for the communities that have 
benefited from the P.L. 83-566 program.
    In 2000, understanding the urgency of this issue, I introduced 
legislation to rehabilitate many of our watershed projects through the 
Small Watershed Rehabilitation Act. At the time, my message was 
simple--if we take no action to rehabilitate, we will be left with the 
cost of removing these structures or faced with constant threats to 
life and property as these dams continue to age. And we would 
definitely watch our $8.5 billion investment in this successful 
partnership wash away. Those concerns are as important today as they 
were 17 years ago.
    I am confident that a modest investment now will pay off greatly 
over the next 70 years across rural America.
    Both watershed construction and rehabilitation are necessary and 
important to maintaining and expanding our rural infrastructure, which 
is why I made these programs a priority, helping secure several hard-
fought gains over the past several years. For example, in the 2014 Farm 
Bill we created partnership opportunities to target and leverage 
Federal conservation funds through the Regional Conservation 
Partnership Program (RCPP).
    Additionally, Congress agreed to $250 million in mandatory funding 
for small watershed rehabilitation to address the program backlog. And 
finally, I was pleased the FY 2017 appropriations language included 
funding for the P.L. 83-566 program.
    While these represent important steps to working through the 
current backlog of the P.L. 83-566 program, more work must be done. 
This rural infrastructure may be largely out of sight, but it is of 
critical importance to those communities impacted.
    I look forward to hearing testimony today about the success of 
these programs, and with that, I yield to the Ranking Member for any 
opening remarks she would like to make.

    The Chairman. And with that, I yield to the Ranking Member 
for any opening remarks that she would like to make.

OPENING STATEMENT OF HON. MARCIA L. FUDGE, A REPRESENTATIVE IN 
                       CONGRESS FROM OHIO

    Ms. Fudge. Thank you very much, Chairman Lucas, and thank 
you for holding this hearing today. I know that watershed 
programs are near and dear to your heart, and I am pleased to 
hear more about them today.
    The Watershed and Flood Prevention Operations Program and 
the Small Watershed Rehabilitation Program are important tools 
in our conservation toolkit. These programs play an important 
role in preserving the viability of our farming communities and 
landscapes.
    One of the biggest benefits of the watershed programs is 
the flexibility and engagement provided at the local level 
through project sponsors. These projects are largely dictated 
by local interests to help address resource concerns and the 
health and productivity of individual watersheds.
    With over 1,300 active or completed watershed projects, 
this program has left a mark around the nation. As I learn more 
about this program, I am amazed at the scope of the projects 
that can be undertaken within this authority, from water 
quality, to soil erosion control, to fish and wildlife 
enhancement.
    This program seems even more important as we acknowledge 
the effects of climate change. Programs that help address flood 
mitigation and drought for our farmers only become more 
important with each passing day. These programs make our 
watersheds more resilient in the face of escalating extreme 
weather events.
    As you may know, Lake Erie, where I live, faces challenges 
from toxic algae blooms that wreak havoc on ecosystems and 
taint drinking water for many Ohioans. As we discuss watershed 
programs today, I hope to learn more about the advances to 
improve water quality that may be beneficial to Ohio.
    As we begin moving toward the next farm bill, I am looking 
forward to hearing more about watershed programs and the 
Regional Conservation Partnership Program which can utilize 
P.L. 83-566 authority.
    I would like to thank you all for being here again, and I 
thank the witnesses for sharing your time. I yield back.
    The Chairman. The gentlelady yields back.
    The gentlelady and I are pleased to note that both the full 
Committee Chairman and the full Committee Ranking Member are 
with us today.
    Would the Chairman have any comments to make, sir?

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    Mr. Conaway. Just to thank you and the Ranking Member for 
holding this important hearing. I yield back.
    The Chairman. Thank you.
    Does the Ranking Member, Mr. Peterson, have any comments to 
make?

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson of Minnesota. I do, Mr. Chairman. I thank you 
and the Ranking Member for holding today's hearing.
    I know these watershed programs, especially the Small 
Watershed Rehabilitation Program, are important to you, as we 
have discussed this over the years, and you have been a 
longtime advocate and been part of including it in the farm 
bill. I am glad that we can have other Members learn more about 
these programs today.
    I am pleased that John Finney, from my district in 
Minnesota, is joining us at the witness table today. John is 
the chair of the Red River Management Board, and I have had the 
pleasure of working with him closely over the years. And thank 
you to him and to the rest of the witness panels for being with 
us today.
    Watershed programs are incredibly important, as the 
Chairman said, and part of our conservation toolbox. But, 
unfortunately, a lot of folks are not really aware of the 
programs themselves or the benefits that they provide, which is 
why today's hearing is so useful. For example, a decade ago, 
the Small Watershed Program relied on earmarks for funding, 
which despite its broad support in Congress is what led to the 
program's demise.
    As part of the 2014 Farm Bill, we allowed project sponsors 
to use P.L. 83-566 authorities under the Regional Conservation 
Partnership Program. This was done to provide both communities 
and projects the flexibility they need to be successful.
    I expect that at this hearing you will hear and learn more 
about the experience that local watershed districts have had, 
and in my district, have had utilizing the RCPP P.L. 83-566 
funding and the way they have been trying to find practical 
solutions to expensive and controversial flood control 
challenges.
    I think that this is an important topic. A lot of folks 
will be interested in learning about this. And I want to thank 
you and the Ranking Member. I yield back.
    The Chairman. The gentleman yields back.
    Mr. Conaway. Mr. Chairman, I was derelict in not 
recognizing Kevin Burns from Wise County, Texas, a panelist on 
the second panel, a longtime watershed advocate, and a near 
constituent of mine. Please excuse me for that gross oversight 
on my part.
    The Chairman. The important observation is duly noted. 
Thank you, Mr. Chairman.
    And with that, the chair would request that other Members 
submit their opening statements for the record so the witnesses 
may begin their testimony and to ensure that there is ample 
time for questions.
    I would like to welcome our witness to the table, Mr. Jimmy 
Bramblett, Deputy Chief of Programs, NRCS, Washington, D.C.
    As you can tell, we are a fan of this, Mr. Bramblett, so 
you are recognized for 5 minutes.

          STATEMENT OF JIMMY BRAMBLETT, DEPUTY CHIEF,
            PROGRAMS, NATURAL RESOURCES CONSERVATION
            SERVICE, U.S. DEPARTMENT OF AGRICULTURE,
                        WASHINGTON, D.C.

    Mr. Bramblett. All right. Very good.
    Thank you, Chairman Lucas, Ranking Member Fudge, and 
Members of the Subcommittee. Thank you all, actually, for the 
opportunity to be here today to talk about the Natural 
Resources Conservation Service and our watershed programs.
    We appreciate the ongoing support this Subcommittee has 
demonstrated for voluntary private lands conservation that help 
us improve the nation's soil, water, and related natural 
resources. But before I talk specifically about the watershed 
programs, I would like to make a couple of comments about NRCS' 
organizational structure and our mission.
    We have 2,800 field offices fanned out across the country, 
and that is important because these field offices provide 
technical and financial assistance to local landowners. And as 
you may know or may not know, more than 70 percent of land 
ownership in this country is held by private landowners. Those 
individuals make decisions every day that not only impact their 
operation, but also impacts their neighbors, impacts their 
watersheds, and impacts, in fact, the entire U.S. population.
    Our Conservation Technical Assistance Program basically is 
the backbone of offering that technical assistance to these 
private landowners. Through CTA, in combination with our 
delivery system, we invoke a conservation planning process that 
basically helps us analyze local landowners' needs, interests, 
desires, on their property, at their location, and in 
combination with them develop a conservation plan of operations 
to help them meet their objectives as well as to help improve 
their natural resources and productivity for today and for 
future generations, while at the same time complying with all 
Federal, state, and local laws.
    The sound science that we bring to these private landowners 
on a daily basis not only helps improve the nation's natural 
resources, it also informs policy development to make sure that 
taxpayer investments and conservation achieve the greatest 
return on investment as is possible.
    So with that backdrop, the focus here today on the 
Watershed Protection and Flood Prevention Act is actually a 
very enlightening conversation. The Watershed Protection and 
Flood Prevention Act not only helps us deliver that technical 
and financial assistance to private landowners where they live, 
on individual property, but it also gives us the authority to 
work with communities and through eligible sponsors. And in 
those communities, we can work with them and do conservation 
planning for critical infrastructure activities that help also 
address broader natural resource issues that may be realized 
other than by what is happening on an individual farm or a 
ranch.
    The value of such an integrated approach has been 
demonstrated over the past 80 years, and particularly over the 
past 63 years with the Watershed Protection and Flood 
Prevention Act. Since 1947, even with its predecessor, the 
Flood Control Act of 1944, we have invested in over 2,000 local 
projects with local sponsors and we have constructed almost 
12,000 watershed dams to date.
    And through this process, we are realizing on an annual 
basis almost $2.3 billion a year in average annual benefits. 
Some examples of those benefits include protecting 610,000 
homes, 61,000 bridges, 46,000 businesses.
    If you think about farms, an average farm being 200 acres, 
the 180,000 farms that are being protected would equate to 
roughly 36 million acres. That is about the size of the State 
of Georgia, the largest state east of the Mississippi. And it 
is not just the size of the State of Georgia, it is some of the 
most productive cropland we all benefit from that is the size 
of the State of Georgia.
    But despite these successes, we are talking about manmade 
infrastructure here. Manmade infrastructure does require 
continued attention. And to date, NRCS has identified about 
2,000 structures that are high-hazard structures needing 
attention for public safety concerns. We estimate that it would 
take approximately $7 billion to address some of those public 
safety concerns.
    And we also think investing in those upgrades today may 
help us benefit by reducing the overall investment should we 
continue to delay. Future investments for continued degradation 
of these type of structures may require more investments in the 
future.
    Congress has also recognized this by continuing to fund 
this program; recently, in this fiscal year, $150 million for a 
variety of projects.
    Mr. Chairman, Ranking Member, and Members of the 
Subcommittee, as you can see, the Public Law 83-566 program is 
a very beneficial program across this country. We have done a 
lot of work with landowners at larger scales of the Mississippi 
River Basin, the Chesapeake Bay. We have demonstrated 
tremendous success at that scale.
    But this 250,000 acre watershed scale gives us the ability 
to really put a lot more focus and energy and attention in an 
appropriate scale to realize the benefits to our natural 
resources and to our local communities.
    We are always working for ways to try to improve our 
business practices, to help get more conservation on the 
ground. Protecting our nation's small watersheds is no small 
task, and when it comes to protecting lives through proper 
maintenance and upkeep, it is something USDA does not take 
lightly.
    So with that, I would like to thank all of you for your 
continued interest in the safety and functionality of our small 
watersheds, for voluntary conservation, and, of course, for the 
opportunity to be here today. And with that, I am happy to 
answer any questions.
    [The prepared statement of Mr. Bramblett follows:]

Prepared Statement of Jimmy Bramblett, Deputy Chief, Programs, Natural 
    Resources Conservation Service, U.S. Department of Agriculture,
                            Washington, D.C.
Introduction
    Chairman Lucas, Ranking Member Fudge, and Members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to discuss the Natural Resources Conservation Service (NRCS) watershed 
programs. I appreciate the ongoing support and leadership this 
Subcommittee has provided for voluntary, private lands conservation and 
the improvement of our soil, water, and other invaluable natural 
resources. Before I dig too deep into the NRCS watershed programs and 
activities, I want to briefly provide some introductory comments on our 
structure and mission that help to augment our critical watershed 
activities.
    NRCS provides technical and financial conservation assistance to 
individual, private landowners. More than 70 percent of land in the 
United States is held by private landowners. Decisions those landowners 
make every day not only have an impact on their land, but that of their 
neighbors, their watersheds, and ultimately the entire U.S. population.
    A series of programs (i.e., Environmental Quality Incentives 
Program, Conservation Stewardship Program, and the Agricultural 
Conservation Easement Program) have been created and revised through 
the farm bill process to help NRCS facilitate its unique delivery 
system, carried out through local field offices that provide assistance 
to individual landowners across the nation. Through these programs, 
NRCS has made tremendous strides in helping farmers, ranchers, 
foresters, and other private landowners restore and enhance our 
nation's natural resource base in a voluntary, incentive-based fashion. 
Perhaps most importantly, the decisions surrounding the implementation 
and prioritization of these programs and funding are made on the local 
level, through Local Working Groups and State Technical Committees to 
ensure local needs are addressed.
Proven Success
    Our latest science-based modeling under the Natural Resources 
Inventory (NRI) and assessment through the Conservation Effects 
Assessment Program (CEAP) continues to show voluntary, incentive-based 
conservation is effective. In the Chesapeake Bay, voluntary adoption of 
conservation practices has led to reductions in erosion and 
sedimentation by over 60 percent, and reductions in nutrient losses, 
specifically of nitrogen, approached 40 percent. Through a landscape 
focus to our conservation investments, some 80 percent of the Bay's 
critical cropland acreage has had conservation measures implemented. 
NRCS conservation investments in the Bay have resulted in a reduction 
of 15.1 million tons of sediment per year, enough to fill 150,000 train 
cars--which would stretch from Washington, D.C. to Albuquerque, New 
Mexico. Improvements in water quality monitoring data and aquatic 
habitat identified by external parties also confirms the positive 
impact of these investments.
    This science-to-solutions approach has been demonstrated to 
positively affect critical wildlife species as well. Through another 
targeted landscape initiative, our Working Lands for Wildlife 
Initiative, NRCS has helped private landowners install appropriate 
science-based conservation practices on over 6.7 million acres. 
Wildlife species targeted for listing on the U.S. Fish and Wildlife 
Service's Threatened and Endangered Species List have recovered to the 
point where a pending listing decision is no longer being considered. 
As a result, thousands of landowners will not face increased regulatory 
pressures.
    The sound science that NRCS brings to the table not only improves 
our nation's natural resources, it also directs policy development to 
ensure that taxpayers receive the greatest return on their conservation 
investments. The aforementioned accomplishments have been realized 
through our Conservation Technical Assistance (CTA) Program, the 
backbone of our Agency's conservation delivery machine. Many customers 
begin their relationship with NRCS through requests for technical 
assistance that later evolve into conservation plans that may include 
financial assistance through one of the farm bill programs. Our CTA 
Program, in combination with our organizational delivery system, 
affords us the opportunity to visit with landowners on their property, 
to analyze their land, learn their objectives, and then collaboratively 
formulate a plan to help them meet their objectives, comply with 
Federal, state, and local laws and ordinances, sustaining their 
operation for future generations.
    Landscape-scale approaches are foundational to progress toward 
meeting today's challenges. In addition to the Chesapeake Bay, and 
Working Lands for Wildlife initiatives, NRCS is also collaborating with 
others in critical landscapes to address water quality concerns in the 
western portion of Lake Erie, water quantity efficiencies in 
California's Central Valley and the Colorado River Basin; fisheries 
improvements in the Pacific Northwest; acid mine drainage remediation 
needs in Appalachia and the Intermountain West; and flood protection 
for communities in the Central Plains and the Northeast.
Importance of Watershed and Flood Prevention Operations
    In addition to demonstrated success in larger landscapes, NRCS's 
Watershed and Flood Prevention Operations Program, authorized by the 
Flood Protection and Flood Prevention Act of 1954, as amended (Public 
Law 83-566, also known as P.L. 83-566) encourages focused conservation 
investments in smaller landscapes (i.e., watersheds) of 250,000 acres 
or less. P.L. 83-566 gained support from successes of a preceding 
program, the Flood Control Act of 1944 (Public Law 78-534). The Flood 
Control Act placed a primary focus on watershed protection by 
preventing floodwater damage and stabilizing stream channels, 
tributaries, and banks to reduce erosion and sediment transport. P.L. 
83-566 extended the authorities of the Flood Control Act of 1944 to 
capitalize on NRCS's flexibility for delivering additional conservation 
investments beyond those focused solely on flood damages. Through P.L. 
83-566, NRCS can offer conservation practices to individual landowners 
and work with local communities to create vital infrastructure 
protecting and restoring natural resources. The value of such an 
integrated approach has resulted in significant positive contributions 
to local economies and natural resources.
    Since 1947, NRCS, through our watershed programs, has worked with 
our watershed partners to:

  <bullet> Invest in over 2,000 projects within local communities for a 
        cumulative total investment of $6.2 billion.

  <bullet> Construct 12,000 watershed project dams.

  <bullet> Realize $2.2 billion in average annual benefits. Such 
        benefits come from:

    <ctr-circle> 610,000--homes protected.

    <ctr-circle> 46,000--businesses protected.

    <ctr-circle> 180,000--farms protected.

    <ctr-circle> 61,000--bridges protected.

    <ctr-circle> 28,000--domestic water supplies protected.

    <ctr-circle> 48,000,000--people benefited.

(Source: NRCS Program Operations Information Tracking System database).

    Notwithstanding such success, both past and current, man-made 
infrastructure requires continued attention. NRCS has identified a 
current need of almost $7 billion to address public safety concerns for 
some 2,000 structures that have been identified as high hazard. A 
majority of NRCS watershed dams are over 50 years of age. Investing in 
needed upgrades today may help mitigate against more expensive future 
investments as these facilities continue to degrade. This investment 
could also result in removal of public safety concerns and help to 
avoid losing a portion of the aforementioned benefits.
    The cyclical nature of P.L. 83-566 related funding for NRCS 
watershed programs introduces a set of unique challenges for program 
management of projects requiring a multi-year commitment on behalf of 
eligible project sponsors, permitting agencies, and the private-sector 
assisting with such work. For example, planning, design, and permitting 
requires significant up-front non-Federal investments to conduct 
environmental assessments, secure necessary land-rights, complete 
requisite engineering designs, and obtain required permits. Non-Federal 
partners have to make critical risk management decisions related to 
financial commitments in the face of budget uncertainty for project 
completion. For the past 4 fiscal years, funding for this program has 
been:

  <bullet> FY 2014 = $260 million,

  <bullet> FY 2015 = $70 million,

  <bullet> FY 2016 = $12 million, [and]

  <bullet> FY 2017 = $150 million.

    Because public safety cannot be ignored, NRCS has worked with a 
number of organizations to develop tools and business practices 
intended to mitigate against risks from limited investments in capital 
improvements. One example of these efforts includes collaboration with 
state dam safety officials to develop Emergency Action Plans (EAPs) for 
high hazard structures. The plans identify potential downstream hazards 
and which emergency personnel are to be notified in advance of 
undesirable conditions at any given location. These plans are 
supplemented by annual emergency exercise drills for added 
preparedness. Finally, NRCS has recently released DamWatch, which 
quickly alerts essential personnel electronically through email, text 
message, or pager when dams are experiencing a high rainfall or 
earthquake event. These efforts allow for the agency's limited 
resources to be directed to the right place at the right time.
Utilizing Watershed Funding
    While these efforts to remain vigilant for public safety have 
proven successful to date, Congress has also recognized the need for 
continued conservation, and capital improvement, investments as well. 
Through the FY 2015 appropriations process, Congress directed NRCS to 
establish a long-term, multi-year plan to guide needed investments in 
watershed surveys and planning, and watershed operations as authorized 
under P.L. 83-566. While completing the plan, NRCS determined a 
prioritized need to invest in 220 projects. These projects would 
address a variety of issues, ranging from flood prevention and 
watershed protection, to agricultural water management, to municipal 
and industrial water supply. The total cost of these 220 projects is 
estimated to be $1.4 billion from FY 2017 through FY 2020.
    During the current fiscal year, Congress provided $150 million for 
necessary expenses in accordance with P.L. 83-566 and related laws 
relating to activities of the Department. This $150 million is to 
remain available until expended, provided that $50 million be allocated 
to projects and activities that can commence promptly.
    NRCS is preparing to first address a project backlog, remediation 
of existing structures, and then focus on new projects. Our agency has 
done a good job of preparing for and prioritizing project work in the 
face of cyclical funding realities. We use a risk index to identify a 
combination of physical, economic, and social factors ensuring that 
taxpayer investments address the highest risks first. Currently, the 
following are in progress: 70 watershed plans, 80 engineering design 
efforts, and 30 ongoing construction projects.
Conclusion
    Mr. Chairman, Ranking Member, and Members of the Subcommittee, P.L. 
83-566 enables NRCS to bring all of the agency's technical, scientific, 
and financial resources to bear at the appropriate geographic scale--
the small watersheds of 250,000 acres or less--where we can have the 
greatest impact on our nation's resources. This program reflects our 
commitment to local leadership on critical conservation issues and has 
a reach that touches every Committee Member's District. NRCS 
continually seeks to take responsible steps toward streamlining and 
modernizing our operations, while maximizing opportunities to get more 
conservation on the ground. Protection of our nation's small watersheds 
is no small task and when it comes to protecting lives through proper 
maintenance and upkeep, it is something USDA does not take lightly. I 
would like to thank all of you for continuing to invest in the safety 
and functionality of our small watersheds, voluntary conservation, and 
of course for the opportunity to appear before you this morning. I 
would be happy to respond to any questions.

    The Chairman. Thank you, Deputy Director.
    And the chair would like to remind Members that they will 
be recognized for questioning in the order of seniority for 
Members who were at the start of the hearing, and after that 
Members will be recognized in order of arrival. I appreciate 
Members' understanding, and I recognize myself for 5 minutes.
    Let's visit for a moment, Deputy Director, just in the 
broad general sense about what we are talking about when we 
discuss P.L. 83-566 projects. Many people, when they think of 
dams, think of huge things from Hoover Dam on down, these giant 
monstrosities designed and built and maintained by the Army 
Corps of Engineers, a classic example in the general public's 
mind.
    But, P.L. 83-566 dams work under a different concept, 
correct? Instead of giant structures, you have networks of 
smaller earthen dams working in an interlocking fashion to 
provide in many instances tremendous amounts of flood 
protection, but not one big structure. Fair statement?
    But that also means that from the agency's perspective and 
the community's perspective, there are a lot more of these 
facilities to maintain, correct?
    Mr. Bramblett. That is correct. In general, you are exactly 
correct on all fronts. These structures basically, when 
originally planned, were put in the upper reaches of the 
smaller watersheds to help catch some of that early rainfall. 
And you are right, they are also positioned and laid out in 
such a fashion to maximize flood prevention from an early 
perspective.
    The early rainfall, 100 year storms, basically individuals 
downstream are not going to see any change in the channel, 
because in addition to being a floodwater-retarding structure 
and being strategically placed, they are designed for 10 day 
drawdown. Most of them are designed for a 10 day drawdown, 
which is where the real beauty and the benefit from these 
structures come, because that is allowing not only the 
mitigation of flood downstream, it is also allowing it to 
dissipate at a rate that doesn't cause any damages.
    The Chairman. And within 10 days be prepared for the next 
event.
    Mr. Bramblett. Exactly.
    The Chairman. Whatever that may be.
    And let's talk for a moment about the nature of the 
structures themselves, the original technology dating back to 
the 1940s. Science has improved that, the metals in the valve 
works, the design works, the letdowns, the way we build 
spillways.
    I have had folks tell me in the field that these 50 year 
designs that we originally went with, with the new technologies 
and the new materials, while not rated for it, we might 
potentially get a century's worth of good out of the 
rehabilitation process. Is that a fair assessment?
    Mr. Bramblett. That is a fair assessment. In fact, many of 
the early structures that were built were built with a 50 year 
design life. And even into the 1970s, some of that technology 
was coming on board, and many of the later structures were 
built with a 100 year design life.
    Today, anytime we do a rehabilitation activity, we really 
work toward trying to get that 100 year design life. And so not 
only the new technology for the materials that we use, but the 
way we do planning, the efficiencies that we can gain with some 
business practices associated with that, help make for a much 
more efficient delivery of conservation to individuals and to 
landowners.
    The Chairman. And I would note to my colleagues, there are 
very few infrastructure projects the Federal Government is 
involved in or partnering with other entities that have 
potentially a century's life expectancy. Think of bridges. 
Think of roads. Think of everything else. This is an exception 
in that area.
    Let's talk for a moment about the nature of the 
Rehabilitation Program and how this is not just a Federal 
effort, but the local entities are required to put up resources 
to do things as a part of that rehabilitation cost coverage.
    Mr. Bramblett. That is exactly right. That is one of the 
beauties of basically all of the voluntary programs that NRCS 
brings to bear. It is not just Federal taxpayer, the taxpayers 
that are carrying the brunt of the investment.
    NRCS, as I mentioned, works through a voluntary approach. 
We operate off of a request for assistance. And many times when 
we provide information to local sponsors as they articulate to 
us their issues and their concerns, when we talk about the 
flexibilities and the authorities of Public Law 83-566 and its 
related legislation, they are willing, sometimes in the face of 
budget uncertainties, to make some financial commitments on 
their own to try to progress in addressing those resource 
issues and concerns.
    In the end, though, the way the authorities are set up, 
generally NRCS provides 65 percent cost-share associated with a 
lot of these activities and private eligible sponsors provide 
the other 35 percent.
    The Chairman. That said, of the number of projects that 
could be completed, because we are only talking about a small 
percentage of the potential sites in North America that could 
be addressed in these projects, just off the top of your head, 
if the resources were available, how many more structures are 
there at some stage in the process, initial planning, initial 
consideration on the new construction side, off the top of your 
head, Director?
    Mr. Bramblett. Right. We have roughly 30 projects in 
construction today and roughly 80 projects in the design phase 
and another 70 with watershed plans ready to move into the 
design phase; and then many more in the assessment phase, 
looking at these structures, looking at the downstream hazards 
and trying to identify those to get those prepared for 
planning. And so it is a sequence of preplanning, planning, 
design, and construction.
    The Chairman. It is fair to say, if a Member represents a 
district that does not have any structures in place, whether in 
rehabilitation or new construction, there are a number of 
opportunities around the country where this technology, these 
techniques could be used to apply to enhance the flood safety 
issues.
    Mr. Bramblett. That is exactly right. There is still an 
opportunity with the authorities to address those issues and 
concerns.
    The Chairman. Thank you, Deputy Chief.
    With that, my time has expired. I turn to the Ranking 
Member and recognize here for 5 minutes.
    Ms. Fudge. Thank you very much, Mr. Chairman.
    Thank you for being here as well.
    Mr. Bramblett, in your written testimony, you comment on 
how flexible P.L. 83-566 can be, particularly in delivering 
additional conservation investments beyond those focused solely 
on flood damage. Could you talk a bit about the scope and types 
of projects other than those that directly address flood 
damage?
    Mr. Bramblett. Sure. Originally, in the 1954 legislation, a 
lot of the work we did, land treatment, when I say land 
treatment, I am talking about that one-on-one conservation 
technical assistance we offer to private landowners to help 
them plan and install conservation practices that will reduce 
soil erosion, improve water quality, increase wildlife habitat.
    Some of the early work we did was primarily to make sure 
that we reduced erosion that possibly could get into these 
watershed structures and reduce sedimentation, siltation, and 
try to extend the life of these structures.
    As time moved on, the flexibility of this program grew in 
popularity. And so from a water quality perspective, we had 
more requests come to us, in addition to just the structural 
measures, we had many community requests come to us asking for 
us to address some of those soil erosion, water quality, 
wildlife habitat-type resources alone. And we have been able in 
later years to address those as resources have been available 
to us.
    Ms. Fudge. Thank you.
    Ohio, Michigan, and Indiana are currently leading a 
national RCPP Program designed to reduce the chances of harmful 
algae blooms developing in Lake Erie's western basin. How has 
or might P.L. 83-566 be used within such a project?
    Mr. Bramblett. P.L. 83-566 can do basically everything that 
the programs our agency has to offer. That is why I talk about 
the beauty of the integrated approach from P.L. 83-566.
    Many of you are aware of our Environmental Quality 
Incentives Program, our easement programs, as well as our RCPP 
Conservation Stewardship Program. Through those programs, we 
typically work one on one with landowners to address their 
needs. Through the Regional Conservation Partnership Program, 
we are looking at a geographic area. Generally, it is a larger 
geographic area than the 250,000 acres outlined in Public Law 
83-566.
    As we work with those landowners, we have seen demonstrated 
success even at those larger scales. In those larger scales, 
basically what we are finding is we can remove a variety of 
streams from EPA's 303(d) listing of impaired streams.
    Some of the wildlife-focused activities we have done out 
West, we have brought species back from being on the brink of 
being listed on the threatened and endangered species list. And 
what that has allowed is those landowners to avert potential 
regulations associated with the Endangered Species Act that 
they might otherwise face.
    P.L. 83-566 gives us the ability to work with those private 
landowners but at the same time work with those leaders in 
local communities who also are seeing issues. Sometimes when we 
are working with private landowners we can make a lot of 
progress. But when community leaders get together and see 
issues beyond individual farms in a collective fashion, then 
through eligible sponsors we can connect with them, and then 
they can help lead and guide some of that local prioritization 
for conservation planning and conservation investments.
    And so with this delivery network that I have talked about, 
to me, that is one of the beauties of our delivery system, is 
that we have local people in local communities who understand 
the local soils, who understand the local climate, who 
understand the local agriculture, the agricultural economy, the 
limitations on individuals, and the limitations on communities.
    From that integrated approach of both the community and the 
individual landowner, P.L. 83-566 is a fantastic program to 
bring to bear.
    Ms. Fudge. Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentlelady yields back.
    The chair recognizes the gentleman from Illinois, Mr. Bost, 
for 5 minutes.
    Mr. Bost. Thank you, Mr. Chairman.
    Mr. Bramblett, in Illinois we don't have a lot of the small 
watersheds, but we do face a lot of challenges with the 
watersheds as they relate to the Mississippi, Ohio, and 
Kaskaskia River in deep southern Illinois, which are huge 
watersheds. That being said, P.L. 83-566, that is implemented 
by the NRCS, how does this program function differently than 
larger management systems that we do on these larger rivers?
    Mr. Bramblett. Well, the authorities of P.L. 83-566 limit 
us basically to 250,000 acres. The measures that the Corps of 
Engineers might use on large watersheds, as the Chairman 
identified, some of those larger structures that come to bear 
in these larger watersheds, we can apply many of the same 
structural measures in smaller watersheds of 250,000 acres or 
less.
    If you are thinking in terms of a levee or a dike or 
something like that, we have installed those type of facilities 
in smaller communities to help them be protected from flooding 
on a smaller scale, exactly what you are describing on a larger 
scale in the Mississippi River.
    Mr. Bost. Okay. Also, on these watersheds a lot of things 
that we face, it is sediment buildup, okay, particularly with 
the Kaskaskia River, because of the agricultural area around 
and as a large a watershed as it is. But what I am trying to 
figure out is, if P.L. 83-566 is put in place up on the 
watershed further up, and maybe it is disqualified because it 
is all one plain, but would that stop that sediment as well?
    Mr. Bramblett. No. That is actually a very good 
illustration, and that goes back to the Chairman's observation, 
about where we placed small watershed dams and watersheds. 
Generally, we did those upstream in those watersheds to help 
mitigate flooding originally. But with the land treatment 
protections upstream of those structures even more, we also 
prevented additional erosion and sedimentation from moving 
downstream.
    Even in a larger, broader watershed of beyond 250,000 
acres, we can use P.L. 83-566 in such a means where we can 
break up that watershed to smaller 250,000 acre increments 
where these eligible sponsors have an interest, desire, and a 
willingness to sponsor such projects and help alleviate the 
larger, bigger issues that you might see on the Mississippi in 
the situation like what you are describing.
    Mr. Bost. Well, I appreciate that information.
    With that, I yield back.
    The Chairman. The gentleman has touched on a very good 
point. By building these interlocking systems, they benefit 
everyone from the raindrop that hits the ground to the Atlantic 
or the Pacific.
    With that, the chair recognizes the gentleman from 
Minnesota, Mr. Peterson, for 5 minutes.
    Mr. Peterson of Minnesota. Thank you, Mr. Chairman.
    Mr. Bramblett, did you read Mr. Finney's testimony?
    Mr. Bramblett. No, sir, I sure did not.
    Mr. Peterson of Minnesota. Okay. Well, are you going to be 
here to listen to it?
    Mr. Bramblett. Yes, sir.
    Mr. Peterson of Minnesota. Okay. We have been struggling 
with controlling the water in the Red River because it flows 
north and it is flat and there are a lot of problems. And we 
appreciate the help that we have gotten from NRCS.
    And right now they are trying to spend $2.5 billion in 
Fargo to run the water around Fargo-Moorhead because we haven't 
been able to control it before it gets there. And we have had 
problems with the Corps trying to recognize what we are doing 
and so forth.
    But one of the things that is in Mr. Finney's testimony is 
one of the problems we are having out there is the way they 
have implemented these cost-benefit deals. They do it by 
individual watersheds. And what we are doing is we are trying 
to manage the whole basin.
    And the way this gets implemented, I guess, they don't take 
into account the overall impact, the situation, and so it makes 
it difficult to make these projects qualify. We tried to get 
some changes when this RCPP thing was set up, but they weren't 
completely implemented.
    And so whatever you could do to help us work through this, 
because the amount of money that has been wasted over the years 
in the Red River Valley with the erosion that has happened and 
everything else, all the money that we have spent on these 
floods, we could have controlled all of this with that money 
easily and been a much better situation for the environment.
    We are caught up in it, because the P.L. 83-566 authorities 
are limited to some certain amount of size and then they want 
to limit the benefits to that size or something, but that 
doesn't necessarily always make sense.
    Whatever you could do to help us try to get through that 
and try to have a more effective response it will save the 
taxpayers money.
    Mr. Bramblett. Yes, absolutely. While I am not familiar 
with that situation, we are more than happy to look at it and 
provide information back to this Committee and others about 
what limitations we have within the existing authorities we 
have and then what kind of potential remediations there might 
be associated with that.
    Mr. Peterson of Minnesota. See, and I don't know if there 
are some limitations on your authority that preclude you from 
doing what needs to be done. If there is, maybe there is a way 
we could legislatively do something to give you those 
authorities, because it just seems like a wasted opportunity 
and a waste of resources to not address it.
    Mr. Bramblett. Right. Again, not being familiar with the 
specific case, it could be a situation with how the watersheds 
were set up also. There could be some reconfiguration of the 
250,000 acres in order to be able to try to achieve the cost-
benefit. Maybe that has already been attempted. But if there 
are other limitations, we are happy to look at that and provide 
feedback to let you know.
    Mr. Peterson of Minnesota. Yes, that is one of the issues. 
We did look at trying to make it larger. We had one of the most 
successful projects we have out there, the North Ottawa 
Project, which was a subject of a press opportunity last week. 
That got funded with all state money because it didn't qualify.
    And just what it is doing is phenomenal, not only from 
surrounding area being eliminated from flooding, but the 
wildlife that has benefited and everything else that goes on 
with it. If we had 30, 40 of those North Ottawa Projects, they 
wouldn't have to spend $2.5 billion trying to protect Fargo-
Moorhead, whatever you could do.
    Mr. Bramblett. Okay. We look forward to seeing that 
information and providing a response.
    Mr. Peterson of Minnesota. All right. Thank you very much.
    I yield back.
    The Chairman. The gentleman yields back.
    The chair now recognizes the gentleman from Louisiana.
    Mr. Abraham. Thank you, Mr. Chairman.
    Thank you, Mr. Bramblett, for being here.
    Question: Under the current statute, have you had any 
problems partnering with any watershed projects that could 
benefit a community?
    Mr. Bramblett. At this point, we, as I mentioned earlier, 
operate off of a request for assistance. And so being voluntary 
in nature, and having a backlog, that kind of demonstrates that 
we really haven't had a problem trying to partner with 
communities.
    Now, there are times when we are working and making 
information associated with P.L. 83-566 aware to potential 
sponsors. And so because, as we mentioned earlier, this is a 
collaboration of Federal and non-Federal resources, sometimes 
local sponsors work for years with us to try to find the means 
to put up the non-Federal resources.
    But from the P.L. 83-566 side of the equation, it is a very 
well-received program, and I would have to say we have not had 
any challenges trying to find partners or working with partners 
out there across the landscape.
    Mr. Abraham. Would you recommend any policy changes, or are 
there any policy changes that need to be implemented to help 
streamline the program?
    Mr. Bramblett. Right. Well, as I mentioned, we are always 
looking for improvement on business practices associated with 
how we deliver the program in a streamlined fashion. We talked 
about new technology of materials for construction and the 
like.
    Nowadays, we can use LiDAR to do a lot of the improvements 
in conservation planning associated with these projects.
    From a policy perspective, that is the privilege of the 
Committee, however the authorities come to us and the resources 
that come along with those authorities. We will work to 
implement those as efficiently and as best we can.
    Mr. Abraham. Okay. Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentleman yields back.
    The chair turns to the gentlelady from New Hampshire for 5 
minutes.
    Ms. Kuster. Thank you very much, Mr. Chairman. I appreciate 
it.
    Thank you for being with us.
    I wanted to talk about what is going on in New Hampshire, 
which is a reaction to the changes in our climate, which are 
rather dramatic. It is close to 100 in New Hampshire today, 
which, in my lifetime, is a rare occurrence, and we are in for 
another long, hot summer.
    Last summer we had a drought for our farmers. But a few 
years back, just a couple years ago, I have one community in 
Keene, New Hampshire, that had the 100 year flood 2 out of 3 
years. I am definitely concerned about flooding, and I am 
particularly concerned about the budget cuts that are coming 
down from the White House.
    I appreciate the Chairman bringing this topic to us. I 
support the programs, but I understand you have a tremendous 
backlog. And I want to have a discussion, if we could, about 
how we are going to address the backlog, how we are going to 
help our farmers and ranchers, and create these dams and 
preserve our communities from floods, given the cuts that we 
are facing in your budget and other budgets across the 
Agriculture Department.
    Mr. Bramblett. Thank you so much.
    In 2015, Congress asked NRCS to develop a multiyear plan 
for addressing some of these aging infrastructures, and we 
basically delivered that report in December 2015. I mentioned 
in my verbal testimony that we have identified some 2,000 
structures that need roughly $7 billion of investment for 
public safety concerns.
    As a big part of that report back to Congress there were 
roughly 220 projects needing more or less $1.4 billion of 
investments. And so we have a prioritization mechanism in 
place. We call it a risk index. And what that does is it looks 
really at what is downstream of these structures as far as 
hazard concerns, what is the shape of that valley like 
downstream, how many people might be impacted, what other kind 
of utilities and what other kind of infrastructure might be 
impacted, and then what is the likelihood that the sponsors are 
going to be able to and willing to participate with us on a 
collaborative effort to try to address those issues.
    Through that process, this is how we have identified and 
lined projects up in such a fashion where we have those that 
are in construction right now, followed by those that are in 
the design phase, followed by those that are in the planning 
phase.
    In New Hampshire, we have one project basically for rehab 
that is current, but we also have in that preplanning phase 
that I mentioned earlier 18 watershed structures where we are 
looking at those assessments downstream to try to get them into 
that process so we can address those local concerns as quickly 
as we can.
    Ms. Kuster. If we have bipartisan support on this Committee 
that we support these projects and want to go forward, how many 
communities are going to be put at risk when your funding is 
cut or you don't have sufficient funding?
    I mean, that is 18 communities in my state that I would 
rather protect.
    Mr. Bramblett. Right.
    Ms. Kuster. We have had loss of life from floods. We have 
had tremendous damage to property. We have had whole towns 
washed away.
    If you talk to Vermont that had never had a hurricane until 
Hurricane Irene came through, millions of dollars, whole towns 
were cut off, no roads, no bridges getting to them. I mean, 
this is serious and we need to take care of this. And meanwhile 
the budget that comes forward is cut. I don't understand how we 
are going to protect our constituents.
    Mr. Bramblett. From an NRCS perspective, what we are doing 
is trying to take advantage of this integrated approach. And, 
again, that is the beauty of P.L. 83-566.
    Outside of P.L. 83-566, and we talked about bringing on new 
technology, there is a lot of science just in natural resource 
management that has unfolded since we started this whole 
process of watershed protection and flood prevention.
    Some of you may have heard of our Soil Health campaign as 
an example. Soil Health is a mechanism whereby we are working 
with private landowners to increase the organic matter and the 
viability of their soils.
    Every one percent increase in organic matter holds an 
additional 27,500 gallons of water. And when you start to 
multiply that out across all of the acreage above some of these 
watershed structures, that is a big deal.
    And not only does it hold more water for drought times and 
from a climate change perspective, but also when you have 
floods there is more aggregate stability, more structure, there 
is more infiltration. That also helps reduce flooding as well.
    Those are just a couple of examples of complementary 
activities that we have with that individual landowner delivery 
system that I keep talking about, along with the integrated 
capacity of the community delivery system under P.L. 83-566.
    When we can work with individuals, we can make a lot of 
progress and we can do a lot of good things. When we can work 
with communities and individuals, we can do a lot more.
    Ms. Kuster. Well, thank you.
    My time is up. I thank the chair for having the hearing. 
And I hope you will use your clout with the Appropriations 
Committee to get the funding we need. Thank you.
    The Chairman. I promise my colleague every day in every 
way.
    The gentlelady yields back.
    The chair now turns to the gentleman from Mississippi for 5 
minutes.
    Mr. Kelly. Thank you, Mr. Chairman and Ranking Member, 
again, for holding this important meeting.
    Thank you for being here.
    Seven, 8 years ago, I didn't understand the value of 
watersheds and backwater levees, and I thought the Corps of 
Engineers just handled all the flooding things. It was in 2013 
when we had the Mississippi River flood in Mississippi. And as 
a serving guardsman, I got to go down there and was shocked to 
find out that the majority of the things that we were depending 
on to save our citizens from a massive flooding and the levees 
and dams breaking, it was not the Corps of Engineers. It was 
these watershed projects and these backwater levees and all 
those things. I came to really value the importance of those 
things.
    That being said, that 2013 flood stressed those levees and 
those backwater levees and watersheds to the point that there 
is damage done. When you stress something to that degree, it is 
imperative that we continue to reinvest in this program 
because, as most people say, an ounce of prevention is worth a 
pound of cure. If we don't put the money on the front-end, we 
will pay for property damage on the back-end.
    So that being said, Mr. Bramblett, you note in your 
testimony that NRCS strives to not only preserve resources, but 
also to make the taxpayers get the most out of their 
investment. How does the collaborative approach stretch dollars 
farther?
    Mr. Bramblett. Through this program, as well as a lot of 
other programs, but as has been highlighted earlier here, we 
provide Federal resources but only to a certain extent. Non-
Federal resources come into play.
    That way, not only do collectively we as Federal taxpayers 
have an investment in these resources, but those who are living 
in the local community and realize those benefits also have 
that investment. And the other thing about that, it is not just 
that investment. They have that ownership, that sense of 
achievement, that success, that appreciation, that social 
capital.
    Everything that goes with being part of a project like this 
is realized as we are successful in constructing, completing, 
averting flood damages, improving soil quality, improving water 
quality, reducing soil erosion, increasing productivity. All of 
those things just make all local communities feel much better.
    In addition to that, when we do these projects, not only 
are we trying to make sure that there is that balance of 
Federal and non-Federal resources that come to bear for the 
investment part of it, but we pursue, as Mr. Peterson was 
talking about, a pretty rigorous cost-benefit analysis to make 
sure that whatever Federal taxpayer benefits are being 
invested, there is a greater return on that investment than 
what is actually put forth.
    And then, finally, I would just point out that as we are 
talking about some of the risk associated with these aging 
infrastructures, we have mentioned this before, but it bears 
mentioning again, and that is making sure that as we have this 
backlog right now those structures and those situations that 
have the highest risk are the ones that we invest in first as 
well.
    Mr. Kelly. And I also think people don't realize, we are 
all pretty parochial in Congress or seem to be, but it matters 
what Illinois does with their watersheds even though I am way 
down in Mississippi, and it matters what Arkansas does and what 
Mississippi does when it applies to New Orleans, because all 
those run to the same headwater which runs into those places.
    Mr. Bramblett, with the recent appropriation for P.L. 83-
566, how quickly will local communities be able to move forward 
on construction for rehab of new projects?
    Mr. Bramblett. As I mentioned, we have 30 dams in 
construction right now, 80 in the design phase. With the 
allocation that we recently received, we expect to expend all 
of those funds within 12 months. That just shows you, as the 
process continues to unfold, we continue to work with local 
sponsors.
    I mentioned that they often are making critical risk 
management decisions from a financial perspective, many times 
in the face of uncertain budget circumstances. But it is pretty 
amazing to watch them work with us, enjoy, understand, 
appreciate the process and the partnership between the Federal 
and the non-Federal resources, and continue to work to a point 
where they can be ready to go in helping put conservation 
practices on the ground, works of improvement, other community 
construction activities as soon as resources become available.
    Mr. Kelly. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. The gentleman yields back.
    The chair now recognizes the gentleman from Arizona for 5 
minutes.
    Mr. O'Halleran. Thank you, Mr. Chairman.
    Mr. Bramblett, first of all, I appreciate the work that the 
agency does. It does an outstanding job given the funds it has. 
I just want to briefly go over a couple things.
    When you had indicated $7 billion to address public safety, 
that is just for the 2,000 structures that are at very high 
risk. Is that right?
    Mr. Bramblett. That is correct.
    Mr. O'Halleran. And then you go onto, they include the 
5,400 structures by the end of 2017 that are at risk also but 
at a lower level. And then we have unmet needs in new 
construction on top of that. The $7 billion is not the real 
number. There is an extended number past that. What is that 
number?
    Mr. Bramblett. Well, it is a dynamic system, and the 
dynamic system in that every year we have more dams come out of 
life, or rather meet their 50 year age requirement. Others are 
meeting their end of design life. And then we have others that 
still maybe need to be addressed because of high public safety 
concerns.
    For example, when we originally built these 12,000 
watershed structures, only 970 of them were built as high 
hazard structures. But being from Arizona, you understand the 
urban sprawl of Phoenix, me being from Georgia, I understand 
the urban sprawl of Atlanta, and so what we had originally 
planned to have only 970 high hazard dams, now we have over 
2,000, almost 2,100 high hazard dams.
    And any day of the week, in any structure of these 12,000 
structures across the country, someone can put a mobile home 
below that structure and make it a high hazard dam. The exact 
figure is constantly changing.
    The best answer I can give you with respect to where we are 
today is the report that we gave in December 2015 regarding the 
2,000 for $7 billion we have 220 projects that are on a higher 
critical need for $1.4 billion.
    Mr. O'Halleran. And I believe that partnerships are 
important in this process, but it appears that the current 
Administration and two previous Administrations have all 
decided that the burden should fall mostly on local government 
and local organizations and not the Federal Government, 
although we built many of these structures.
    And it helps us to improve, as the gentleman from Louisiana 
indicated, clearly the entire downstream process that is going 
on, whether it is Federal lands or private lands that are 
downstream from these structures.
    I have 12 Native American Tribes in my district. I have a 
tremendous amount of rural communities. I represent about \1/2\ 
the State of Arizona as far as landmass. And so drought is a 
major concern to everyone across my district and across the 
state.
    What changes would you like to see in the next farm bill or 
the budgeting process also to prioritize and enhance drought 
tolerance?
    Mr. Bramblett. As I mentioned before, some of the policy 
ramifications come from this Committee and others in Congress. 
If you have proposals that you would like us to react to, we 
are more than happy to look at those and give you some feedback 
on how that might mesh with the existing statute, how we 
deliver that particular program.
    Some of the other activities, I know it is a different 
animal out West when we are talking about soil health and range 
as it is in the East versus highly managed cropland versus 
landscape situations in the West. But the principles of P.L. 
83-566 have been applicable across the board, whether it is 
agricultural water management, rural water supply. Some of 
those authorities that this program has to offer are there to 
come to fruition.
    The challenge that we constantly face is the fact that we 
do have a backlog and local communities and sometimes these 
more expensive projects without the Federal investment would 
have a hard time making those improvements in and of 
themselves.
    Mr. O'Halleran. You would agree that the Federal investment 
prior to this equation cannot be just passed off to the side, 
that we don't have any skin in the game, we need to have skin 
in the game to protect those Federal lands that are also at 
risk.
    Mr. Bramblett. It has been my experience in 20+ years of 
doing watershed planning at this scale that there are some 
communities that without that Federal investment would not be 
able to install those works of improvement themselves.
    And in many cases, where they have not been able to, there 
are other Federal resources below that, such as Federal 
highways, Federal interstates, and other Federal public lands 
as well that could sustain damages if those works of 
improvements are not realized.
    Mr. O'Halleran. And then the only other difference that I 
can see, and this is just the scale of size in the West as far 
as the watersheds and even sub-watersheds in relationship to 
the current statute.
    Mr. Bramblett. And that is a really good point. I was in 
Colorado last week, and the first thing they asked me, are you 
amazed about how wide open it is? And yes, I am always amazed 
every time I go West about how wide open it is.
    Having said that, with the current authorities that we 
have, we do continue to try to construct projects or 
multifaceted projects, if you will, to address scaling issues, 
like those identified by Mr. Peterson or maybe some of the 
things that you are facing in Arizona.
    Mr. O'Halleran. Thank you, Mr. Chairman.
    The Chairman. The gentleman yields back.
    The chair now turns to the gentleman from California for 5 
minutes.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    Mr. Bramblett, welcome today. Again, I have a lot of 
interest in this DamWatch Program that you are speaking to us 
about here today. And I have it is not really related as a 
Federal project, but I have the Oroville Dam, right. I can see 
it from my front window, so to speak. It is monitoring the 
levee infrastructure, all that, extremely important.
    Obviously, a project like that being a state project or 
Federal ones, I imagine they are using a lot of the technology 
that you are talking about here that can be used more on a 
district basis or a private basis where you have levees and 
dams on that smaller scale.
    Can you walk us through how the collected information is 
used when you receive that to allocate efforts, resources after 
some type of alert has come across, or even if there is not an 
alert situation, just how that would integrate into a regular 
maintenance schedule? How is that information applied? It is 
through an app, right?
    Mr. Bramblett. Right. I need to give you a little bit of 
background information to fully answer your question. And we 
talked a lot about public safety, and we have talked about the 
need for capital and investments for upgrades and improvements.
    That said, public safety can't be ignored. And so we 
continue to work with local sponsors, even though these 
structures are their responsibility, to try to help them 
address public safety issues and concerns.
    One of the ways we do that is each year for these high 
hazard structures we go out with them and do an operation and 
maintenance inspection. And as a result of that, if we identify 
issues and concerns, we alert them to those.
    In some cases, they have the resources to try to develop 
the designs for remediation, in other cases they depend on us 
to develop designs. In some cases, they have the resources to 
address it, in other cases they don't. We are talking almost 
12,000 structures here.
    In addition to having that annual operation and maintenance 
inspection, we also have on these high hazard structures 
developed what we call emergency action plans. And this is part 
of the assessment activity and some of this preplanning effort 
that I talked about a little bit earlier.
    What we do as a part of that process is we look downstream, 
and, God forbid, should there be a dam failure, we identify 
what that flood zone would be. We call it a breach zone. That 
emergency action plan is meant to identify what structures are 
in play, what utilities, what bridges, who the local emergency 
management personnel happen to be, what their phone numbers 
are, what their contacts are.
    This DamWatch system basically is a means of collecting all 
that information along with the original designs associated 
with these structures, so that if there ever is a situation 
that we can get to and address in a quick fashion, we know the 
original design information. That helps us more efficiently 
address any kind of catastrophic event that may be unfolding.
    So far, we have been fortunate, even though we have had 
even in 2016 these high hazard structures, and this highlights 
the public safety issue, we have had these emergency spillways 
or the portion of this dam that flows water before it overtops, 
54 of those flowed in 2016. It is happening out there.
    What happens with DamWatch basically is we utilize USGS' 
alert system for stream gauges, for seismic activity. And we 
have all this information that I just described in this 
DamWatch system. What DamWatch then helps us do is it helps us 
send out electronic automated alerts to those critical 
personnel that are identified in this emergency action plan.
    Depending on the simulated rainfall, we will take that as 
the example, depending on the simulated rainfall, there is a 
certain stage of triggering that goes to these individuals to 
begin monitoring the situation. That is not just local 
emergency management officials. That is state emergency 
management officials as well as Federal emergency management 
officials.
    Mr. LaMalfa. That is all in real-time then as you----
    Mr. Bramblett. That is all real-time information. And it is 
for all of our watershed structures, 11,000 of our watershed 
structures, 11,000 of our 12,000 watershed structures right 
now.
    Mr. LaMalfa. With the preplanning you talked about here, 
what if you had a very severe situation or lesser ones, use the 
preplan, and then as the data comes in what is actually 
happening there, you keep track of what water levels are 
looking like. Is this going to reach some kind of an alert 
stage where you have to start planning for something maybe a 
little worse?
    Mr. Bramblett. Right. We are taking the next rainfall from 
Doppler Radar. We know based off of the soil information our 
agency has and land use what the runoff is going to be like. We 
can simulate what the water levels are going to be in these 
structures.
    Mr. LaMalfa. Let me ask, does it look different for an 
emergency event than it does for this ongoing maintenance?
    Mr. Bramblett. Well, the difference between ongoing 
maintenance and this type of activity, the ongoing maintenance 
basically is trying to make sure that there is no large-scale 
vegetation that appears on the embankments, the earthen 
embankments, that there is regular mowing, that if there are 
routine maintenance activities associated with a trash rack 
that collects trash before it goes into the riser, needs to be 
replaced. Those are examples of regular type of ongoing 
maintenance. This type activity is more of a monitoring for 
public safety.
    Mr. LaMalfa. Yes, sir. I better cut off there.
    I will yield back, Mr. Chairman. Thank you.
    The Chairman. The gentleman yields back.
    Would the gentleman yield for one moment before we dismiss 
our witness.
    The discussion we have had today about all the planning and 
the organization that is going into these structures, the 
maintenance and the emergency plans and everything, it is 
coordinated. The success of this program is really quite 
astounding, whether it would be a Federal Government program or 
anyone else's. But part of the problem we have historically had 
is, in a body where all the grease goes to the squeaky wheel, 
this works so well it is hard to get people's attention about 
maintaining and expanding the success. That is the difficult 
part.
    The gentleman yields back. I yield back.
    The chair and the Ranking Member wish to thank the Deputy 
Chief for a very thorough presentation today. And you are 
dismissed, sir.
    Mr. Bramblett. Thank you so much.
    The Chairman. And with that, we would like to, when they 
are ready, welcome the next panel of witnesses to the table.
    While our witnesses are coming to the table, I would like 
to begin the introduction. Mr. Jimmy Emmons, President of the 
Oklahoma Association of Conservation Districts, from Leedey, 
Oklahoma. We also have Kevin Burns, Wise County Commissioner 
from Decatur, Texas. We have Mr. John Peterson, Director of the 
Government Relations, Land Improvement Contractors of America, 
from Burke, Virginia. And Mr. John Finney, President of the Red 
River Management Board from Humboldt, Minnesota.
    And with that, whenever you are ready, Mr. Emmons, you may 
begin. You are recognized for 5 minutes.

 STATEMENT OF JIMMY EMMONS, PRESIDENT, OKLAHOMA ASSOCIATION OF 
               CONSERVATION DISTRICTS, LEEDEY, OK

    Mr. Emmons. Good morning. My name is Jimmy Emmons. I want 
to thank the Committee, Chairman Lucas, Ranking Member Fudge, 
for this opportunity today. It is a great honor, and I do not 
take it lightly.
    I am a farmer and rancher from Dewey County in western 
Oklahoma. My wife Ginger and I farm 2,000 acres of farmland, 
run cattle on about 7,000 acres of rangeland. The Emmons home 
place has been in our family since 1926.
    I am speaking to you this morning because I serve on the 
District Conservation Board there in Dewey County, the local 
sponsor of two watershed program projects, 22 dams, multiple 
land treatment practices associated with these projects. I live 
and farm around these projects as we speak.
    There are more than 600 of these flood protection dams 
within a 75 mile radius of my farm. I am very passionate about 
stewardship and conservation as it relates to our soil and our 
water resources.
    It would be easy for me to testify about the rich history 
of the watershed programs in part because western Oklahoma and 
the watershed programs go way back. I can recount one story my 
grandfather told me about a small drainage ditch he started on 
our farm in 1934 that became a gash 40 wide and 50 deep in 
one night.
    That ditch turned out to be a warning sign that we still 
talk about 83 years later known as the deadly Hammond Flood, 
which killed 17. That piece of our history is just one of the 
reasons that Oklahomans now have 2,107 watershed program dams 
and countless conservation practices. The USDA Small Watershed 
Program changed the face of western Oklahoma, and when it did, 
it changed our future.
    When I became a grandfather, it sharpened my thinking about 
my future. My 4\1/2\ year old grandson now is my motivation to 
speak up about the watershed programs. The program represents 
an estimated $15 billion investment in conservation 
infrastructure.
    As a local project sponsor, it is essential that we are 
good stewards of this investment. This requires a healthy 
Federal, state, local partnership that brings administrative, 
technical, and financial assistance to bear on matters relating 
to the watershed programs infrastructure.
    If you travel on the county roads in my area and state 
highways, even Interstate 40, some portion of that road is 
protected by a watershed programs dam.
    The local economy is driven in part by grain, cattle, oil, 
and natural gas that relies daily on this protection. The roads 
and bridges that carry our children to and from school are 
protected by these dams. Our schools, along with other key 
elements in the community, are protected by these dams. The 
partnership between NRCS and local sponsors is critical in 
keeping this protection in place.
    Nationally, in 2018--we have talked about this, this 
morning--will be a milestone of the watershed programs where 
nearly \1/2\ of the 11,840 dams will reach their engineered 
expected life that were constructed by SCS and NRCS. We are 
reaching a critical point this coming year.
    While nine out of ten Oklahomans live and work within 20 
miles of the watershed program dams, many of these folks are 
unaware of the solace that they do. If we let this investment 
in protection slip away it won't take long for them to be 
affected. The watershed programs needs Congressional attention 
if the future Americans want to enjoy the same safety, 
protection, benefits, and productivity the watershed programs 
presently delivers.
    In 2000, Representative Lucas led the development of the 
rehabilitation legislation that ensured our nation's investment 
in the watershed programs had the opportunity to continue. The 
legislation gave the Congress the ability to reinvest in these 
structures. Congress has taken the right step in the direction 
with local sponsors. Statewide partners have responded with O&M 
dollars, rehabilitation matching funds, technical and other 
financial assistance.
    I cannot overemphasize the importance of the Congress, the 
USDA, and NRCS full partnership in the watershed programs.
    In closing, where I live, we have something we call farm 
sense. Farm sense is a good thing. Some folks have it; some 
folks don't. Farm sense would tell me, if I invested $750,000 
in a tractor, tillage and seeding equipment, and refused to 
grease that and safely operate that before it goes to the 
field, knowing that that equipment would have a significant 
capital investment that I put into it and still would not 
protect it.
    We have invested $15 billion into conservation 
infrastructure. It is no different. Farm sense tells me that 
Congress needs to reinvest in this important conservation 
program.
    Thank you.
    [The prepared statement of Mr. Emmons follows:]

Prepared Statement of Jimmy Emmons, President, Oklahoma Association of 
                   Conservation Districts, Leedey, OK
    Mr. Chairman and Members of the Subcommittee:

    Good morning, my name is Jimmy Emmons, I want to thank the 
Committee, Chairman Lucas and Ranking Member Fudge for the opportunity 
to speak to you today. It is an honor and an opportunity I do not take 
lightly.
    I am a farmer and rancher from Dewey County in western Oklahoma 
where my wife Ginger and I farm 2,000 acres of cropland and run cattle 
on 7,000 acres of rangeland. The Emmons home place has been in our 
family since 1926. I'm speaking to you this morning because I serve on 
the Dewey County Conservation District board.
    We are local sponsors of two USDA watershed program projects 
(Barnitz Creek and Quartermaster Creek Watersheds) and the 22 project 
dams and the multiple land treatment practices associated with these 
watershed projects. I live and farm in and around these projects. Six 
of the 22 flood control dams in Dewey County are considered high hazard 
dams with the threat of loss of life if the dams were to fail. The 
Dewey County Conservation District with the assistance of NRCS has 
currently rehabilitated four of these dams. (Barnitz Creek Watershed 
Dams No. 1, 5, 11 and 14).
    There are more than 600 of these flood protection dams within a 75 
mile radius of my farm. I am also deeply involved and committed to soil 
and water conservation issues at the local, state and national levels. 
I am passionate about stewardship and conservation as it relates to our 
soil and water resources. I also currently serve as President of the 
Oklahoma Association of Conservation Districts.
Watershed Rehabilitation Program
    Watershed Dam Rehabilitation is a critical component of the 
Watershed Protection and Flood Prevention Program. NRCS and its local 
sponsors are responsible for over 11,800 flood control structures 
nationwide. This flood control and conservation related infrastructure 
affects 2,000 watersheds and they represent nearly \1/3\ of all dams 
ever built by the Federal Government. Every year this system saves an 
estimated $2 billion through flood damage prevention. Another way to 
view these benefits is by the number of people and communities who 
benefit directly from watershed projects. The existing projects are 
protecting over 610,000 homes, 46,000 businesses, 180,000 farms and 
ranches, 61,000 bridges, and 28,000 domestic water supplies. As a 
result, over 48 million people across the United States benefit from 
the watershed program every year.
    Many dams today are in a far different setting than when they were 
constructed. Population has increased; residential and commercial 
development has occurred upstream and downstream from the dams; land 
uses have changed; sediment pools have filled; and concrete and metal 
components have deteriorated. Many of these dams do not meet current 
state dam safety regulations that have been enacted and revised with 
more stringent requirements than when the dams were built. In addition, 
many of these structures built by NRCS had a design life of only 50 
years. Since most of this construction occurred from the 1940's to the 
early 1970's, many of these dams are now past their design life and are 
in need of rehabilitation.
    Chances are as you travel in my area whether on county roads, State 
Highways or Interstate 40 some portion of the road you travel receives 
flood protection from an upstream USDA Small Watershed Program Flood 
Control dam. The local economy that is driven in part by grain, cattle, 
oil and natural gas relies daily on this protection. The roads and 
bridges that carry our children to and from school are protected. In 
several cases the school itself along with other key elements of 
community are protected. Just as it is across much of the nation, the 
water that these flood control lakes collect is also essential to our 
economy and quality of life in western Oklahoma.
    Many of our most productive farms and our healthiest soils are 
located in these protected watersheds. There are many less obvious 
benefits that come in the form of the prosperity and opportunity made 
possible by these projects. The partnership between USDA and local 
sponsors that brought us this protection is extremely important in 
keeping it in place. CY 2018 will be a milestone year for the watershed 
program when more than 50% of the 11,840 dams engineered and 
constructed by SCS/NRCS will have exceeded their original evaluated 
life.
    Nine out of ten Oklahomans live or work within 20 miles of a 
watershed program dam. These folks may be unaware of the watershed 
program, but if we let this investment in protection slip away it won't 
take long for them to be affected. I'm sure a similar statement could 
be made for our neighboring states. The watershed program needs 
Congressional attention if current and future Americans are to enjoy 
the same safety, protection, benefits, and productivity the watershed 
program has given us. Rehabilitation is necessary to ensure dams 
continue to protect lives, businesses and homes. Failure to provide 
rehabilitation of these dams could result in dam breaches which would 
have catastrophic consequences. The flooding crisis and potential 
failure of the Oroville Dam in California this past February 
illustrates the need for infrastructure operation, maintenance and 
repair of dams. While Oroville Dam is not an NRCS dam its does show 
what could happen when dams are not properly repaired or maintained.
    In 2000, Mr. Lucas led the development of rehabilitation 
legislation that ensured the nation's investment in the watershed 
program had the opportunity to continue into the future. Under the Dam 
Rehabilitation Program, dams are selected for rehabilitation through a 
competitive grant process and Federal are funds are limited to 65% of a 
project's cost. This commitment from state and local partners is 
necessary to ensure that sponsors are fully committed to a project. 
This legislation gave us the pathway and the procedure for 
reinvestment.
    As the significantly invested local sponsors of watershed projects, 
state and local partners have felt that we have suffered from an 
inadequately funded Federal partner for much of the past decade. In my 
opinion, Congress has taken a step in the right direction by wisely 
investing through the 2014 Farm Bill and the 2017 Omnibus 
Appropriations bill. Local sponsors and state watershed program 
partners have responded with O&M dollars, rehabilitation matching 
funds, technical and financial assistance. I cannot over emphasize the 
importance of Congress and the USDA-NRCS as full partners in the 
watershed program. We hope these recent investments are a signal to 
USDA about the importance of these programs.
    It would be easy for me to spend my time before you this morning 
talking about the rich history of the watershed program in my part of 
the world because western Oklahoma and the watershed program go way 
back. I could recount the story my grandfather shared about a small 
drainage ditch across our farm that in 1934 became a gash in the 
landscape 40 wide and 25 deep literally overnight. Folks in the area 
still talk about the deadly Hammon Flood that killed 17 Oklahomans. 
That flood, that piece of our history, is just one of the reasons that 
Oklahoma is now covered with 2,107 watershed program dams and countless 
conservation practices. The USDA Small Watershed Program changed the 
face of western Oklahoma and when it did . . . it also changed our 
future.
    When I became a grandfather it sure sharpened my thinking about the 
future. My 4\1/2\ year old grandson, a budding farmer and rancher in 
his own right, is my motivation to talk to you about the present and 
the future as it relates to the benefits the watershed program 
continues to bring to our nation. The program represents an estimated 
$15 billion investment in conservation infrastructure. As responsible 
citizens and local project sponsors, it is essential that we are good 
stewards of this previous investment. This requires a robust Federal, 
state and local partnership that brings administrative, technical and 
financial assistance to bear on matters relating to this infrastructure 
created by the watershed program. From routine operation, maintenance 
and repairs to full-fledged dam rehabilitation each of the partners has 
an important and specific role.
    In closing, where I live there's something we call ``Farm Sense''. 
Farm sense is a good thing. Some folks have it, some don't. A day or 2 
on the farm quickly reveals who has a good measure of farm sense. A 
person with farm sense wouldn't invest $750,000 in a new tractor and 
tillage equipment and then refuse to grease the equipment every time it 
goes to the field, fail to change belts, hoses, filters and fluids 
regularly or leave it parked outside where the tires can dry rot in the 
sun and the mice and packrats can devour the wiring. Knowing they 
depend on that equipment and have lots of capital tied up in it they 
would take care of it and do everything they could to hold its value 
and protect the investment. A $15 billion investment in conservation 
infrastructure is no different. Farm sense tells us its time for the 
partnership to reinvest.
    As the Subcommittee moves toward the next farm bill and the 2018 
budget bill comes into focus I encourage you to support and provide 
adequate funding for new watershed projects and for the rehabilitation 
of aging watershed dams. Thank you.
                               Attachment
Flood Control Dams in Dewey County
    Oklahoma has 2,107 flood control dams in 61 counties. These dams 
have been constructed through local watershed project sponsors with 
financial and technical assistance from the USDA Natural Resources 
Conservation Service (NRCS) authorized through Public Law 78-534 
(Washita River Watershed) and Public Law 83-566 Watershed Protection 
and Flood Prevention Program. Twenty-two of these dams are in Dewey 
County.
    The primary purpose of flood control dams is to reduce flooding. 
The secondary benefits of the dams address a myriad of public needs 
such as water supply, water quality, soil health, water management, 
wetland enhancement, fish and wildlife habitat, and recreation. Flood 
control dams improve public safety, contribute to a healthy economy and 
support a strong nation.
    Watershed projects also include the installation of natural 
resource conservation practices such as terraces, waterways, ponds, 
gully repair, and pasture and rangeland plantings. These conservation 
practices improve water quality and soil health and reduce 
sedimentation into the lakes formed by the dams.
Operation and Maintenance of Dams
    The annual operation and maintenance of dams is the responsibility 
of project sponsors (local units of governments such as conservation 
districts).
    Operation is the administrative and management activities necessary 
to ensure the dams function as designed and remain safe. Operation work 
includes annual dam inspections and inspection immediately following 
heavy rains.
    Maintenance work includes removing trees from dams and spillways, 
repairing erosion damage, repairing damage to the spillway and dams 
after heavy rainstorms, and keeping the principal spillway inlet towers 
cleared of debris.
Operation and Maintenance Needs
    Operation and maintenance of dams can be expensive and labor 
intensive. $4 million is needed to operate and maintain all 2,107 flood 
control each year. Only through continued investment in operation and 
maintenance will future generations enjoy the promise of safety these 
dams offer.
Annual Benefits
    The 2,107 flood control dams and conservation practices in 
watershed projects provide $91 million in average annual benefits. The 
table on the back of this page lists the annual benefits provided by 
watershed projects in Dewey County.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Rehabilitation and Dam Safety
    As dams age some will need rehabilitation to remain safe and 
protect the people that live or work downstream.
    At the conclusion of 2016, 260 flood control dams in the state have 
been classified as high hazard. Of these 115 do not meet current state 
or federal safety criteria. Approximately $300 million is needed to 
upgrade the 115 dams.
    Six of the 22 dams in Dewey County are classified as high hazard 
and have the potential for loss of life if they should fail.
    The number of high hazard dams will continue to increase as long as 
residential and business development is allowed downstream of the dam 
in the breach flood area.
    NRCS can provide 65 percent of the rehabilitation costs and 
technical assistance to rehabilitate high hazard dams. Local project 
sponsors provide 35 percent of the cost and obtain any needed 
additional land rights.
    As of December 2016 thirty-five dams in the state have been 
rehabilitated and 18 others are in various stages of planning, design 
or construction.

                                                  Average Annual Watershed Benefits (Entire Watershed)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                       Wetlands            Reduced
      Watershed Name            Dams in       Dams in Dewey    Monetary Benefits   Farms/Ranches       Bridges        Enhanced/      Sedimentation (tons
                               Watershed          County               *             Benefited        Benefited    Created (acres)        of soil)
--------------------------------------------------------------------------------------------------------------------------------------------------------
         Barnitz Creek                 76               20            $716,340              225              25            1,734               520,184
   Quartermaster Creek                 36                2            $666,760              134              19              743               154,228
                          ------------------------------------------------------------------------------------------------------------------------------
  Total..................             112               22          $1,383,100              359              44            2,477               674,412
--------------------------------------------------------------------------------------------------------------------------------------------------------
* Monetary benefits include reduction in flood damages to crops, roads, bridges, fences, etc., and may include other benefits such as irrigation,
  municipal and industrial water supply and recreation.

    Conservation Districts are a primary sponsor of most watershed 
projects in Oklahoma. Listed below is the conservation district located 
in Dewey County that has watershed projects and other conservation 
agencies that can be contacted for more information about the watershed 
program.

    Dewey County Conservation District,*
---------------------------------------------------------------------------
    * This Publication is issued by the Oklahoma Conservation 
Commission as authorized by 65 O.S. 2001  3-110.
    Copies have not been printed but are available on the agency 
website. January 2017.
---------------------------------------------------------------------------
    306 S. Broadway,
    Taloga, OK
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="74101103110d17171034171b1a0711060215001d1b1a5a1b1f5a131b02">[email&#160;protected]</a>

    The Oklahoma Conservation Commission is the lead state agency for 
upstream flood control programs and provides assistance and guidance to 
conservation districts.
    The USDA Natural Resources Conservation Service (NRCS) is the 
Federal agency that administers the watershed program and provides 
technical and financial assistance to the local project sponsors.

    Oklahoma Conservation Commission,
    2800 N. Lincoln Blvd. Suite 160,
    Oklahoma City, OK 73105-4210
    (405) 521-2384
    Web Page: http://www.ok.gov/conservation
    Twitter: https://twitter.com/conservation_ok
    Facebook: https://facebook.com/conservationok

    Natural Resources Conservation Service,
    100 USDA, Suite 206,
    Stillwater, OK. 74074-2655
    (405) 742-1204

    The Chairman. Words well spoken, Mr. Emmons. And the 
gentleman yields back.
    The chair now recognizes the Honorable Kevin Burns for 5 
minutes.

   STATEMENT OF HON. KEVIN BURNS, COMMISSIONER, WISE COUNTY, 
                       TEXAS, DECATUR, TX

    Mr. Burns. Chairman Lucas, Ranking Member Fudge, and other 
Members, thank you very much for this opportunity to speak 
today. I am Kevin Burns from Decatur, Texas. I have been 
serving the citizens of Wise County for 15 years as County 
Commissioner. I have been a teacher, a volunteer fireman, 
small-business owner, small rancher. And I still raise some 
cattle and hay crops in a small way in Wise County.
    I am the past chair of the National Watershed Coalition. It 
supports watershed sponsors with training through conferences, 
materials, and then some boots-on-the-ground, hands-on training 
in operation and maintenance in cooperation with NRCS, and I 
have enjoyed that opportunity.
    My written testimony contains some national facts and 
figures about the benefits of the watershed programs, but what 
I really want to share with you today is, and why I traveled 
here, is just to talk about what happens on a daily basis in my 
experiences in Wise County and what it means to us.
    Wise County has 108 flood control structures in our little 
900\2\ mile county. We have 85 dams that normally contain a 
pool of water, and I learned today that that the slow release 
was 10 days. I didn't know that until today. I just knew that 
they worked very well. We have 23 grade stabilization 
structures that are just small levees with V-cuts to either 
slow or direct the flow of water.
    I was lucky enough when I ran for Commissioner that the 
late former Wise County Judge Charles Wilhite came see me. This 
old family friend can to me with a little different attitude. 
He wanted to give me a little education, telling me that at the 
time we had 80 dams in the county. He also told me about a 
regional multi-state drought that we had between 1950 and 1957.
    Our economy in Wise County was mostly agricultural based, 
so most of the folks had to move into the city to get a job. 
Our economy was terrible. What little commerce was going on in 
the county was killed overnight, or almost overnight, by 
rainfall in 1957. It rained 24". It washed out 85 bridges in 
the county. What little was going on came to a halt. That was 
catastrophic.
    The county had yet to invest anything locally in P.L. 83-
566. The problem was solvable, and they had chose, because of 
budget, not to invest. It was in our best interest, obviously, 
at the time, that we needed to start investing. In 1961 we 
completed our first project and went on from there. We are well 
protected now.
    A major part of my responsibilities is roads. We have 990 
miles in our county. I maintain 340 of them in my precinct. 
Forty-six of those flood control structures are in my precinct 
because of the highly erodible soils and the change of 
elevation. They are near and dear to my heart.
    The importance of those dams was exemplified in 2015, in 
the spring. Our yearly average rainfall fell in the month of 
May that year. We had nine washouts in my precinct.
    Now, realize the difference here: 85 bridges washed out in 
1957, and now just nine small washouts. And those nine small 
washouts were in areas unprotected by P.L. 83-566 dams. They 
are incredibly effective.
    I have heard arguments that these P.L. 83-566 dollars, it 
needs to be a local investment and not a national investment. 
But we do put skin in the game. We put in conservation 
practices above these dams. We get the right-of-ways. And it is 
just not local benefits. Those benefits go downstream. There 
are areas outside of our county, other counties. And the lakes 
that are formed provide recreational opportunities, and two 
major lakes downstream from my county provide the water 
supplies for the City of Fort Worth and surrounding Tarrant 
County.
    The NRCS district really needs to plan and do some new 
projects. We have several deficiencies in my county. My story 
of this program benefiting my county is one of thousands across 
the nation. I appreciate you letting me share it with you. As 
you move forward in the 2018 Farm Bill, I encourage you to 
provide adequate funding for this program. It is much needed.
    And thank you very much for your time.
    [The prepared statement of Mr. Burns follows:]

  Prepared Statement of Hon. Kevin Burns, Commissioner, Wise County, 
                           Texas, Decatur, TX
    Mr. Chairman and Members of the Subcommittee:

    4I'm Kevin Burns from Decatur, Texas. First, thank you all for the 
opportunity to speak today. I've had the privilege of serving the 
citizens of Wise County almost 15 years as County Commissioner. I've 
been a teacher, a volunteer fireman, small business owner, and small 
rancher prior to running for local office.
    I serve the State of Texas on the Board of Directors for the 
conference of urban counties. Wise County is not considered an urban 
county having only about 70,000 people in 900\2\ miles, but our growth 
rate and proximity to the Dallas/Ft. Worth Metroplex qualify us to join 
that group. I'm a past chair of the National Watershed Coalition, which 
supports Watershed sponsors with training through regional conferences, 
hands on training, and resource materials.
    I still raise cattle and hay crops in rural Wise County near 
Decatur, TX. I've never thought of myself as a conservationist, but I 
was taught to maintain land that I owned or leased and to be conscious 
that the practices we do on the land affects its productivity in the 
future. That stewardship of our nation's resources is one of the things 
I wish to talk to you about today.
    While the United States Department of Agriculture (USDA) may be 
better known for providing a financial safety net for farmers and 
ranchers, USDA also provides an actual safety net for our rural 
communities. The Watershed and Flood Prevention Program (watershed 
program) is a vital, but often overlooked, infrastructure program 
within the Natural Resources Conservation Service (NRCS) portfolio.
    The watershed program authorizes NRCS to work with local units of 
government, like conservation districts and city/county governments, to 
install watershed protection and improvement projects that provide 
communities with flood prevention, agriculture water management, 
municipal water supply management, fish and wildlife habitat 
enhancement, as well as public recreation development.
    These projects create and protect vital infrastructure while 
conserving natural resources and contributing to local economies. The 
watershed program focuses on both the design and construction of 
structural water control measures and on land treatment measures. 
Watershed planning provides a basis for partnering at state and local 
levels to identify and co-invest in projects reflecting the highest 
priority needs.
    Flood prevention and reliable water quality created by the 
watershed program are essential to developing and maintaining strong 
rural communities. Watershed projects not only protect lives, property 
and reduce flood damages, but also create economic growth and 
strengthen local economies. Flood protection is essential to prevent 
the unnecessary loss of infrastructure and capital to developing 
economies in rural America.
    Investing in the watershed program expands opportunities for 
natural resource conservation and provides important national economic 
and environmental dividends for all Americans. There are countless 
successful examples that verify the value the watershed program brings 
to rural areas in the form of water supply, recreation, flood 
protection, and sustainable economic development. Watershed program 
projects are an economic engine that make participating communities 
more productive places to live, work and play.
    More than 11,800 flood control structures have been constructed in 
2,000 watersheds nationwide and they represent nearly \1/3\ of all dams 
ever built by the Federal Government. Every project requires that a 
portion of the watershed must be covered with installed best management 
conservation practices. Every year this system of flood control lakes 
and conservation measures protects over 47 million Americans and saves 
an estimated $2 billion through flood damage reduction.
    In a recent report to Congress,\1\ NRCS estimates that this 
program, by avoiding and reducing flood damages, annually provides more 
than $352 million in benefits to agriculture and more than $462 million 
in benefits to non-agricultural uses, such as roads, bridges, and 
homes. Other benefits, such as erosion control, water conservation, 
water quality improvement and irrigation efficiency, exceed $441 
million on agricultural lands and over $957 million in recreation, fish 
and wildlife, rural water supply, and municipal and industrial water 
supply, annually.
---------------------------------------------------------------------------
    \1\ Report to Congress, USDA-NRCS, Watershed Protection and Flood 
Prevention Program Multi-Year Plan.
---------------------------------------------------------------------------
    The watershed program also plays an important role in protecting 
resources vital to the agricultural economy as well. Agricultural water 
management includes measures that help to manage water supply for 
agriculture and rural communities. Measures include drainage water 
management, ground water recharge, irrigation management, water 
conservation, water quality improvement, and rural water supply.
    The watershed program is federally-assisted, but locally planned 
and implemented. Local project sponsors use local resources to maintain 
constructed project measures which contribute directly to a stronger 
national economy and a responsible national environmental future.
    Wise County has 108 flood control structures built under authority 
of Public Law 83-566 established by the United States Congress in the 
mid 1950s. We have 85 dams that normally contain a small pool of water 
and a larger pool with a slow controlled release during flood 
conditions. We have 23 grade stabilization structures that merely 
retard or direct water flow. These dams protect our county roadways 
which is a major portion of my responsibility as County Commissioner. 
My county has 990 miles of road. I am responsible for the maintenance 
of 340 miles in Precinct 2. Forty-six of those 108 dams are in my 
Precinct.
    I was lucky enough to be visited by the late former Wise County 
Judge Charles Wilhite during my first campaign. Judge Wilhite stressed 
the importance of the P.L. 83-566 program and gave me a short local 
history lesson that I would like to share with you. There was a 
regional/multi state drought from 1950 to 1957 that brought 
considerable hardship to our region. Our local economy was mostly 
agriculture based. It was tough to make a living, so a large portion of 
population moved from the area to find jobs in the city. That drought 
was relieved almost overnight in a flood in 1957.
    What little commerce going on in the county was further hindered 
due to that 24" rainfall over a weekend in 1957 that washed out 85 
bridges in my county alone. Even though the population had dwindled and 
revenues were low, the commissioner's court, the Wise County Water 
Control and Improvement District, and the Wise County Soil and Water 
Conservation District started investing local match funds and 
participating in the P.L. 83-566 programs, with our first project 
completed in 1961.
    I am fortunate to live in an area in which there continues to be 
cooperation between those and other entities to maintain our flood 
control dams. The importance of those dams was exemplified in the 
flooding in my county in the spring of 2015. We received more than our 
yearly average of rainfall in the month of May that year. We had a 14" 
rainfall in one afternoon in a small area of Precinct 2 and only had 
nine road washouts that made roads impassable. Please note the 
difference here; we had nine spots that were impassable opposed to the 
85 bridges that were washed out prior to the dams being built. All of 
those washouts were in watersheds not yet protected by P.L. 83-566 
projects. All roads were passable in Precinct 2 in the drainage 
protected by P.L. 83-566 dams.
    I've heard arguments against funding the P.L. 83-566 program that 
claim that it should be funded with local dollars. Local project 
sponsors do provide their share of the cost of projects in providing 
easements, right of ways, the cost of installing conservation 
practices, cost of working with landowners and more. But the benefits 
of these projects are not all local. These projects provide benefits 
many miles downstream often in other counties or even other states. 
These projects provide not just local benefits, but state and national 
benefits. Many of the lakes formed by flood control dams provide 
recreational areas, water supplies and hunting and fishing 
opportunities that are utilized by people from many miles away.
    Another benefit of the watershed program is the enhancement of 
water quality in urban areas. We recently developed a relationship with 
the Tarrant Regional Water District to help us maintain our dams and 
install conservation practices. The water district serves an area 
downstream from the watershed projects in Wise County that includes the 
majority of the population in Congressional District 12 and a small 
portion in District 13. Watershed projects and conservation practices 
in Wise County help protect both water quantity and quality in two 
major lakes downstream managed by the water district. These lakes 
provide water supplies for the City of Fort Worth and other areas of 
Tarrant County.
    My passion for the program was cultivated when first taking office 
by former Commissioner's Court members and conservation district 
members that lived through the floods in 1957, but now it is reinforced 
by the demonstrated benefits during my term in office. There are 
opportunities to provide benefits to many more citizens in this country 
through the P.L. 83-566 program.
    The recently passed FY 2017 Appropriations bill acknowledges the 
need for this important infrastructure program and appropriated $150 
million for Watershed Operations. We thank Congress for that support. 
As Members of Congress, you are key partners in extending the benefits 
of the watershed program. Your support for the program is vital. Thank 
you.

    The Chairman. Thank you, Commissioner.
    Mr. Peterson, you are recognized for 5 minutes.

           STATEMENT OF JOHN W. PETERSON, DIRECTOR OF
             GOVERNMENT RELATIONS, LAND IMPROVEMENT
               CONTRACTORS OF AMERICA, BURKE, VA

    Mr. Peterson. Mr. Chairman, Members of the Subcommittee, I 
am representing the Land Improvement Contractors of America 
today, and it is our contractors that have installed many of 
these watershed dams throughout our nation.
    In my previous years with the Soil Conservation Service I 
also have planned projects, designed dams, constructed dams as 
a project engineer, and directed the watershed programs 
nationally. While serving as the Executive Director of the 
National Watershed Coalition, I worked with Chairman Lucas as 
he championed the Small Watershed Rehabilitation Act.
    I am now also Chairman of the Northern Virginia Soil and 
Water Conservation District, and we have a watershed project in 
our district that has had four dams rehabilitated.
    There are about 2,100 watershed projects in the United 
States covering 145 million acres of projects in every state; 
11,845 dams have been constructed. The total average annual 
benefits is nearly $2.3 billion.
    Conservation practices are a vital part of each of these 
projects. They also increase the service life of the dams by 
reducing sediment accumulation. There are watershed dams in 218 
Congressional districts. The watershed as the logical unit for 
dealing with natural resource problems has long been 
recognized.
    In 1993, record flooding occurred across the Midwest, 50 
deaths occurred, and damages approached $15 billion. I also 
managed the emergency watershed programs then and was involved 
in that disaster recovery.
    After the floods passed, Iowa looked at their watershed 
projects and the flood damage reports in four of their 
counties, and the result was graphic. The areas that had 
watershed projects installed requested far less disaster 
assistance.
    A program evaluation also demonstrated that the actual 
benefits of costs in these projects was about 2.2:1, and the 
studies showed that more benefits were obtained than had been 
originally claimed. The actual adjusted economic benefits 
exceeded those planned by 34 percent. And those numbers are 
low, because many of these projects have exceeded their 
evaluation life, and the benefits continue long after.
    When properly maintained, these dams will provide benefits 
indefinitely. In addition, there is more infrastructure 
protected today than there was when the projects were planned.
    Chairman Lucas' Oklahoma has been a leader in these 
watershed projects. Oklahoma has 129 projects in 64 counties. 
These projects contain 2,107 dams and provide Oklahomans with 
$91.5 million in average annual benefits. Ranking Member 
Fudge's Ohio has 27 watershed projects covering over 1.8 
million acres; 77 dams have been built.
    Ohio also has many nonstructural watershed projects 
underway. Twenty-four of Ohio's 77 dams are high hazard, and 
some need to be rehabilitated to meet current dam safety 
standards.
    I am also very proud of my own watershed Pohick project 
just across the Potomac River. This was the first project 
planned in the United States where the watershed was being 
converted totally from rural to urban use. All the dams are 
planned as high-hazard structures, and the project also 
developed new guidelines for erosion and sediment control in 
urban areas.
    The Pohick project is operated and maintained by Fairfax 
County, and I would invite your Subcommittee Members to come 
over across the river sometime and visit us. We will give you a 
tour, and you would be very impressed.
    So why should the Federal Government be involved with these 
watershed programs? Well, they are not federally owned but 
federally assisted and locally owned. They are locally 
initiated. They consider environmental values. They address the 
needs of low-income and minority communities. And best of all, 
they are programs people actually like.
    Local conservation districts, the NRCS, and state 
conservation agencies combine to make a very effective delivery 
system for providing technical assistance to people. But that 
delivery system is currently strained.
    A healthy Federal partner is critical to this partnership. 
A delivery system is in place, but by continually downsizing 
NRCS, we are eroding the most effective and efficient means of 
working with people that has ever been developed anywhere.
    This system and its ability to produce food and fiber is 
the envy of the entire world. In my view, these watershed 
infrastructure programs are national priorities.
    Chamber of Commerce CEO Tom Donohue recently wrote, 
``According to a new Chamber poll, fully 70 percent of 
Americans want the Federal Government to invest in 
infrastructure.'' Our watershed project infrastructure should 
be a major part of that investment.
    Thank you for this opportunity.
    [The prepared statement of Mr. Peterson follows:]

    Prepared Statement of John W. Peterson, Director of Government 
     Relations, Land Improvement Contractors of America, Burke, VA
Opening
    Mr. Chairman and Members of the Subcommittee:

    Mr. Chairman and Members of the Subcommittee, I am John W. Peterson 
from Burke, VA, and I am honored to be asked to testify on the value 
and benefits of USDA's Watershed Protection and Flood Prevention Act 
(P.L. 83-566), the Flood Control Act (P.L. 78-534), and the Watershed 
Rehabilitation Amendments of 2000 (P.L. 106-472), representing The Land 
Improvement Contractors of America (LICA). LICA Member contractors have 
constructed many of our nation's flood control dams, and helped install 
most of the other conservation practices on our farms and ranches. I 
present this testimony in support of what I consider the most 
beneficial water resource conservation infrastructure programs ever 
developed in the United States. LICA understands full well the need to 
use our tax dollars wisely. That makes the work of your Subcommittee 
very important. It also makes it imperative that the Federal programs 
we have are those that provide real benefit to society, and are not 
programs that would be nice to have if funds were unlimited. LICA 
believes these watershed programs are examples of those rare programs 
that address our nation's vital natural resources infrastructure, do so 
in a way that provide benefits in excess of costs, and are programs 
that serve as models for the way all Federal programs should work.
    I will admit my bias in support of these beneficial programs. In my 
40 years with the old Soil Conservation Service (SCS), called the 
Natural Resources Conservation Service (NRCS) since 1994, I have 
planned watershed projects in MN, OH, IN, and AZ; designed watershed 
dams in MN, OH and IN, constructed watershed dams as a project engineer 
in MN, and directed the watershed program nationally for USDA in 
Washington, D.C. After retiring from USDA, and while serving as the 
Executive Director of the National Watershed Coalition (NWC), I worked 
with Oklahoma Representatives Lucas and Watkins, and the late Senator 
Paul Coverdell (GA) and Senator Blanche Lincoln (AR), as Chairman Lucas 
championed the passage the Small Watershed Rehabilitation Amendments of 
2000, P.L. 106-472. A good friend, Dr. Dan Sebert from Pawnee, OK, 
replaced me as the NWC Executive Director. He and the NWC are extremely 
good watershed program references. Coming full-cycle, I am also now the 
Chairman of the Northern Virginia Soil and Water Conservation District 
(NVSWCD). Our District is the cosponsor of the Pohick Watershed 
Project, along with Fairfax County. Four of our Pohick Watershed's six 
flood-control structures have been rehabilitated in recent years, some 
with assistance from the Rehabilitation Act. I believe my watershed 
program experience has given me a perspective that I hope is helpful to 
you.
General Watershed Program Observations
    There are about 2,100 Natural Resource Conservation Service (NRCS) 
assisted watershed projects in the Unites States, covering 145 million 
acres, with projects in every state. In 1,271 of these projects, 11,845 
flood control (or floodwater retarding) dams have been constructed by 
local watershed sponsors with NRCS assistance. In most cases, a local 
Soil and Water Conservation District (SWCD) is one of the local 
sponsors. In some cases, they are assisted by other cosponsors such as 
watershed districts or county government. The total average annual 
monetary benefits these projects produce is $2,257,132,064 (2016 
dollars). Nearly $2.3 billion. That is very significant! I have 
attached a listing of the number of watershed dams located in each 
state as attachment. In addition, over 282,000 acres of wetlands and 
over 9 million acres of upland wildlife habitat has been created or 
enhanced by watershed projects. Conservation practices that improve 
water quality are a vital part of all watershed projects. Practices 
such as terraces, waterways, grass buffers, strip cropping, and grade 
stabilization structures, are used to prevent soil erosion and reduce 
sediment. They also increase the service life of dams and their ability 
to provide flood damage reduction. There are watershed project dams in 
218 Congressional Districts across the nation.
    Note that I called these flood control dams floodwater retarding 
dams. I am sure you all remember the Great Midwest Flood of 1993. From 
May through September of 1993 record flooding occurred across ND, SD, 
NE, KS, MN, IA, MO, WI and IL. 50 deaths occurred and damages 
approached $15 billion. I also managed USDA Emergency Watershed Program 
then, and was involved in USDA's disaster assistance to the damaged 
areas. This flood wasn't caused by a single rainfall event, but was 
more of a prolonged hydro-meteorological event. The rains came to the 
area, stalled, and stayed for months. One thing that flood event taught 
me is that we humans don't really control floods. We are very good at 
reducing flood damages, but we do not control floods. Since then I have 
referred to these watershed dams as floodwater retarding dams, not 
flood control dams.
    However, the Great Midwest Flood also proved the many benefits of 
the watershed programs. After the floods passed, my SCS colleagues in 
IA, one of the states effected, looked at watershed projects and 1993 
flood damage reports in four Iowa Counties, Crawford, Union, Mills, and 
Decatur. The result was graphic. The areas that had watershed projects 
installed requested far less disaster assistance.\1\ Roger Schnoor, who 
at that time was the President of the Iowa Watersheds organization (now 
disbanded) said ``These watershed projects stood out like protected 
islands in a sea of damage.''
---------------------------------------------------------------------------
    \1\ An Iowa NRCS PDF showing Crawford, Union, Mills and Decatur 
Counties entitled ``Watershed Projects and 1993 Flood Damage Reports in 
Four Iowa Counties.''
---------------------------------------------------------------------------
    This is just one of several such evaluations that occur across the 
country that have demonstrated that watershed projects significantly 
reduce the need for emergency recovery following major floods.
    The USDA assisted watershed programs address multiple natural 
resource objectives. Objectives that can be addressed are flood damage 
reduction, watershed protection (erosion and sediment control), water 
quality improvement, rural water supply, water conservation, fish and 
wildlife habitat improvement, recreation, irrigation, water management, 
groundwater recharge, etc. That is flexibility emphasizing multiple 
uses.
    People should understand these Federal watershed program funds are 
only a part of the total that is committed to this vital national, 
conservation purpose. The local project sponsors in these ``federally 
assisted'' endeavors also have a tremendous investment. As a minimum, 
they provide all the land, easements, and rights-of-way costs for 
construction of the structures, as well as being responsible for 100% 
of the operation and maintenance costs for the life of the structure. 
Congress increasingly talks of wanting to fund those investments in our 
nation's infrastructure that will sustain us in the future. Water 
quality and watershed infrastructure management provide that 
sustainability, and should be a national priority.
    My colleagues on this panel have done an excellent job of telling 
you about the programs themselves. I will concentrate on what these 
projects have done, their benefits. And those benefits are very 
substantial.
    I will start by mentioning the results of a complete watershed 
program evaluation. The most current program evaluation I know of,\2\ 
demonstrated the actual ratio of benefits to costs in all those 
projects completed as planned, was approximately 2.2:1. And the study 
showed that more benefits were obtained from these projects than had 
been originally claimed. The actual adjusted economic benefits exceeded 
the planned benefits by 34%.
---------------------------------------------------------------------------
    \2\ Evaluation of the Watershed Protection and Flood Prevention 
Program, USDA-SCS.
---------------------------------------------------------------------------
    The watershed projects produce $2,257,000,000 in average annual 
benefits (2016 dollars). And those benefits are low because many of 
these projects have exceeded their ``evaluation life'' (the economic 
evaluation that calculates when the anticipated benefits will have 
repaid the projects costs), and when properly maintained, repaired, and 
failing components replaced, those dams will continue providing 
benefits indefinitely. In addition, there is considerably more 
infrastructure being protected by these projects today than when they 
were first planned. Properly maintained, our U.S. watershed program 
dams will serve us far longer than their economic evaluated life. And I 
would add that 2018 is a milestone year in the watershed program as 
more than 50% of the projects dams will have exceeded their evaluated 
life, and their benefits continue.
    The evaluation also mentioned that the projects provided a wide 
range of social benefits, benefits that enhance the quality of people's 
lives. Many of these benefits are not included in the calculation of 
monetary effects because of the difficulty in assigning monetary 
values. Yet these social benefits cannot be ignored simply because 
quantification is difficult. Some of these societal benefits are 
reducing;

  <bullet> the threat of loss of life.

  <bullet> health hazards such as insect breeding pools, sewage 
        overflows, and chronic wet conditions that are particularly 
        hazardous to the elderly and children.

  <bullet> significant risk and inconvenience associated with damage to 
        roads and bridges.

  <bullet> disruption of necessary services such as police and fire 
        protection, and the need for emergency equipment.

  <bullet> pollution of drinking water.

  <bullet> pollution of water used for water-based recreation.

  <bullet> interruptions of utilities.

    What if other Federal programs did so well? Recent budget proposals 
to limit funding for the Watershed Operations and Watershed 
Rehabilitation Programs which help communities improve water quality, 
control erosion, reduce flood damages, protect people's lives, and 
improve local infrastructure, is short sighted. There are also 
proposals to reduce funding for USDA's Conservation Technical 
Assistance (CTA) Program, the very lifeblood of voluntary conservation 
in the United States. These proposals would eliminate programs that 
produce net benefits to society as a whole. That simply makes no sense. 
We in the conservation community should talk more about how these 
programs benefit all of society, not just in rural areas, but 
everywhere.
    One other national benefit worth mentioning is the availability of 
DamWatch, a new web-based application that provides real-time 
monitoring of rainfall, snowmelt, stream flow, and seismic events that 
could pose potential threats to dam safety. It will help watershed 
project sponsors monitor and manage dams so they can better prevent and 
protect against hazardous, costly and potentially catastrophic events.
Project Benefits in Select States
    Chairman Lucas's Oklahoma has long been a leader in these watershed 
programs. OK has 129 watershed projects in 64 counties. These projects 
contain 2107 flood damage reduction dams, and provide Oklahoman's with 
$91.5 million in average annual monetary benefits. And Chairman Lucas's 
3rd Congressional District has 1,040 dams providing his district with 
$34.5 million in average annual monetary benefits. Oklahoma is probably 
the best state in having good watershed historical information. Much of 
that is due to the work of a good friend Larry Caldwell, P.E. (NRCS 
Retired), who has personally kept that information current. He also 
keeps national information current.
    Ranking Member Fudge's Ohio has also been active. There are 27 
watershed projects in Ohio covering over 1.8 million acres. To date 77 
floodwater retarding dams have been built. Ohio also has a number of 
non-structural watershed projects underway. Twenty-four of Ohio's 77 
dams are classified as high hazard, and some do need to be 
rehabilitated to meet current dam safety standards. The current cost 
estimate for upgrading all Ohio's watershed dams to meet Ohio Dam Law 
is $6.3 million.
    In my own Commonwealth of Virginia, NRCS has assisted sponsors with 
construction of 109 single-purpose flood control dams and 41 multiple-
purpose structures. Dams have been installed in 35 watersheds within 27 
counties across Virginia at an original cost of over $151 million. Over 
time, the recreational benefits have exceeded the levels expected 
during the planning process for many of the sites that were built. Of 
the 41 multiple-purpose structures, 25 were built with recreation as a 
purpose. Of those, 11 have public access recreational facilities. Ten 
of the 15 structures built with water supply as the only secondary 
purpose also have public recreation. The big surprise was that 16 of 
the single-purpose flood control dams also have public recreation 
facilities. Together, 25% of the dams have public access recreation. 
Fishing, boating, camping, hiking, and bird watching are just a few of 
the recreational benefits. From the social perspective, the dams have 
become part of the fabric of the community. In several places, there 
are lake-based events that bring tourism into the county. All of these 
activities bring value to the community that is measured not only in 
the associated economics, but in giving an appreciation of nature, 
improving physical and mental health, and contributing to the quality 
of life. NRCS can be proud of the way that the people have made these 
reservoirs a part of their daily lives. In addition to flood damage 
reduction, 15 of these structures provide community water supply and 37 
are used for public recreation. Between 2005 and 2016, NRCS also helped 
communities rehabilitate ten of those dams at a total project cost of 
over $22.3 million.
A Very Unique Project, Pohick Watershed, Fairfax County, VA
    I am very proud of a watershed project just across the Potomac 
River in Fairfax, County, VA, in the shadow of our nation's Capital. It 
is the Pohick Creek Watershed Protection and Flood Prevention Project 
\3\ whose sponsors are my own Northern Virginia Soil and Water 
Conservation District which I serve as Chairman, and Fairfax County, 
represented by the Department of Public Works and Environmental 
Services (DPWES), and County Park Authority (PA). The original Work 
Plan calculated the b/c ratio to be 1.4:1. The watershed area is 22,690 
acres, and the watershed population in 1965 was only 4,767 people. In 
2000 the population had grown to 117,000, and it is about 150,000 
today, in a County of nearly 1.2 million, about 14% of the state's 
population and the most populous County in the Commonwealth. This 
project planning began in 1965 when erosion from construction activity 
had virtually destroyed several residential lakes. In addition, a 
multimillion-dollar sewer referendum opened up the Pohick Watershed for 
residential and commercial development. These circumstances caused 
public concern that rapid conversion of land from rural to urban uses 
was creating irreversible damage to streams and the pleasant hillsides. 
Planning this watershed project resulted in many national firsts. This 
was the first watershed project planned in a watershed being converted 
totally from rural to urban land use. All the dams were planned as 
high-hazard structures providing protection from the 100 year frequency 
storms downstream. And the project brought forth new guidelines for 
erosion and sediment control (land treatment) in urban situations. An 
erosion and sediment control ordinance was passed by the county in 
1967. That ordinance later became the model for the erosion and 
sediment control law passed by the Commonwealth of VA in 1967. In 
addition to dealing with urban erosion and sediment control, the 
project contains six floodwater retarding dams. The County says the 
major benefits of the project are that it:
---------------------------------------------------------------------------
    \3\ Pohick Creek Watershed Work Plan, Fairfax County, VA. January 
1967.

---------------------------------------------------------------------------
  <bullet> Protects stream valleys from flooding.

  <bullet> Promotes orderly residential and commercial development.

  <bullet> Expands water based recreation opportunities for residents.

  <bullet> Protects wildlife habitat in flood plain areas.

  <bullet> Influenced the establishment of effective erosion and 
        sediment control ordinances.

  <bullet> Serves as a laboratory for new ideas on urban soil & water 
        conservation measures.

  <bullet> Reduces siltation in rivers and lakes.

  <bullet> Challenges developers and landowners to protect the natural 
        environment.

  <bullet> Preserves open space in stream valleys.

  <bullet> Eliminates unsightly and expensive concrete rip-rapped 
        channels.

  <bullet> Provides aesthetic backdrop for adjacent residential and 
        commercial development.

  <bullet> Provides improved storm water quality to the Potomac River 
        and & the Chesapeake Bay.

    The Pohick Watershed Project is operated and maintained by the 
County DPWES and PA, and they are one of the best project sponsors in 
the entire United States. Our dams are impeccably maintained, and 
constantly used for recreation by residents. I would invite any of you 
Subcommittee Members to travel to Fairfax County for about 4 hours some 
day, and I will arrange for County Officials to join me in giving you a 
first-hand tour. You would be impressed.
    I will share a comment from the Chairman of our Fairfax County 
Board of Supervisors, Sharon Bulova, on how she feels about the Pohick 
Watershed and the relationship the County has with NRCS.

          The county would not have been able to upgrade the emergency 
        spillways on four of our P.L. 83-566 high hazard dams to comply 
        with current dam safety standards in a timely fashion without 
        the great partnership and funding through the NRCS. The 
        county's P.L. 83-566 high hazard dams can now safely convey the 
        storm water flows from a probable maximum precipitation event 
        which correlates to roughly 27" of rain in a 6 hour period as a 
        result of these recent upgrades. The lakes are considered a 
        valued asset by our community, providing flood protection for 
        many downstream residential and commercial properties, roadways 
        and a railroad while also serving as a recreational amenity. 
        These lakes also have been designed and serve to improve 
        downstream water quality in the Pohick Creek watershed, the 
        Potomac River and Chesapeake Bay by capturing sediment and 
        other pollutants. NRCS has made a positive impact on the 
        health, safety and welfare of Fairfax County.
                            Chairman Sharon Bulova, Fairfax County, VA.
Why Watershed Programs?
    The watershed as the logical unit for dealing with natural resource 
problems has long been recognized. P.L. 83-566 offers a complete 
watershed management approach, and should have a prominent place in our 
current Federal policy emphasizing watersheds and total resource 
management based planning. Proper watershed management improves water 
quality. Why should the Federal Government be involved with these 
watershed infrastructure programs?

  <bullet> They are infrastructure programs whose objectives are the 
        sustaining of our nation's precious natural resources for 
        generations to come.

  <bullet> They are not federally owned, but federally assisted, 
        locally sponsored and owned, operated and maintained. They do 
        not represent the continued growth of the Federal Government.

  <bullet> They are locally initiated and driven. Decisions are made by 
        people affected, and respect private property rights.

  <bullet> They share costs between the Federal Government and local 
        people. Local sponsors pay between 30-40% of the total costs of 
        P.L. 83-566 projects.

  <bullet> They produce net benefits to society.

  <bullet> They consider and enhance environmental values. Projects are 
        subject to the discipline of being planned following the 
        National Environmental Policy Act (NEPA), and the Federal 
        ``Principles and Guidelines'' for land and water projects. That 
        is public scrutiny!

  <bullet> They are flexible infrastructure programs that can adapt to 
        changing needs and priorities.

  <bullet> They are programs that encourage all citizens to 
        participate.

  <bullet> They can address the needs of low-income and minority 
        communities.

  <bullet> They are targeted to address the most serious resource 
        problems.

  <bullet> And best of all--they are programs the people like!

    Every state in the United States has benefited from the Small 
Watershed Program.
Some Suggestions
    There are some suggestions I would like to make concerning this 
very important watershed legislation. I believe the objectives of this 
legislation should be expanded to include more non-structural water 
quality practices, and allow the law to provide cost-sharing in 
developing rural water supplies (without water there is no rural 
development).
    With the ``downsizing'' the NRCS has experienced, I would be remiss 
if I did not express concern as to their ability to provide adequate 
technical support to these watershed programs. NRCS technical staff has 
been significantly reduced, and budget constraints have not allowed 
that expertise to be replaced. Traditional fields of engineering and 
economics are but two examples where expertise has been lost. I see 
many states where NRCS capability to support their responsibilities is 
seriously diminished. This is a disturbing trend that should be halted. 
This downsizing has a very serious effect on state and local 
conservation programs. Local Watershed and Conservation Districts and 
the NRCS combine to make a very effective delivery system for providing 
the technical assistance to local people--farmers, ranchers and rural 
communities--in applying needed conservation practices and watershed 
programs. But that delivery system is currently strained! A healthy 
Federal partner is critical to this partnership success. Many states 
and local units of government also have complementary programs that 
provide financial assistance to land owners and operators for 
installing measures that reduce erosion, improve water quality, and 
maintain environmental quality. The NRCS provides conservation 
districts, through agreement with the USDA Secretary of Agriculture, 
``on the land'' technical assistance for applying these measures. The 
delivery system currently is in place, and by downsizing NRCS, we are 
eroding the most effective and efficient coordinated means of working 
with local people to solve environmental problems that has ever been 
developed. Our system and its ability to produce food and fiber is the 
envy of the entire world. In my view, these watershed infrastructure 
programs are most important in terms of our national priorities.
    U.S. Chamber of Commerce President and CEO Tom Donohue recently 
wrote, ``After years of talking about failing infrastructure, we 
finally have the bipartisan buy-in, political will, and public support 
to do something about it. The President has pledged to act on this 
priority--and the public supports it. According to a new U.S. Chamber 
poll, fully 70 percent of Americans want the Federal Government to 
invest in infrastructure. By similar margins, the poll showed that 
Americans understand that infrastructure investment will grow the 
economy, help businesses, and create jobs.'' Our watershed project 
infrastructure should be a major part of this infrastructure 
investment.
    The Land Improvement Contractors of America (LICA) dates to 1951, 
and represents those earthmoving contractors that have installed many 
of the watershed dams and most of the conservation practices on our 
nation's landscape over time. They work closely with Soil & Water 
Conservation Districts and their motto is ``Dedicated to the 
Professional Conservation of Soil & Water.'' The focus of LICA is to 
encourage high standards of workmanship in resource management land 
improvement practices, and to promote private enterprise in land 
improvement contracting. Training and safety are key LICA activities. 
They have also worked very closely with NRCS over the years.
    Let me close by sharing the LICA Creed.

                             The LICA Creed
 
 
 
                   Land, the Foundation of the Nation,
                        the basis of all wealth,
           the heritage of the wise, the thrifty and prudent,
                     the poor man's joy and comfort,
                       the silent partner of man,
                 the producer of food, fiber, and fuel.
                         The basis of factories,
                        the foundation of banks,
                  all that man builds is from the land.
             We often take it for granted, or even abuse it,
        and yet many unthinking and unknowingly pass the land by.
 What man finally does with the land will be the deciding factor of his
                                survival.
 

    LICA and I pledge our full support to you as you continue your most 
important work. I have nearly sixty years' experience in natural 
resource watershed infrastructure conservation, and would be pleased to 
serve as a resource as needed, as would our contractor members.
    Thank you for allowing me this opportunity.
            Respectfully submitted by:
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
John W. Peterson,
Director of Government Relations,
Land Improvement Contractors of America (LICA).
                               Attachment

----------------------------------------------------------------------------------------------------------------
                                         Program Funding Code Or Project Authorization
 Accumulation By State Or  ------------------------------------------------------------------------     Total
         Territory           P.L. 83-566    P.L. 83-534       Pilot         RC&D          Other
----------------------------------------------------------------------------------------------------------------
                 Alabama             100              0              0             7             0           107
                 Arizona              21              0              2             2             0            25
                Arkansas             181              0             24             3             0           208
              California              15              0              1             0             0            16
                Colorado              87              0             55             3             0           145
             Connecticut              29              0              0             1             0            30
                 Florida              10              0              0             0             0            10
                 Georgia             218            117             12            10             0           357
                  Hawaii               8              0              0             1             0             9
                   Idaho               3              0              0             0             0             3
                Illinois              55              0             11             0             0            66
                 Indiana             132              0              0             2             0           134
                    Iowa           1,066            485             29            35             0         1,615
                  Kansas             800              0             14            17             0           831
                Kentucky             182              0             17             1             0           200
                        Louisiana     35              0              0             0             0            35
                   Maine              16              0              0             0             0            16
                Maryland              16              0              0             0             0            16
           Massachusetts              29              0              0             1             0            30
                Michigan              13              0              0             0             0            13
               Minnesota              37              0              8             6             0            51
             Mississippi             188            367              0             5             0           560
                Missouri           1,148              0             30            25             0         1,203
                 Montana              16              0              0             3             0            19
                Nebraska             619              0            106            13             0           738
                  Nevada               8              0              0             0             0             8
           New Hampshire              24              0              0             0             0            24
              New Jersey              19              0              0             1             0            20
              New Mexico              75              0              2             2             0            79
                New York              52              0              2             5             0            59
          North Carolina             101              0             11             2             0           114
            North Dakota              39              0             10             1             0            50
                    Ohio              48              0             16             0             0            64
                Oklahoma             987          1,107              6             7             0         2,107
                  Oregon               6              0              0             0             0             6
            Pennsylvania              82              0              0             9             0            91
          South Carolina              97              0              7             1             0           105
            South Dakota              33              0              2            21             3            59
               Tennessee             133              0              9             1             0           143
                   Texas             697          1,242             60             4             0         2,003
                    Utah              40              0              3             2             0            45
                 Vermont               4              0              0             0             0             4
                Virginia             118             29              3             0             0           150
              Washington               3              0              0             0             0             3
           West Virginia              77             81              7             4             1           170
               Wisconsin              85              0              2             1             0            88
                 Wyoming              12              0              0             1             1            14
             Puerto Rico               2              0              0             0             0             2
                           -------------------------------------------------------------------------------------
  Totals..................         7,766          3,428            449           197             5        11,845
----------------------------------------------------------------------------------------------------------------


    The Chairman. Thank you, Mr. Peterson.
    Mr. Finney, you are recognized for 5 minutes.

         STATEMENT OF JOHN FINNEY, PRESIDENT, RED RIVER
  MANAGEMENT BOARD; CO-CHAIR, RED RIVER RETENTION AUTHORITY, 
                          HUMBOLDT, MN

    Mr. Finney. Good morning, Mr. Chairman, Ranking Member, and 
Members of the Committee. My name is John Finney, and I serve 
as the President of the Red River Watershed Management Board of 
Minnesota and the co-Chairman of the Red River Retention 
Authority. I farm with my brother Dan near the Canadian border 
along the Red River up north where we experience frequent 
flooding and extended inundation of floodwater on our land.
    The Red River Retention Authority represents 22 Red River 
watersheds and water resource districts in North Dakota and 
Minnesota. The Retention Authority is a joint powers agreement 
between the Minnesota Red Board and the North Dakota Red River 
Joint Water Resources districts.
    The mission of the Retention Authority is to implement the 
long-term flood solutions plan set forth by the Red River Basin 
Commission, and you have an attachment that would have that 
report in it.
    Since the devastating flood of 1997, the Red River Board 
and the North Dakota Joint Board, the Retention Authority, 
along with several partners, have implemented projects that 
would provide over 185,000 acre-feet of flood storage upstream. 
While this is significant, it is only about \1/5\ of the basin 
goal.
    These projects reduce flooding, improve water quality, and 
enhance wildlife habitat and recreation. An acceleration of 
these efforts has occurred with the initiation of 20 RCPP, 
Regional Conservation Partnership Program, watershed planning 
efforts throughout the Red River Basin.
    During the development of the 2014 Farm Bill, the Retention 
Authority worked with our Federal Congressional delegations in 
Minnesota and North Dakota to modify existing policies and add 
a cost-share funding component to implement retention projects. 
A few key enhancements were suggested to modify the USDA P.L. 
83-566 Program. These proposed modifications include 
eliminating the requirement under economic and environmental 
principles and guidelines for water resources and 
implementation studies from cost ratio calculations based on 
each individual project and instead allow flood control 
projects to be based an overall basin plan.
    Since our original suggestions to modify the P.L. 83-566 
Program were not fully addressed, local watershed districts 
have encountered challenges with identifying and calculating 
the true and total benefits from implementing flood retention 
and flood damage reduction and environmental enhancements 
projects. Traditional benefit-cost analysis used by USDA for 
water resource projects makes the likelihood of future Federal 
funding to assist with retention project construction 
difficult.
    The priority of the Red River Board and the Retention 
Authority and its member districts is to demonstrate that the 
continued planning and implementation of these types of 
projects will enhance the infrastructure of rural America, 
improve water quality, and establish critical wildlife habitat 
for all basin residents.
    I propose that the Federal cost-share for the planning and 
implementation of flood retention and flood damage reduction 
projects should be based on their economic, ecological, and 
social benefits provided to the entire Red River Basin, 
comparable to the justification of various USDA conservation 
programs. This approach would be a significant improvement to 
the formula for Federal funding assistance that encourages the 
public-private partnership for the Red River Basin watersheds.
    For rural America to compete with this program, there needs 
to be a modification of existing programs or new programs 
created that allow partnerships to thrive and encourage project 
implementation. These changes would assist in strengthening and 
achieving the partnership goals identified in the RCPP program.
    The 2014 RCPP program was an excellent start to assist 
organizations like our Red River Board and the Retention 
Authority to reach their goals. The foundation has been laid to 
plan and build distributed retention projects to alleviate 
local watershed and basin flooding problems while incorporating 
environmental enhancements to improve water quality, wildlife 
habitat, water supply, and recreation.
    Collectively we must continue to assist one another in 
achieving a safe and economical, productive Red River of the 
North basin. Please consider implementing these proposed 
changes to provide for USDA funds to be utilized for watershed 
and water resource projects using a variable cost-share rate 
based on true and identified needs not only of the RCPP 
watersheds, but the entire Red River basin.
    Thank you for the opportunity to provide testimony to you 
today. We sincerely appreciate your continued efforts in 
drafting the new farm bill.
    [The prepared statement of Mr. Finney follows:]

  Prepared Statement of John Finney, President, Red River Management 
      Board; Co-Chair, Red River Retention Authority, Humboldt, MN
    John Finney, President, Red River Watershed Management Board 
(RRWMB), Minnesota and Co-Chair, Red River Retention Authority (RRRA), 
farmer and resident of the Red River Basin.
    Good morning Mr. Chairman and Members of the House Agriculture 
Committee.
    My name is John Finney and I serve as the President of the RRWMB of 
Minnesota and as Co-Chair for the RRRA. I also farm with my brother, 
Dan Finney, near the Canadian border along the Red River of the North 
where we experience frequent flooding and extended inundation of 
floodwater on our farm.
    The RRRA represents 22 Red River of the North Basin watersheds and 
water resource districts in North Dakota and Minnesota. The RRRA is a 
partnership between the Minnesota RRWMB and the North Dakota RRJWRD. 
The genesis of the RRRA is to implement the Long Term Flood Solutions 
plan set forth by the Red River Basin Commission (see Attachment A). 
The RRRA's basin wide goal is a 20% reduction in peak flows on the Red 
River of the North main stem and to reduce local watershed flooding by 
distributed watershed storage of floodwaters in upstream floodwater 
retention projects.
    Since the devastating flood of 1997, the RRWMB, RRJWRD and RRRA 
along with many Federal, state and local partners have implemented 
projects which have provided over 185,000 acre-feet of flood storage. 
While this is significant, it's only about \1/5\ of the basin goal.
    These projects reduce flooding to residents and properties, improve 
water quality, and enhance wildlife habitat and recreation. An 
acceleration of these efforts has occurred with the initiation of 20 
Regional Conservation Partnership Program (RCPP) watershed planning 
efforts throughout the Red River of the North Basin. The RRRA secured 
USDA RCPP funding in May of 2015. As a result, 20 small watershed plans 
in thirteen major watersheds in the Red River Basin are currently being 
developed throughout the basin (see Attachment B).
    In the development of the 2014 Farm Bill, the RRRA worked 
diligently with our Federal Congressional delegations in MN and ND to 
modify existing policies and add a cost-share funding component to the 
proposed farm bill to implement retention projects. A few key 
enhancements were suggested to modify the USDA Natural Resources 
Conservation Service (NRCS) Small Watershed Protection program, or P.L. 
83-566 program. The ``P.L. 83-566 watershed'' program could be much 
more successful in the Red River basin if the suggested program 
modifications were made to address basin-wide resource issues in 
addition to the current local watershed resource issues.
    These proposed program modifications include; eliminate the 
requirement under economic and environmental principles and guidelines 
for water resources implementation studies for individual benefit to 
cost ratio calculations on each individual project and instead allow 
flood control projects to be based upon an overall basin plan (see 
Attachment C; pages 10 and 11: RRRA Consolidated Subcommittee reports 
dated March 28, 2011 for other specific recommendations).
    Since our original suggestions to modify the P.L. 83-566 program 
were not fully addressed, local watershed districts working with their 
consultants in planning the 20 RCPP watersheds have encountered 
challenges with identifying and calculating the true and total benefits 
from implementing flood retention and flood damage reduction and 
environmental enhancement projects. Traditional benefit-cost analysis 
used by USDA for water resource projects makes the likelihood of future 
Federal funding to assist with retention project construction 
difficult.
    A priority of the RRWMB, RRRA and its affiliated member watershed 
and water resource districts is to demonstrate that the continued 
planning and implementation of projects will enhance the infrastructure 
of rural America, improve water quality in lakes and streams, and 
establish critical wildlife habitats for all Red River basin residents. 
Determining the value of input costs of fertilizer or the revenue 
generated from hunting can be calculated, but valuing societal benefits 
of having adequate water quality and wildlife habitat is much more 
subjective and controversial.
    I propose that Federal cost-share for the planning and 
implementation of flood retention and flood damage reduction projects 
should be based on their economic, ecological and social benefits 
provided to the entire Red River of the North basin from a programmatic 
perspective comparable to the justification of various USDA 
Conservation Programs. This approach would be a significant improvement 
to the formula for providing Federal assistance that encourages a 
``Public-Private-Partnership'' for the Red River of the North basin as 
well as small watersheds. For rural America to compete with this 
program, there needs to be modification of existing programs or new 
programs created that allow partnerships to thrive and encourage 
project implementation. These changes would assist in strengthening and 
achieving the partnership goals identified in the RCPP program.
    The 2014 RCPP was an excellent start to assist organizations like 
the RRWMB and the RRRA, which I represent, to reach their goals. The 
foundation has been laid to plan and build distributed retention 
projects to alleviate local watershed and basin flooding problems while 
incorporating environmental enhancements to improve water quality, 
wildlife habitat, water supply and recreation. Collectively, we must to 
continue to assist one another in achieving a safe and economically 
productive Red River of the North basin.
    Please consider implementing these proposed changes to provide for 
USDA funds to be utilized for watershed and water resource projects 
using a variable cost-share rate based on true and identified needs not 
only of RCPP watersheds but the entire Red River of the North basin.
    Thank you for the opportunity to provide testimony to you today. We 
sincerely appreciate your continued efforts in drafting the new farm 
bill.
                             [Attachment A]
Red River Basin Commission's Long-Term Flood Solutions for the Red 
        River Basin
    Report Includes:

  <bullet> LTFS Executive Summary.

  <bullet> Conclusions and Recommendations for Action.

  <bullet> Funding Timeline for Project Implementation Costs: Along the 
        Red River of the North and Tributaries.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
September 2011

 
 
 
                       Red River Basin Commission
Moorhead Office,                     Winnipeg Office,
119 5th St. S., Ste. 209,            410-112 Market Ave.,
P.O. Box 66,                         Winnipeg, MB
Moorhead, MN 56561-0066              R3B 0P4
218-291-0422                         204-982-7250
218-291-0438 Fax                     204-982-7255 Fax
1-866-629-4498 Toll Free
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="37444356515177455253455e4152455556445e5954585a5a5e44445e585919584550">[email&#160;protected]</a>    www.redriverbasincommission.org
 

Vision
    A Red River Basin where residents, organizations, and governments 
work together to achieve basin-wide commitment to comprehensive 
integrated water stewardship and management.
Mission
    To create a comprehensive integrated basin-wide vision, to build 
consensus and commitment to the vision, and to speak with a unified 
voice for the Red River Basin.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Red River Basin Commission's Long-Term Flood Solutions for the Red 
        River Basin
    The Red River Basin is an international, multi-jurisdictional 
watershed of 45,000\2\ miles, with 80 percent of the basin lying in the 
United State[s] and 20 percent in Manitoba, Canada. Eighteen Minnesota 
counties and 22 North Dakota counties lie wholly or partially in the 
basin. The economic impact of the basin, from both urban-generated 
activity and a vibrant agricultural economy, is significant. This basin 
is home to more than half a million people, and serves as a jobs, 
education and medical hub, in addition to a world-renowned agricultural 
producer.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Need for Action
    The increase in frequency and magnitude of flooding in the Red 
River basin is unmistakable. The spring flood of 1997 that decimated 
the metro center of Grand Forks-East Grand Forks and gravely threatened 
areas throughout the basin introduced a decade of flooding. Since 2000, 
the basin has experienced damaging flooding in all but 2 years. Since 
1997, most sites along the main stem have seen levels of flooding at or 
close to 100 year levels, some in more than one flood event. And 
tributary areas have experienced up to 500 year flood levels during the 
past decade. We know today that larger floods are both possible and 
probable.
The Impetus
    Before the major flood waters of 2009 had even receded, state 
legislators in North Dakota and Minnesota asked the Red River Basin 
Commission (RRBC), as an international basin-wide organization, to 
spearhead the effort to develop a comprehensive, proactive plan that 
responds to and mitigates flooding throughout the watershed. 
Corresponding with the legislative charge were appropriations of half a 
million dollars from each state to execute the project. The RRBC was 
uniquely positioned for this endeavor given its ongoing organized 
effort to further commitment to shared land and water stewardship goals 
in the basin, including the goal of flood damage reduction.
The Process
    The LTFS study process brought together professional and citizen 
water managers from all levels and from all the reaches of the basin. 
In addition to hands on involvement from the RRBC Board of Directors, 
umbrella committees were assembled (Policy, Technical) and specific 
issue workgroups to dissect the issues and identify solutions. In 
addition, a number of outside experts and agencies were contracted to 
develop information and analysis for central questions addressed in the 
study.
    Most importantly, the study was a grass-roots effort. It was 
launched with an extensive public engagement process of 21 public flood 
forums held in the Minnesota, North Dakota and South Dakota portions of 
the basin, with more than 1,000 attendees in total.
    Citizens' experiences, problems and concerns with flooding in the 
basin were solicited, together with suggestions for solutions. It was 
this public input that helped shape the study's committees and issues 
to explore. A second series of public meetings was held in spring of 
2011 in order to gather feedback from citizens on the primary 
directions and conclusions of the study. That feedback helped to guide 
final conclusions and recommendations. The results of the overall study 
findings are presented in this report to assist the basin's residents, 
community leaders, water managers and policy makers.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
                    Assumptions for Future Conditions
                 Pertinent to the LTFS plan development
                       adopted by RRBC Board 2010
 
    Components of the LTFS plan are intended to be developed and
 implemented over the next 50 years. It is important to understand the
 assumptions under which this plan was developed. The following describe
 basic assumptions about several issue areas in the Red River basin that
 are key to plan development.
    Agriculture will continue to be the dominant land use through out
 the basin. Adequate surface drainage has been and will continue to be
 integral to maintaining productivity of cropland. Subsurface drainage
 is likely to become increasingly popular.
    Current development trends will continue into the foreseeable
 future. The major urban centers and communities will continue in their
 present locations. Major metro areas will continue to grow. Future
 development will occur in compliance with floodplain management
 regulations.
    Floods will continue into the future. Floods larger than
 historically experienced can be expected to occur.
    Flood damage reduction will need to be implemented in the basin
 based primarily on the identified needs of the basin residents and
 their willingness to provide or seek the funding necessary to implement
 the measures which they believe are appropriate, effective, and
 justified. State and Federal agencies will support the implementation
 of the various measures based on their policies, regulations and
 availability of funding. Flood damage reduction is just one issue that
 affects the sustainability of the region.
    Other key resource issues need to be considered as this plan is
 developed and implemented, including droughts, water supply, water
 quality, recreation and other natural resource areas.
------------------------------------------------------------------------


------------------------------------------------------------------------
 
-------------------------------------------------------------------------
                 Guidelines for Protection in the Basin
 
    Before the LTFS study, the only site protection guideline for levels
 of protection was the Federal (FEMA) requirement that mortgaged
 structures in 100 year floodplains (or lower) carry flood insurance.
 The problem with these guidelines for the Red River basin is that 100
 year flood levels have been experienced on most reaches of the main
 stem and far surpassed in some tributary areas. RRBC developed baseline
 goals for levels of flood protection during the project.
------------------------------------------------------------------------

Level of Flood Protection Goals
    The LTFS review of current local protection policies and practices 
revealed that the basin lacks adequate guidelines on levels of 
protection appropriate for various basin locations. The following goals 
for levels of protection were developed as part of the study and 
approved by the RRBC to serve as a guideline for the residents of the 
Red River basin, its communities, and state/provincial and Federal 
agencies, as they plan and implement future local protection projects 
(see Appendix D, Table D-3). The intended outcome of the goals is to 
provide a long-term objective for communities and sites that will 
cumulatively reduce the risk of flooding and flood damages from 
potential floods of larger size than the basin has experienced in the 
recent past. The goals can help move the basin beyond a mode reactive 
to the last large flood to a proactive mode of using risk and damage 
assessments to put adequate protection into place to reduce flood risk 
across the basin.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


         Level of Flood Protection Goals for the Red River Basin
------------------------------------------------------------------------
           Area Protected               Estimated Recurrence Interval
------------------------------------------------------------------------
Major urban/metropolitan areas 1	2,  500 year or greater
 4
Critical infrastructure 1	2          500 year or greater
Cities/municipalities 1	2            200 year or greater
Rural residences & farmsteads 1	2    100 year or greater
Agricultural cropland: Summer flood  10 year or greater
Transportation 2	3 Critical          200 year or greater
 transportation system and
 emergency service links
------------------------------------------------------------------------
Notes:
\1\ Protection for urban areas, critical infrastructure, cities, rural
  residences, and farmsteads should all have appropriate freeboard
  (i.e., contingency or risk and uncertainty allowance) with any
  projects designed to provide the specified level of protection.
\2\ If a flood of record has occurred which exceeds the specified level
  of protection goal, the flood of record should be used in place of the
  specified level of protection goal.
\3\ The critical transportation systems should be maintained passable
  during a flood of the described level of protection to assure safe and
  reliable transportation and provision of emergency services. The
  transportation system should not increase flooding problems either
  upstream or downstream.
\4\ Includes Fargo-Moorhead, Grand Forks-East Grand Forks, and Winnipeg.

    The Red River Basin Commission (RRBC) is a group of people working 
together to achieve common goals for water protection and management 
within the Red River Basin.

  119 S. 5th St. PO Box 66 Moorhead, MN 56561 218-291-0422
  410-112 Market Ave. Winnipeg, MB R3B 094 204-982-7250
  <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="73000712151533011617011a0516011112001a1d101c1e1e1a00001a1c1d5d1c0114">[email&#160;protected]</a>
  See the full report on our website:
  www.redriverbasincommission.org
Current Levels of Protection Versus Needs in the Basin
    Although the strategy of local protection dates back many decades 
in the basin, the extent of existing site protection is still modest. 
The following table summarizes the levels of local site protection 
currently in place at basin communities and then compares that with 
RRBC's levels of protection goals to identify the gaps and the needs. 
The table reveals that flood protection for events exceeding the 100 
year level is an exception and that almost a third of the communities, 
on the average, have no permanent protection. Of those communities 
having permanent protection, fewer than half are protected to a 100 
year level or higher.

           Comparison of Existing Flood Protection with Recommended Guidelines for Level of Protection
----------------------------------------------------------------------------------------------------------------
                                      Existing Level of Protection Existing Protection meets          RRBC
                RRBC  Recommended -------------------------------------------------------------    Recommended
 City/Location    Guideline for                                                                   Guideline for
                  Level of Flood    500 year   200 year   100 year   Less than   No  Permanent   Level of Flood
                    Protection                                       100 year     Protection       Protection?
----------------------------------------------------------------------------------------------------------------
                                               Red River Main Stem
----------------------------------------------------------------------------------------------------------------
Wahpeton, ND    200 year                                        X                               No
Breckenridge,   200 year                                        X                               No
 MN
Fargo, ND       500 year                                                    X                   No
Moorhead, MN    500 year                                                    X                   No
Perley, MN      200 year                                                    X                   No
Hendrum, MN     200 year                                                    X                   No
Halstad, MN     200 year                             X                                          Yes
Nielsville, MN  200 year                                                                    X   No
Grand Forks,    500 year                             X                                          No
 ND
East Grand      500 year                             X                                          No
 Forks, MN
Oslo, MN        200 year                  X                                                     Yes
Drayton, ND     200 year                                                    X                   No
Pembina, ND     200 year                                        X                               No
St. Vincent,    200 year                                                    X                   No
 MN
Noyes, MN       200 year                                        X                               No
Emerson, MB     200 year                                        X                               No
Morris, MB      200 year                                        X                               No
Winnipeg, MB    500 year                  X                                                     Yes
----------------------------------------------------------------------------------------------------------------
                                              Minnesota Tributaries
----------------------------------------------------------------------------------------------------------------
Georgetown      200 year                                                    X                   No
Ada             200 year                                                    X                   No
Shelly          200 year                                                    X                   No
Climax          200 year                                                                    X   No
Crookston       200 year                                                    X                   No
Warren          200 year                                        X                               No
Alvarado        200 year                                        X                               No
Argyle          200 year                                        X                               No
Hallock         200 year                                                    X                   No
Roseau          200 year                                                    X                   No
----------------------------------------------------------------------------------------------------------------
                                            North Dakota Tributaries
----------------------------------------------------------------------------------------------------------------
Abercrombie     200 year                                                    X                   No
Valley City     200 year                                                    X                   No
Lisbon          200 year                                                    X                   No
Horace          200 year                                        X                               No
West Fargo      500 year                  X                                                     Yes
Enderlin        200 year                                        X                               No
Casselton       200 year                                        X                               No
Mapleton        200 year                                        X                               No
Harwood         200 year                                                    X                   No
Argusville      200 year                                        X                               No
Devils Lake     200 year                                        X                               No
Minnewaukan     200 year                                                                    X   No
Grafton         200 year                                                    X                   No
Neche           200 year                                                    X                   No
----------------------------------------------------------------------------------------------------------------


------------------------------------------------------------------------
 
-------------------------------------------------------------------------
                          Flood Routing Models
 
    Using MIKE 11, a flow routing model, the LTFS study was able to use
 the modeling information from sub-basins to predict the effect that
 reduced flows due to additional floodwater storage sites from the
 tributaries would have on various points on the main stem Red River.
------------------------------------------------------------------------


                                               20% Reduction Model
                          (Based on WMC MIKE 11 Model and tributary hydrologic models)
                                                 (cla 1/16/2011)
----------------------------------------------------------------------------------------------------------------
                                  Planned by WSDs                               Original Allocation
                 -----------------------------------------------------------------------------------------------
   Tributar[y]    Peak Flow  Peak Flow     Volume       Volume    Peak Flow    Volume     Volume
      Areas       Reduction  Reduction   Reduction    Reduction   Reduction  Reduction  Reduction    Reduction
                    (cfs)       (%)         (%)         (acft)       (%)        (%)      (ac ft)       Focus
----------------------------------------------------------------------------------------------------------------
                                      Summary of Tributary Flow Reductions
                                                1997 Spring Flood
----------------------------------------------------------------------------------------------------------------
BdS R @ White         1,048      413%0        416%0     451,2190        20%        20%     61,760  Store early
 Rock                                                                                               water
Rabbit R @ TH 75      1,425      431%0        839%0     847,6390        35%        26%     24,377  Peak flow
 ung                                                                                                reduction
BdS ungaged               0       80%0         80%0          800        13%         9%     12,119  No reduction
Ottertail R @             0        600          600          600         0%         0%          0  No reduction
 Orwell
Ottertail ung           500        13%          12%        7,217        13%        12%      7,217  Peak flow
                                                                                                    reduction
Wildrice ND @         3,150      432%0         46%0     423,7020        35%        17%     57,908  Peak flow
 Abercrombie                                                                                        reduction
Fargo ungaged         3,000        13%          13%       30,433        13%        13%     30,433  Store late
                                                                                                    water
Sheyenne R @          2,401        23%          11%       68,395        23%        11%     68,395  Peak flow
 Harwood                                                                                            reduction
Rush R @ Amenia         508        35%          13%        4,324        35%        13%      4,324  Peak flow
                                                                                                    reduction
Buffalo R @           2,549      430%0        617%0     636,0910        35%        17%     38,158  Peak flow
 Dilworth                                                                                           reduction
Wild Rice MN @        2,315      423%0        620%0     676,5450        35%        20%     74,385  Peak flow
 Hendrum                                                                                            reduction
Halstad ung           7,500        13%          13%       81,002        13%        13%     81,002  Store late
                                                                                                    water
Goose R @             2,820        35%          16%       35,356        35%        16%     35,356  Peak flow
 Hillsboro                                                                                          reduction
Marsh R nr              135       43%0         48%0      46,8190        51%        18%     15,247  Peak flow
 Shelly                                                                                             reduction
Sand Hill R @            43       41%0        418%0     419,1840        35%        21%     22,161  Peak flow
 Climax                                                                                             reduction
Red Lake R @          5,200      418%0         48%0     474,8300        35%        13%    119,097  Peak flow
 Crookston                                                                                          reduction
RLR ung               1,600        12%          10%       11,427        12%        10%     11,427  Store late
                                                                                                    water
GF ungaged            4,400        12%          10%       32,015        12%        10%     32,015  Store late
                                                                                                    water
Turtle Rnr               90        10%          13%        4,615        10%        13%      4,615  Store late
 Arvilla                                                                                            water
Forest R @ Minto        300        14%           7%        5,875        14%         7%      5,875  Store late
                                                                                                    water
Snake Rung            1,334      824%0        816%0     820,2100        16%        15%     17,128  Store late
                                                                                                    water
Middle R @              751      420%0        413%0      48,3710        35%        23%     15,067  Store late
 Argyle                                                                                             water
Park R @ Grafton      2,422      847%0        831%0     840,7390        35%        20%     26,462  Peak flow
                                                                                                    reduction
Tamarac R ung         1,150      824%0        813%0     811,5330        13%        12%      7,179  Store late
                                                                                                    water
Drayton ung           1,370         8%          10%       22,208         8%        10%     22,208  Store late
                                                                                                    water
S Br Two R @            503      412%0        826%0     821,7350        27%        14%     15,208  Store late
 Lake Bronson                                                                                       water
Tongue R @ Akra          50         7%           4%        1,580         7%         4%      1,580  Store late
                                                                                                    water
Pembina R @           1,900        13%           9%       51,113        13%         9%     51,113  Peak flow
 Neche                                                                                              reduction
Emerson ung           3,000         7%           7%       23,364         7%         7%     23,364  Store late
                                                                                                    water
                            ----------------------------------------------------------------------
  Average/Total                    17%          13%      817,540        22%        13%    885,177
----------------------------------------------------------------------------------------------------------------


 
                                                                                            Upstream   Upstream
                                          Upstream    Peak Flow   Peak Flow     Upstream   Tributary  Tributary
          Mainstem Locations            Contributing  Reduction   Reduction    Tributary     Volume     Volume
                                          Drainage      (cfs)        (%)       Volume (ac  Reduction  Reduction
                                            Area                                  ft)       (ac ft)      (%)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                           Summary of Mainstem Flow Reductions
                                                                    1997 Spring Flood
--------------------------------------------------------------------------------------------------------------------------------------------------------
Wahpeton                                     4,010        2,723        621%0      801,206    106,075        13%
Fargo                                        6,210        5,459        619%0    1,425,717    160,209        11%
Halstad                                     15,430       14,236        620%0    3,307,686    426,566        13%
Grand Forks                                 21,690       14,985        414%0    5,149,686    606,198        12%
Drayton                                                  20,679        416%0    5,912,194    719,749        12%
Emerson                                                  25,861        620%0    6,915,848    817,540        12%
--------------------------------------------------------------------------------------------------------------------------------------------------------
4Less than allocation or goal.0
 
6Meets allocation or goal.0
 
8Exceeds allocation or goal.0
 
Hydrologic models not completed.


------------------------------------------------------------------------
 
-------------------------------------------------------------------------
                      Potential Retention Projects
 
    From the Mike 11 modeling, individual watershed district can
 identify potential sites to achieve their allocation towards the 20
 percent reduction on the main stem Red River. Here, Minnesota's Bois de
 Sioux Watershed District in the very southeast portion of the basin put
 forth possible projects to be considered that would more than meet a 20
 percent reduction.
------------------------------------------------------------------------


   Impoundment Sites included in Flow Reduction Strategy Bois de Sioux
                           Watershed District
                                4/19/2009
------------------------------------------------------------------------
                                                               RRBC 20%
                         Gated       Ungated       Total         plan
                     Storage  (ac    Storage    Storage (ac   Reduction
                          ft)        (ac ft)        ft)        (ac ft)
------------------------------------------------------------------------
                          White Rock watershed
------------------------------------------------------------------------
          Red Path         13,100        3,100       16,200
     Red Path West          5,501          545        6,046
        Eldorodo 7          1,700          755        2,455
              Big Lake        463        1,325        1,788
        Moonshine Lake      2,723          686        3,409
      Moonshine 13          1,520          328        1,848
       Moonshine 4            885          322        1,207
                  Leonardsvi1,0461E        413        1,459
     Dollymount 30          5,484          872        6,356
                  Leonardsvi1,5921W        350        1,942
           Tara 12          3,071          843        3,914
                  Leonardsvi6,6302       1,031        7,661
          Croke 17          2,142          605        2,747
     Dollymount 24          1,499          552        2,051
          Walls 36          1,897          850        2,747
        Moose Head          1,622          896        2,518
          Walls 30          3,831          937        4,768
       Delaware 17          1,695          518        2,213
        Everglades          1,965          890        2,855
   Township Slough          3,802          950        4,752
      South Dakota          8,771        2,193       10,964
            site(s)
                    ----------------------------------------------------
  Subtotal.........        70,939       18,961       89,900       61,760
------------------------------------------------------------------------
                            Rabbit watershed
------------------------------------------------------------------------
      North Ottawa         16,160        2,050       18,210
      Brandrup S23          3,020          980        4,000
      Bradford S34          3,042          627        3,669
                  Lawrence S5,892        1,061        6,953
        Tintah S34            833          160          993
           Daniels            867          223        1,090
                    ----------------------------------------------------
  Subtotal.........        29,814        5,101       34,915       24,377
------------------------------------------------------------------------
                          Bois de Sioux Ungaged
------------------------------------------------------------------------
  Subtotal.........             0            0            0       12,119
                    ====================================================
    Total BdS             100,753       24,062      124,815       98,256
     watershed.....
------------------------------------------------------------------------

Status of New Hydrologic Model Development (HMS) Using LiDAR Data
(all colored watersheds are underway)
Red River Watershed, North Dakota/Minnesota
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Uncertainty of Storage Discharges Along The Red River of the North at 
        White Rock Dam for the 1997 and 2009 Floods
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Potential Effects of Storage on Cities
    The potential effects of flow reduction were evaluated in several 
ways. In the following table, the approximate potential flow and stage 
reductions from the 1997 flood are computed for each of six points on 
the main stem using the proposed reduction allocations and proposed 
storage for sub-basins upstream of each of the six sites (see Appendix 
D, Table D-17). The resulting flow reductions range from 17% at Grand 
Forks-East Grand Forks to 24% at Emerson. The resulting stage 
reductions for the 1997 flood would have ranged from 1.3 near the 
border at Emerson to 2.8 at Grand Forks-East Grand Forks.

                       Effects of Potential Additional Flood Storage on 1997 Flood Stages
----------------------------------------------------------------------------------------------------------------
                              Total                                                                     Approx.
                            Volume of  Peak Flow    Potential     Modified    Peak Flow    Peak Flow  Peak Stage
                               1997     of 1997    Additional    Peak Flow    Reduction    Reduction   Reduction
    Upstream/Tributary        Flood      Flood     Storage in       with          of          of          of
      Drainage Areas         (MIKE 11   (MIKE 11    Watershed    Potential    Potential    Potential   Potential
                              Model)     Model)      (ac ft)      Storage    Storage (ac    Storage     Storage
                             (ac ft)     (cfs)                     (cfs)         ft)          (%)        (ft)
----------------------------------------------------------------------------------------------------------------
Bois de Sioux @ White Rock                7,820       78,900        6,770        1,050          13%
                      Dam
    Rabbit River @ TH 75                  4,570       34,900        3,140        1,430          31%
                  ungaged
   Bois de Sioux ungaged                  8,540            0        8,540            0           0%
Otter Tail River @ Orwell                 1,500            0        1,500            0           0%
                      Dam
Otter Tail River ungaged                  3,800       11,000        3,300          500          13%
                           -------------------------------------------------------------------------------------
  Wahpeton/Breckridge.....   742,000     12,890      124,800       10,170        2,720        621%0         2.4
                           -------------------------------------------------------------------------------------
       Wild Rice River @                  9,930       75,500        6,780        3,150          32%
              Abercrombie
           Fargo ungaged                 23,000       42,000       20,000        3,000          13%
                           -------------------------------------------------------------------------------------
  Fargo/Moorhead..........  1,450,000    28,570      242,300       23,110        5,460        619%0         2.3
                           -------------------------------------------------------------------------------------
Sheyenne River @ Harwood                 10,300      120,000        7,900        2,400          23%
     Rush River @ Amenia                  1,450       14,900          940          510          35%
Buffalo River @ Dilworth                  8,370       63,000        5,820        2,550          30%
Wild Rice River @ Hendrum                10,150      118,000        7,840        2,310          23%
Halstad Ungaged (includes                57,000      142,000       49,500        7,500          13%
               Elm River)
                           -------------------------------------------------------------------------------------
  Halstad.................  3,310,000    71,390      700,200       57,190       14,200        620%0         1.7
                           -------------------------------------------------------------------------------------
 Goose River @ Hillsboro                  8,060       62,000        5,240        2,820          35%
 Marsh River near Shelly                  4,070            0        3,930          140           3%
Sand Hill River @ Climax                  4,370       39,000        4,320           50           1%
                    Red Lake River   Croo28,980      270,000       19,580        9,400          32%
                    Red Lake River  ngage13,600       20,000       12,000        1,600          12%
     Grand Forks ungaged                 36,400       56,000       32,000        4,400          12%
                           -------------------------------------------------------------------------------------
  Grand Forks/East Grand    5,130,000   110,750    1,147,200       91,750       19,000        817%0         2.8
   Forks..................
                           -------------------------------------------------------------------------------------
Turtle River near Arvilla                   930       11,500          840           90          10%
    Forest River @ Minto                  2,100       10,000        1,800          300          14%
     Snake River ungaged                  5,510       30,000        4,180        1,330          24%
   Middle River @ Argyle                  3,710       26,000        2,960          750          20%
    Park River @ Grafton                  5,110       50,300        2,690        2,420          47%
   Tamarac River ungaged                  4,820       13,000        3,670        1,150          24%
         Drayton ungaged                 17,170       39,000       15,800        1,370           8%
                           -------------------------------------------------------------------------------------
  Drayton.................  5,820,000   128,320    1,327,000      102,320       26,000        620%0         1.7
                           -------------------------------------------------------------------------------------
South Branch Two Rivers @      4,060     27,000        3,560          500          12%
                         Lake
                 Bronson
     Tongue River @ Akra         680      3,000          630           50           7%
   Pembina River @ Neche      14,300     90,000       12,400        1,900          13%
         Emerson ungaged      42,000     41,000       39,000        3,000           7%
                           -------------------------------------------------------------------------------------
    Emerson...............  6,740,000   129,800    1,488,000       98,800       31,000        424%0         1.3
----------------------------------------------------------------------------------------------------------------
4Indicates that Flow Reduction Goals were exceeded.0
 
6Indicates that Flow Reduction Goals were met.0
 
8Indicates that Flow Reduction Goals were not met.0

Results of Complimentary Floodplain Management Approaches
    Reducing flood risk in the Red River basin requires the working 
together of the three complimentary approaches of floodplain 
management: (1) nonstructural attention to the physical floodplain and 
land use practices, both urban and rural, together with participation 
in Federal programs such as NFIP; (2) local site protection for 
vulnerable damage sites such as communities, urban centers and, as 
possible, agricultural lands; and (3) reduction of peak flood flows 
through a basin-wide effort.

                                                    Level of Protection at Cities along the Red River
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                 Level of Protection
                            ----------------------------------------------------------------------------------------------------------------------------
                                                                                               Future
                                                                                             Conditions                     Additional
                                                Current         Future                        Including                      Measures        Peak Flow
       City/Location              RRBC         Conditions     Conditions      Meets RRBC       Planned       Meets RRBC   Needed to Meet   Reduction of
                               Recommended     Meets RRBC      Including     Recommended    Upgrades plus   Recommended        RRBC          Potential
                                Guideline     Recommended       Planned       Guideline?      Potential      Guideline?     Recommended     Storage (%)
                                               Guideline?      Upgrades                    Upstream Flood                   Guideline?
                                                                                               Storage
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                   Red River Main Stem
--------------------------------------------------------------------------------------------------------------------------------------------------------
             Wahpeton, ND           200 yr     100-125 yr             No      100-125 yr             No         <200 yr             No             Yes
         Breckenridge, MN           200 yr     100-125 yr             No      100-125 yr             No         <200 yr             No             Yes
                Fargo, ND           500 yr        <100 yr             No         >200 yr             No         >200 yr             No             Yes
             Moorhead, MN           500 yr        <100 yr             No         >200 yr             No         >200 yr             No             Yes
           Georgetown, MN           200 yr        <100 yr             No          100 yr             No         >200 yr            Yes              No
               Perley, MN           200 yr        <100 yr             No          100 yr             No         >200 yr            Yes              No
              Hendrum, MN           200 yr        <100 yr             No          100 yr             No         >200 yr            Yes              No
              Halstad, MN           200 yr         250 yr            Yes          250 yr            Yes         >250 yr            Yes              No
               Shelly, MN           200 yr        <100 yr             No          100 yr             No         >200 yr            Yes              No
           Nielsville, MN           200 yr              *             No          100 yr             No         >100 yr             No             Yes
               Climax, MN           200 yr              *             No          100 yr             No         >100 yr             No             Yes
          Grand Forks, ND           500 yr         250 yr             No          250 yr             No         >500 yr            Yes              No
     East Grand Forks, MN           500 yr         250 yr             No          250 yr             No         >500 yr            Yes              No
                 Oslo, MN           200 yr        >200 yr            Yes         >200 yr            Yes         >200 yr            Yes              No
              Drayton, ND           200 yr        <100 yr             No         <100 yr             No         <100 yr             No             Yes
              Pembina, ND           200 yr         100 yr             No          100 yr             No         >100 yr             No             Yes
          St. Vincent, MN           200 yr        <100 yr             No         >100 yr             No          200 yr            Yes              No
                Noyes, MN           200 yr         100 yr             No          100 yr             No         >100 yr             No             Yes
--------------------------------------------------------------------------------------------------------------------------------------------------------
* No permanent protection.


------------------------------------------------------------------------
 
-------------------------------------------------------------------------
         Summary of Damages Prevented by Potential LTFS Projects
 
    The following figure summarizes the estimated damages prevented by
 the potential LTFS local protection projects, combined with a 20% flow
 reduction on the Red River main stem. Prevented damages are estimated
 for 100 year, 200 year and 500 year floods.
    Prevented damages are computed for both (1) baseline hydrology, or
 that currently used by the USACE and (2) wet period hydrology, or that
 recommended by the current USACE feasibility study for Fargo-Moorhead
 flood protection.
    Depending on the hydrology used, damages prevented by the potential
 LTFS projects will range from about $3 to [$]4 billion for a single 100
 year flood, from $6.5 to [$]8 billion for a single 200 year flood, and
 from $10 to [$]13 billion for a single 500 year flood.
    Working together with sound, proactive floodplain management, the
 potential LTFS projects can make a profound, measureable difference far
 into the future for the Red River basin.
------------------------------------------------------------------------

Total Prevented Damages of Potential LTFS Projects--Red River Basin
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Part IV: Moving Ahead With Integrated Action
10 Conclusions and Recommendations for Action
    The basin of the Red River of the North, historically subject to 
widespread chronic flooding, regularly sustains millions of dollars in 
economic damages for each flood event. The Red River Basin Commission 
(RRBC) identified the following conclusions on structural and 
nonstructural strategies needed for permanent flood solutions in the 
basin and recommendations for action for states (individually and 
collectively) and the Federal Government to consider as they fund and 
implement Long Term Flood Solutions (LTFS) for the Red River Basin in 
Minnesota and North Dakota. These recommendations are built around the 
basin-wide LTFS ``Level of Protection Goals'' adopted by the RRBC in 
2010 together with related flood risk reduction needs. The 
recommendations aim to move basin leaders from the usual response of 
reacting to the most recent major flood experience to a proactive, 
long-term plan with appropriate protection levels basin wide. If 
implemented, these recommendations will significantly reduce the risk 
of flood damages, and minimize disruption and economic loss and thus 
facilitate and expedite recovery after spring and summer floods.

    These recommendations cannot be successful without the dedicated 
local, state and Federal participation in funding and commitment to 
implement.
1. Immediate Needs/Critical Risks: Fargo-Moorhead, Devils Lake
  <bullet> Under current conditions, the Fargo-Moorhead metropolitan 
        area could get, in a major 500 year level flood, $9 to $10 
        billion or more in basin damages, according to the USACE.

  <bullet> Current levels of protection for Fargo-Moorhead are 
        inadequate. Protection should be increased to enable a 
        successful 500 year flood fight.

  <bullet> Protection measures for Fargo-Moorhead should be 
        economically viable and provide the least level of adverse 
        impacts to others.

  <bullet> A diversion of the Red River around Fargo-Moorhead would 
        provide the protection needed to endure a successful 500 year 
        flood fight if it were supplemented by retention and other 
        available options to achieve the RRBC's proposed LTFS level of 
        protection goals.

  <bullet> Retention to achieve the potential 20 percent flow reduction 
        on the main stem should be aggressively pursued upstream of 
        Fargo-Moorhead to decrease the duration, scope, and level of 
        floods in the Fargo-Moorhead area, downstream communities, and 
        rural areas.

    Recommendation for Action 1.1

    The flood protection trajectory that has increased protection in 
the Fargo-Moorhead metro area since the 2009 flood should continue. 
State and Federal funds, with local government cost share, should 
continue supporting ongoing dike construction, property acquisitions, 
flowage easements, and flood infrastructure projects to be able to 
fight at least a 100 year flood, and upwards of a 500 year flood in the 
long-term.

    Recommendation for Action 1.2

    Progress towards the proposed $1.77 billion diversion should be 
continued utilizing local, state, and Federal funds so that, combined 
with current flood protection strategies, this community will have the 
capacity within 10 years to wage a successful flood fight equal to or 
greater than the LTFS 500 year flood.

    Recommendation for Action 1.3

    Retention upstream of the Hickson and Abercrombie stream gage for a 
flow reduction of 20 percent (minimum) should be advanced with shared 
funding by the F-M flood Diversion Authority working with local and 
joint water boards, using city, local, state, and Federal funds.

    Recommendation for Action 1.4

    Leaders in state government in North Dakota and Minnesota, along 
with key local government officials and with input from the Diversion 
Authority and Federal agencies, should convene by early 2012 to 
determine the non-Federal cost share formula for the Locally Preferred 
Plan ($1.77 billion) diversion, and related $3.5 million operational 
estimates.

  <bullet> Rising levels of water in the Devils Lake region have 
        increased the potential for a natural overflow that could 
        discharge approximately 14,000 cubic feet per second (cfs) of 
        water into the Sheyenne River, triggering prolonged flooding 
        and catastrophic downstream water quantity and quality problems 
        in the Sheyenne and Red Rivers. This crisis should continue to 
        be addressed with immediate local, state and Federal action.

    Recommendation for Action 1.5

    The recommendations developed by the Devils Lake Executive 
Committee through the work of the Devils Lake Collaborative Working 
Group should continue to be supported by the state of North Dakota, 
local authorities, and Federal and Tribal governments to guard against 
critical risks.

    Recommendation for Action 1.6

    The RRBC and IRRB should distribute information with downstream 
interests and jurisdictions providing progress and timelines on Devils 
Lake activities.

    Recommendation for Action 1.7

    A comprehensive model using real-time data to determine the effects 
of releases of Devils Lake water via the various outlet channels on the 
Sheyenne and Red Rivers should be examined by local leaders and state 
and Federal agencies to determine needs and related costs. The 
examination should include the integration of various models already in 
use by the USGS, the NWS, the NDSWC, and the USACE and be facilitated 
by the RRBC.
2. Cornerstone Solutions: Floodplain Management
    2A Floodplain Management--Nonstructural Strategies

  <bullet> A majority of the basin population lives adjacent to the Red 
        River main stem and its tributaries at the lowest geographic 
        elevation subject to flooding with no comprehensive, basin-wide 
        approach to floodplain management, nor is there a mechanism to 
        align the variations in local, state, and Federal rules, 
        regulations, and approaches.

  <bullet> Nonstructural floodplain management strategies should be an 
        integral component of reducing flood damage risks in the basin.

  <bullet> The most effective overall technique for living with floods 
        is for basin citizens to take personal responsibility for their 
        own flood risk and for the sustainability of our natural 
        resources.

  <bullet> Minnesota and North Dakota should fund and administer flood 
        mitigation policy consistently throughout the Red River basin 
        so that a flood event in excess of the 100 year becomes the 
        benchmark for managing the risk of flooding, regulating 
        development in the floodplain, and for developing flood risk 
        reduction projects around existing and newly developed areas.

    Recommendation for Action 2A.1

    State floodplain regulations and local zoning ordinances should 
contain criteria for new residential, commercial, industrial, and 
agribusiness development that requires the largest of the following 
protection standards:

  <bullet> 100 year flood plus 3.

  <bullet> 200 year flood plus 1.

  <bullet> flood of record plus 1.

    Recommendation for Action 2A.2

    Buildings located in at-risk areas where structural measures cannot 
accomplish the recommended flood protection levels or are not 
economically feasible should be publicly acquired and removed over the 
next 3 to 5 years.

    Recommendation for Action 2A.3

    Local governments in the basin should update floodplain ordinances 
in the next 3 years, not permit new development in areas of high risk 
of flooding immediately adjacent to the Red River and tributaries, and 
minimize the use of variances, unless protected by elevation or another 
acceptable FEMA strategy.

    Recommendation for Action 2A.4

    A review of basic floodplain regulations and programs should be 
undertaken by appropriate agencies and stakeholders of local, state and 
Federal standards, to include:

          2A.4.1  An evaluation of the appropriate standards and 
        regulations for development throughout the basin, including the 
        adequacy of the 100 year regulatory minimum standard (to 
        include FIRMS) and the consideration of future standards to 
        reduce losses;
          2A.4.2  An analysis of community and state compliance with 
        the flood insurance program, to include an analysis of proposed 
        mandatory flood insurance for structures protected by dikes, 
        identification of impediments to, and potential tools and 
        resources for, participation in FEMA's community Rating System, 
        determination of the feasibility of insurance development, and 
        a strategy to prompt a basin-wide reduction in flood insurance 
        rates;
          2A.4.3  An analysis of the use of variances by local 
        governments; the reasons for and consequences of using 
        variances for individuals, communities, and state; and most 
        effective way(s) to track and document the use of variances.

    Recommendation for Action 2A.5

    Every community and county in the basin should work toward joining 
or improving their rating through the national FEMA Community Rating 
System to achieve lower flood insurance premiums for their residents 
(40-45 percent discounts) by 2015 as part of their mitigation plan 
update.

    Recommendation for Action 2A.6

    A Floodplain Bill of Rights, to include a floodplain map and 
flooding history, should be developed by RRBC with local government, 
realtors, builders, developers, FEMA, and state agency participation 
(2012).

    Recommendation for Action 2A.7

    RRBC should develop education materials on the floodplain related 
to the floodplain, insurance, personal decisions, and the Floodplain 
Bill of Rights, to be distributed to the public, realtors, lenders, and 
others (2012).

    Recommendation for Action 2A.8

    The USACE nonstructural assessment of identified structures has 
been completed for the F-M diversion project along the main stem in six 
counties deemed economically feasible for nonstructural mitigation.

          2A.8.1  The USACE should expand its assessment along the 
        entire main stem.
          2A.8.2  A local sponsor should be identified to provide the 
        non-Federal cost share of 35 percent and implement the 
        mitigation in the next 3 to 5 years.
          2A.8.3  Congress should authorize such a project and 
        appropriate approximately $12 million in funding for the 65 
        percent Federal cost share to mitigate.

    Recommendation for Action 2A.9

    Minnesota and North Dakota should use their respective state Silver 
Jackets (Flood and Hazard Mitigation) teams to regularly communicate 
issues regarding flood mitigation efforts in the Red River Basin. 
Silver Jackets team members from Minnesota and North Dakota should 
contribute to a collaborative interstate strategy for flood recovery 
and projects for mitigation efforts for the Red River of the North 
basin, to be coordinated with the RRBC and others as deemed 
appropriate.

    2B Floodplain Management--Raising Levels of Protection

  <bullet> Comprehensive and strategic level of protection goals are 
        needed for the entire basin. To this point, existing levels of 
        protection have been based most often on the most recent flood 
        experience, political will, and funding availability.
  <ctr-circle> The Minnesota and North Dakota legislatures should use 
        the RRBC Level of Flood Protection Goals as a guide to future 
        basin flood risk reduction strategies. (See ``Level of Flood 
        Protection Goals'' adopted by the RRBC Board (2010) in LTFS 
        Report, Ch. 8. Analysis assumes required freeboard.[)]

    Major Urban/Metropolitan Areas

  <ctr-circle> Fargo-Moorhead (see Section 1. Biggest Risks).

  <bullet> Grand Forks-East Grand Forks. Over the next 20 to 25 years, 
        Minnesota and North Dakota should support increasing protection 
        to a 500 year flood level for Grand Forks-East Grand Forks by 
        improving the cities' current 200 to 250 year protection with 
        upstream retention that achieves the potential minimum 20 
        percent flow reduction on the Red River main stem at Grand 
        Forks.

  <bullet> Winnipeg has elevated its level of protection to 700 years 
        by recent expansion of their diversion following the 1997 
        flood. Since its construction and subsequent first use in 1969, 
        the floodway has operated over 20 times and prevented more than 
        $10 billion in flood damages. This model shows the importance 
        of long range planning to realize the protection required from 
        potential large floods.

    Recommendation for Action 2B.1

    Grand Forks and East Grand Forks should each request the 500 year 
or greater level of protection through the appropriate state and 
Federal legislative avenues. Planning should recognize the degree to 
which the strategy of retention can assist in achieving this level of 
protection for the two cities.

    Recommendation for Action 2B.2

    The RRBC shall facilitate an exchange between officials in 
Winnipeg, Manitoba, and Fargo-Moorhead local government officials, the 
F-M Diversion Authority, and the public for the purpose of sharing 
Winnipeg's experiences and expertise on the development and expansion 
of that city's diversion, including engineering, construction, and 
operation and maintenance of the Red River Floodway.

    Critical Infrastructure:

  <bullet> Critical infrastructure needs to be protected from flooding 
        to the greatest levels practical. If adversely affected by 
        flooding, infrastructure such as water and waste water 
        facilities, airports, hospitals, transportation, regional 
        communications facilities, or chemical storage sites can 
        experience major disruptions, resulting in harm to the people, 
        economy, and environment of the basin.

    Recommendation for Action 2B.3

    Over the next 3 to 5 years, state emergency management officers 
shall facilitate the identification and documentation of at-risk 
critical basin infrastructure and report to the state legislatures in 
the annual LTFS update.

    Small Cities and Municipalities:

  <bullet> By 2015, cities in Minnesota and North Dakota on the main 
        stem, tributaries, and in other flood prone areas should 
        achieve protection to the 100 year level or 3 of freeboard the 
        largest flood in their area plus 3 of freeboard, whichever is 
        greater.

  <bullet> Once cities have achieved this level of protection, 
        additional protection should be pursued towards achieving 
        greater than 200 year flood protection using upstream 
        retention. Flood flow reduction from upstream retention can 
        further complement the current levees and other strategies 
        underway or contemplated.

    Recommendation for Action 2B.4

    Community structural projects in collaboration with the RRWMB and 
RRJWRD should be funded in the next state funding cycle for each 
respective state. See attached funding timeline table D-31 and Level of 
Protection Appendix D, D-3.1, p. 12 with state, local and Federal 
funding.

    Rural Residences and Farmsteads:

    Funding ring dikes or elevating of buildings for rural residents 
and farmsteads in flood prone areas should protect to 3 above the 100 
year level or 3 above the largest flood in their area, whichever is 
greater.

    Recommendation for Action 2B.5

    Structural projects identified in collaboration with the RRWMB and 
RRJWRD for rural areas, including ring dikes and rural property 
acquisitions, should be funded beginning in the next state funding 
cycle through 2015 for each respective state. For those projects that 
become necessary only after future floods, funding shall become 
available in subsequent funding cycles. See attached funding table D-31 
and Level of Protection Appendix D, D-3.1, p. 12.

    Agricultural Cropland:

  <bullet> Agriculture is an economic mainstay of the basin, with basin 
        farms experiencing composite net returns of $3 billion or more 
        annually.

  <bullet> Adequate drainage, whether surface or tile, is crucial to 
        crop production in the basin.

  <bullet> Studies such as the timing analysis study suggest that 
        improvements to drainage systems in areas that contribute 
        consistently to the rising side of the Red River flood 
        hydrograph (early water) have the potential to help reduce Red 
        River flood peaks if they can move runoff through the system 
        ahead of flood peaks. (Minnesota Flood Damage Reduction 
        Workgroup Technical Paper No. 11)

  <bullet> At this time, no comprehensive, systematic approach exists 
        to coordinate the release of water in the current drainage 
        system based upon this timing analysis. Recent improvements in 
        modeling, flow data, and elevation data can be utilized to 
        better manage water to reduce flooding on the Red River.

  <bullet> The strategies that slow water or hold it on the land 
        slightly longer (while allowing for timely movement in the 
        drainage system) are best implemented through land use and 
        easement programs that take into account landowner impacts, as 
        well as benefits to the local area the main stem.

  <bullet> Potential exists to appropriate new Federal funding for land 
        management to the basin through the next U.S. farm bill that 
        will assist landowners in reducing runoff, reducing erosion, 
        and improving water quality. This effort will come through 
        programs administered by the Natural Resource Conservation 
        Service or its designee.

    Recommendation for Action 2B.6

    The RRRA, RRWMB, and RRJWRD, with appropriate state agencies, local 
government, and commodity group participation and support, should 
develop a multipurpose drainage strategy for agricultural land that 
evaluates the following:

          2.10.1  Designed and engineered for both private benefits and 
        public water management objectives.
          2.10.2  Temporary detention (slowing down of water) by land 
        management practices and land use changes.
          2.10.3  Side inlet controls for all ditches.
          2.10.4  Use of drainage for peak flow reductions and erosion 
        control.
          2.10.5  Rate and volume of water related to field and drain 
        capacity.
          2.10.6  Timing and movement of water in an equitable manner.
          2.10.7  Landowner incentives and needs.
          2.10.8  Adding drainage components to hydrologic models.
          2.10.9  Need for studies, strategies, moratoriums, and 
        additional information.

    Recommendation for Action 2B.7

    River channel maintenance such as snagging and clearing of trees, 
including the removal of trees that have or are at risk of falling into 
rivers and waterways, should be continued as necessary to maintain open 
waterways systems. The two states should continue to fund this effort: 
under current policies, North Dakota at its level of about $1 to $2 
million, and Minnesota to restore its historic level of $150,000 per 
year.

    Recommendation for Action 2B.8

    For purposes of achieving long-term flood retention and other 
benefits, Minnesota should provide state funding through bonding of $10 
million a biennium for the Red River basin through the Board of Water 
and Soil Resources for Reinvest In Minnesota (RIM) easements to match 
or supplement Federal USDA conservation funding such as the Wetland 
Reserve Program, Conservation Reserve Program, EWP, and Environmental 
Quality Assurance Programs to achieve long term flood retention to 
leverage Federal funding in the next 5 year farm bill and for other 
benefits.

    Recommendation for Action 2B.9

    A basin wetland bank whereby farmers/landowners can purchase and 
exchange wetland credits should be developed by Minnesota, North 
Dakota, and South Dakota in partnership with NRCS and the local joint 
water resource districts in North Dakota and joint watershed districts 
in Minnesota.

    Recommendation for Action 2B.10

    The following pilot projects, demonstrations, and studies should be 
authorized and funded:

          2B.10.1  Drainage as a Flood Reduction Tool Analysis: The 
        RRRA, with appropriate state agency support, shall initiate an 
        analysis of how to better utilize the surface drainage system 
        to lower spring flood hydrographs by removing water on the 
        rising side of the hydrograph consistent with the early, 
        middle, and late zones.
          2B.10.2  Culvert Inventory: An analysis outlining the 
        advantages, disadvantages, benefits, and costs of a basin-wide 
        culvert inventory gathered at the local water board level 
        should be completed by RRBC and presented to the appropriate 
        local and state entities with recommended funding from local, 
        state, and Federal sources (2012).
          2B.10.3  Culvert Size Demonstration Project: A demonstration 
        project in partnership with NRCS and affected local water 
        boards should be implemented to analyze the flow reduction 
        benefits of small distributed and culvert-sizing retention. The 
        project, estimated to cost about $1.5 million, should be 75/25 
        percent Federal/non-Federal cost shared (2012).
          2B.10.4  Ag Damage Report: The 1980 and 2002 basin 
        agriculture flood damage reports should be updated and 
        documented in a continuously updated data base, with Federal 
        funds provided through USDA to provide local project benefit/
        cost information to assist in local impoundment strategies at 
        the local landowner and water board level.
          2B.10.5  Wetland Water Level Management Pilot Project: Within 
        the next 2 years, a pilot project should be funded by NRCS in 
        cooperation with the RRRA and other appropriate state and 
        Federal agencies to draw down wetlands in the autumn enabling 
        spring storage and determining benefits and impacts for habitat 
        and retention.
          2B.10.6  Multi-Purpose Pilot Project: A demonstration project 
        with funding and participation from farm and commodity groups 
        and other interested parties should be developed and 
        implemented in 2012, with RRBC assistance, to gather data on 
        the timing and impacts on flooding from the following: tile 
        drainage, surface drainage, wetland restoration, early water 
        ditch drainage, and culvert sizing.
          2B.10.7  Tile Drainage Study: A tile drainage analysis by the 
        RRRA through the Basin Technical and Scientific Advisory 
        Committee under the staff direction of the International Water 
        Institute should be funded by the RRWMB and RRJWRD and 
        completed in 2012.
          2B.10.8  Buffer Strip: Buffer strips should be established 
        and enforced at the local level for all natural, altered, and 
        man-made waterways to a minimum of 16.5 (1 rod) and a maximum 
        of 50 or more with incentives provided to landowners to reduce 
        sediment for water quality and maintenance cost benefits and to 
        slow the flow of water into the waterways.

    Recommendation for Action 2B.11

    The rural flood control systems that protect agricultural 
productivity and the economy from spring and summer floods should 
continue to be implemented throughout the basin. The goal is to reduce 
crop loss and to reduce planting delays by moving water off of land by 
mid-May in the spring and maximize flood control designs for peak run 
off for a 24 hour summer rainfall event with a 10 year reoccurrence 
interval.

    Critical Transportation System and Emergency Services:

  <bullet> The Red River basin covers approximately 45,000\2\ miles or 
        28 million acres, a majority directly in active agricultural 
        production, with an extensive system of highways, roads, and 
        bridges that provide for the movement of goods and people to 
        enhance the economic output of the region.

  <bullet> The RRBC should facilitate discussions with regional 
        organizations, state and Federal departments of transportation, 
        and EMOs, to identify a strategy for critical transportation 
        preservation including potential road elevations during 100, 
        200, and 500 year flood levels compatible with the LTFS level 
        of protection goals.

  <bullet> Critical transportation and emergency services throughout 
        the basin are inconsistent with each other and fail to operate 
        effectively for a typical flood event.

    Recommendation for Action 2B.12

    Minnesota and North Dakota should each explore the issues 
surrounding dedicating a portion of state aid for highway funding for 
culvert sizing and related road modifications that benefit basin flood 
damage reduction strategies and introduce legislation to change state 
law if necessary. The RRBC shall assist with facilitation the 
discussion and analysis, by the end of 2013.

    Recommendation for Action 2B.13

    An analysis of planned and proposed road elevations for 100, 200, 
and 500 year flood protection at township, county and state levels for 
emergency, population sustainability, and agricultural and economic 
production needs shall be developed. Engineering expertise funded and 
directed by the RRWMB, RRJWRD, and appropriate state agencies should 
identify needs by location and hydrologic impacts on flooding by change 
of flows, elevation of the flood stage, and other related impacts using 
the new LiDAR data.

    Recommendation for Action 2B.14

    Minnesota and North Dakota should develop through their Departments 
of Transportation, a state and local funding strategy to assist in 
county and township flood-related road repairs and implement additional 
flood mitigation efforts once the protection goals are achieved and 
Federal emergency aid under a disaster declaration is less likely.

    Recommendation for Action 2B.15

    The RRBC should facilitate discussions with relevant regional 
organizations, state and Federal departments of transportation, and 
emergency management offices to identify a strategy for critical 
transportation preservation, including potential road elevations during 
the 100, 200, and 500 year flood levels, and to identify state and 
Federal funding needs.

    2C Floodplain Management--Retention

  <bullet> No comprehensive, basin-wide strategy exists to implement 
        the LTFS minimum 20 percent flow reduction goal for the main 
        stem while achieving local tributary flood damage reduction.

  <bullet> The impacts of retention are often dependant on timing and 
        location. Not all sites are equally beneficial for local 
        tributary and basin main stem flood damage reduction.

  <bullet> Flow reduction through retention as demonstrated by modeling 
        can reduce flows and stages on the Red River main stem as well 
        as provide local benefits on tributaries. However, due to the 
        variability of flood events, retention must be used in 
        conjunction with other structural and non-structural measures 
        to achieve the LTFS goals that will result in basin-wide 
        improved levels of protection.

  <bullet> The minimum goal for flow reduction on the Red River main 
        stem at the international boundary for a 100 year flood equates 
        to around 1.5 million acre-feet of storage upstream accounting 
        for timing of flow and costing approximately $1.5 billion.

  <bullet> Retention using the minimum 20 percent flow reduction goal 
        basin-wide can be achieved over the next 20 years if local, 
        state, and Federal funds are leveraged to provide comprehensive 
        local, tributary and main stem benefits for residents, 
        property, and the environment.

  <bullet> Retention that will cumulatively achieve the basin minimum 
        20 percent flow reductions over the next 20 to 25 years should 
        be managed to improve flood control, improve water quality, 
        include natural resource enhancement opportunities, and provide 
        potential water supply during extended droughts.

  <bullet> Numerous small, aged P.L. 83-566 flood control dams 
        throughout the basin could provide additional capacity for 
        flood storage retention with refurbishment.

    Recommendation for Action 2C.1

    Federal funding should be provided for retention at $25 million per 
year or $500 million over the next 20 years, with Minnesota, North 
Dakota, and local governments providing cost share funding for 
retention to achieve a minimum 20 percent reduction in peak flows on 
the Red River.

    Recommendation for Action 2C.2

    Cost for retention projects should be shared among Federal (50 to 
75 percent), states of Minnesota and North Dakota (25 to 35 percent), 
and the RRWMB, RRJWRD and local water boards (10 to 25 percent) over a 
period of 20 years staying within the current local joint board two mil 
levy.

    Recommendation for Action 2C.3

    A review of federally operated reservoirs, identifying the 
potential for increased storage during flood events, should be 
conducted by USACE and state agencies, and Wildlife Management Areas by 
the USFWS, reporting to relevant state agencies and the RRRA.

    Recommendation for Action 2C.4

    The newly formed RRRA should work with each water management board 
to plan, design, and implement retention, to achieve 25 percent of the 
retention goal every 5 years for their respective areas, with the goal 
of achieving the minimum 20 percent flow reduction for the Red River 
main stem over 20-25 years.

    Recommendation for Action 2C.5

    A project prioritization methodology for the use of Federal funds 
reflecting local and main stem needs and benefits should be developed 
by the RRRA by 2012.

    Recommendation for Action 2C.6

    The permitting process for water retention projects should be 
coordinated by the RRRA and a Federal agency liaison in the basin 
working with appropriate state and Federal agencies to help streamline 
the process to decrease timelines for project implementation, allow a 
one-stop permitting process, and provide general permits for certain 
projects.

    Recommendation for Action 2C.7

    NRCS and/or the states of Minnesota and North Dakota should provide 
$400,000 to expand the Project Planning and Permit Evaluation 
demonstration project to the entire Red River basin through the 
International Water Institute as part of the USACE Basin Watershed 
Feasibility Study.

    Recommendation for Action 2C.8

    Public outreach on retention programs and a survey to determine 
landowner interest in storing water on their land should be completed 
in 2 years by the RRWMB and RRJWRD (or the RRRA) to assist in future 
planning for retention projects and determine achievable timelines and 
cost expectations that correspond to local participation.

    Recommendation for Action 2C.9

    Regarding the ongoing USACE Red River Basin-wide Feasibility Study:

          2C.9.1  The current ongoing study shall be continued with 
        Federal funding at $1 million per year and corresponding $1 
        million non-Federal match.
          2C.9.2  The updating of HMS (hydrologic modeling system) of 
        the remaining major watersheds should be completed by the end 
        of 2012. This modeling will provide the tools necessary to 
        identify retention projects on tributaries that provide local 
        benefits and cumulatively benefit the basin.
          2C.9.3  Modeling of the remaining main stem Hydrologic 
        Engineering Centers River Analysis System HEC-RAS reach to the 
        Canadian border presently underway, including the work needed 
        to tie all the main stem reaches together into one model from 
        White Rock, South Dakota, to the Canadian border, should be 
        completed by the end of 2012.
          2C.9.4  The HEC-RAS main stem model, in conjunction with the 
        new watershed HMS models, should be finalized in such a way 
        that they can be utilized to provide the basis for a RRRA 
        ``Project Prioritization Process'' needed for evaluating 
        proposed projects, their effectiveness, and downstream impacts 
        in contributing to the RRBC's flow reduction goals on the major 
        tributaries and Red River main stem.

    Recommendation for Action 2C.10

    NRCS, in conjunction the RRRA, shall evaluate P.L. 83-566 and other 
dams that have flood control capacity in the basin to determine the 
feasibility of restoration for the purpose of adding potential flood 
water retention storage, including the identification of specific 
structures for rehabilitation, specific strategies and funding 
necessary, and proposed timelines. NRCS shall issue its findings to the 
RRRA by September 30, 2012. Federal funding of up to $6 million is 
needed for the evaluation and an additional estimated $10-$15 million 
for refurbishment.
3. Information and Tools for Maximizing Efforts Going Forward
  <bullet> The Red River Basin, a vast geographic area of three states 
        and one Canadian province, has great need for cooperation 
        across boundaries for uniform data and information gathering 
        efforts, an understanding of our differences, and a shared 
        vision of what needs to be accomplished.

  <bullet> The current local, state, and Federal partnership in 
        comprehensive flood risk reduction strategies is disjointed and 
        operates in a piecemeal fashion.

  <bullet> Each flood varies, creating unique issues regarding 
        preparation and protection needs.

  <bullet> Levels of protection recommended by RRBC for the LTFS Report 
        will provide the safety net needed and allow for variations in 
        floods, weather, and forecasting.

  <bullet> Further improvements in flood forecasting such as new data 
        sets, modeling improvements, and real time information to 
        account for variables related to precipitation and temperature 
        are needed to build upon those instituted after the 1997 flood.

  <bullet> Additional efforts and information are needed as a guide for 
        the future as updated needs become evident.

    Recommendation for Action 3.1

    The RRBC shall, for the next 10 years, conduct an annual evaluation 
of flood mitigation progress towards the implementation of the LTFS 
Report Recommendations. This evaluation shall be submitted to 
Minnesota, North Dakota, South Dakota, and Manitoba.

    Recommendation for Action 3.2

    Jurisdictional Multi-Boundary Coordination should be implemented 
wherever possible through the RRBC.

          3.2.1  The Minnesota, North Dakota, and South Dakota 
        governors and the Manitoba Premier should meet at least once 
        every 2 years, along with the relevant legislative committee 
        chairs of the state and provincial governments, to receive an 
        update on progress towards the LTFS recommendations on flood 
        reduction strategies, water quality, water quantity, and other 
        relevant natural resource issues.
          3.2.2  With the assistance of RRBC, the International 
        Legislators Forum among Manitoba, Minnesota, North Dakota, and 
        South Dakota legislators should be continued to discuss current 
        topics, including flood risk reduction strategies.
          3.2.3  Minnesota should coordinate through the Board of Water 
        and Soil Resources and the state legislature the inclusion of 
        all subwatersheds on the Minnesota side as Watershed Districts 
        (Ottertail) and membership in the RRWMB (Ottertail and Buffalo-
        Red Watershed District).
          3.2.4  Federal agencies should utilize their regional 
        structures in innovative new ways to accommodate Red River 
        basin hydrologic boundaries.
          3.2.5  When necessary, RRBC shall coordinate a jurisdictional 
        meeting of heads of state, legislative leaders, and key agency 
        officials to prompt dialogue and development of unified action 
        on such issues.

    Recommendation for Action 3.3

    LTFS should be expanded to include the entire Red River basin:

          3.3.1  Manitoba should continue funding RRBC's efforts to 
        model the 20 percent flow reduction strategy in Manitoba and 
        also continue and accelerate the gathering of Light Detection 
        and Ranging (LiDAR) data, at $70,000 through 2012.
          3.3.2  South Dakota and local leadership should determine the 
        feasibility of establishing watershed organizations in Roberts 
        and Marshall counties through the International Legislators 
        Forum within the next 2 years.

    Recommendation for Action 3.4

    RRBC should coordinate development of a basin-wide strategy and 
identification of funding sources for improving flood forecasting 
during 2012 among local, state, provincial, and Federal agencies.

          3.4.1  The generation of relevant time appropriate data (real 
        time rain and snowmelt, soil moisture, frost depth information, 
        and other information) and improved modeling through a 
        volunteer network and the development of a real time network 
        shall be addressed.
          3.4.2  The feasibility of establishing an on-site decision 
        support service to the region during spring and summer flood 
        events by hosting a U.S. National Weather Service hydrologist 
        in the basin shall be considered, as well as identifying a 
        funding source for such an effort.

    Recommendation for Action 3.5

    The USGS, RRWMB, RRJWRD, and their member water boards, NDSWC, 
MNDNR, and other key stakeholders, should develop a stream gage 
strategy by 2012 with associated costs and funders for the basin for 
the main stem Red River and its tributaries that will support the new 
hydrologic and hydraulic models that will provide a long term record 
for accurate, timely, and consistent flow data for model development, 
aid in flood reduction strategies, and include water quality modeling 
needs in the next 2 years.

    Recommendation for Action 3.6

    RRBC should update the LTFS Report in 2021 with the inclusion of 
Manitoba and South Dakota and shared funding from the four 
jurisdictions.
4. Resources to Implement
  <bullet> Minnesota and North Dakota, cost-sharing with local, state, 
        and Federal funds, should implement actions consistent with the 
        LTFS to maintain the basin's social, economic, and 
        environmental welfare and protection from future large floods, 
        as this investment over the next 10 years will significantly 
        reduce the risk of $11-$13 billion in losses from a large flood 
        and protect the economic output of the basin.

    Recommendations for Action 4.1

    The States of Minnesota and North Dakota, cost-sharing with local 
and Federal partners, should make a financial investment of about $3.54 
billion over the next 10 years to immediately address flooding in the 
basin with a structural approach.

          4.1  Funding in Minnesota needed for the next 10 years is 
        $270.9 million, from local and state sources.
          4.2  Funding in North Dakota needed for the next 10 years is 
        $536.4 million from local and state sources.
          4.3  Local funding at the RRWMB and RRJWRD levels should be 
        increased and maintained at a two mil levy.

          See attached funding timeline table D-31 and Level of 
        Protection Appendix D, D-3.1, p. 12 with state, local and 
        Federal funds.

                    Table D-31 Funding Timeline for Project Implementation Costs along the Red River of the North and Tributaries 6	7
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                  Remaining Project Costs 1st Ten Years (Starts 1 July 2011)
                                                             --------------------------------------------------------------------
                                                    Total                                                                Non-        Remaining
           Local Protection Projects               Project                                  Non-      Non- Federal     Federal      Funding for    Notes
                                                     Cost        Total       Federal      Federal      Funding in     Funding in   Future (After
                                                                Funding      Funding    Funding \1\     Minnesota       North          2021)
                                                                                                                        Dakota
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                   Red River Main Stem
--------------------------------------------------------------------------------------------------------------------------------------------------------
Red Farmstead and Rural Residence Ring Dikes           $17.0         $3.2         $1.8                         $0.4         $1.0             TBD    \8\
Red Minnesota Rural Area Buyouts                       $12.0        $12.0                                     $12.0                          TBD
Red North Dakota Rural Area Buyouts                     $7.0         $7.0         $3.6                                      $3.4            $0.0
Red Stanley Township, Cass County, ND Levees            $4.0         $4.0                                                   $4.0            $0.0
Red Breckenridge, MN                                   $41.0         $0.7                                      $0.7                         $0.0
Red Oxbow, ND                                           $0.4                                                                                $0.0
Red Fargo/Moorhead Diversion Project                $1,770.0     $1,770.0       $785.0       $985.0                                         $0.0   1, 6
Red Fargo, ND--Other Non-Diversion Projects           $200.0       $200.0                                                 $200.0            $0.0
Red Moorhead, MN--Other Non-Diversion Projects         $70.0        $25.0                                     $25.0                         $0.0
Red Oakport Twp, MN                                    $33.0         $8.7                                      $8.7                         $0.0
Red/Buffalo Georgetown, MN                              $3.2         $3.2                                      $3.2                         $0.0
Red Perley, MN                                          $2.7         $0.3                                      $0.3                         $0.0
Red Hendrum, MN                                         $2.5         $0.3                                      $0.3                         $0.0
Red/Marsh Shelly, MN                                    $3.0         $2.0                                      $2.0                         $0.0
Red Nielsville, MN                                      $3.0         $1.8                                      $1.8                         $0.0
Red/Sand Hill Climax, MN                                $3.0         $2.3                                      $2.3                         $0.0
Red Oslo, MN                                            $9.0         $9.0                                      $9.0                         $0.0
Red Drayton, ND                                          TBD
Red Pembina, ND                                         $0.1                                                                                $0.0
Red St. Vincent, MN                                     $2.9         $2.9                                      $2.9                         $0.0
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                       Tributaries
                                                             Sheyenne/Maple/Rush Rivers (ND)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Sheyenne Valley City, ND                               $60.0        $60.0        $39.0                                     $21.0            $0.0
Sheyenne Fort Ransom, ND                                $2.8         $2.8                                                                   $0.0
Sheyenne Lisbon, ND                                    $10.0        $10.0                                                                   $0.0
Sheyenne Kindred, ND                                    $3.0         $3.0                                                                   $0.0
Sheyenne Horace, ND                                                                                                                         $0.0    \2\
Sheyenne West Fargo, ND                                                                                                                     $0.0    \2\
Sheyenne Reile's Acres, ND                                                                                                                  $0.0    \2\
Maple Enderlin, ND                                      $0.3                                                                                $0.0
Maple Mapleton, ND                                      $0.1                                                                                $0.0
Rush Amenia, ND                                          TBD
Sheyenne Harwood, ND                                                                                                                        $0.0    \2\
Sheyenne Reed Township, Cass County, ND                 $4.5         $4.5         $1.8                                      $2.7            $0.0
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                  Wild Rice River (MN)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Marsh Ada, MN                                           $9.4         $6.0                                      $6.0                         $0.0
Felton Ditch Felton, MN                                 $2.7         $2.7                                      $2.7                         $0.0
Wild Rice Buyouts                                       $1.5         $0.3                                      $0.3                         $0.0
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                   Red Lake River (MN)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Cty Ditch 1 Thief River Falls, MN                       $1.0                                                                                $0.0
Red Lake Crookston, MN                                 $40.0         $6.0                                      $6.0                         $0.0
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                Middle/Snake Rivers (MN)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Snake Alvarado, MN                                      $3.0         $3.0                                      $3.0                         $0.0
Middle Argyle, MN                                       $0.8         $0.3                                      $0.3                         $0.0
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                     Park River (ND)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Park Grafton, ND                                       $42.1        $41.0        $31.6                                      $9.4            $0.0
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                   Pembina River (ND)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Pembina Neche, ND                                       $3.0         $3.0         $1.9                                      $1.1            $0.0
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                    Roseau River (MN)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Roseau Roseau, MN                                      $40.0        $20.0        $14.0                         $6.0                         $0.0
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                    Devils Lake (ND)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Devils Lake Devils Lake, ND (City of)                 $150.0                                                                                $0.0
Devils Lake Minnewaukan, ND                            $10.5                                                                                $0.0
Devils Lake Fort Totten, ND                           $120.0       $120.0       $120.0                                                      $0.0
Devils Lake Tolna Coulee--Control Structure            $14.0        $13.4         $9.9                                      $3.5            $0.0    \3\
  West End Outlet                                        TBD                                                                                $0.0    \6\
  East End Outlet                                      $85.0        $85.0                                                  $85.0            $0.0
  Gravity Outlet                                       $17.0        $17.0                                                  $17.0            $0.0
  Buyouts                                                TBD                                                                                $0.0
  Raise Federal aid roads                             $190.0       $190.0       $190.0                                                      $0.0
  Raise township roads                                   TBD                                                                                $0.0
  Raise railroads                                      $97.0        $97.0        $64.7                                     $32.3            $0.0    \4\
  Increase Upper Basin Storage                         $75.0        $75.0                                                  $75.0            $0.0
                                                -------------------------------------------------------------------------------------------------
    Subtotal--Local Protection--In United           $3,166.3     $2,812.4     $1,338.2       $985.0           $92.9       $380.4            $0.0
     States
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                Upstream Storage Projects
--------------------------------------------------------------------------------------------------------------------------------------------------------
Potential Upstream Storage Projects                 $1,463.0       $700.0       $350.0                       $175.0       $175.0          $763.0    \5\
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                             Other Flood Related Activities
--------------------------------------------------------------------------------------------------------------------------------------------------------
Pilot Projects                                         $10.0         $5.0         $2.5                         $1.3         $1.3            $5.0
Decision Support Network                                $4.0         $4.0         $2.0                         $1.0         $1.0        $0.15/yr
Forecasting                                             $2.0         $2.0         $1.0                         $0.5         $0.5        $0.15/yr
FEMA Flood Plain Mapping with LiDAR data                 TBD
Transportation Upgrades                                  TBD
404 Retention Permitting Coordination                   $1.0         $1.0         $0.5         $0.3            $0.3         $1.0
Drainage                                                 TBD
Conservation Program Funding                             TBD
                                                -------------------------------------------------------------------------------------------------
  Subtotal--Other Flood Related Activities             $17.0        $12.0         $6.0         $0.0            $3.0         $3.0            $6.0
                                                =================================================================================================
    Total for United States in Red River Basin      $4,646.3     $3,524.4     $1,694.2       $985.0          $270.9       $558.4          $769.0
--------------------------------------------------------------------------------------------------------------------------------------------------------
TBD To be determined.
Notes:
\1\ The estimated amounts of the Federal and non-Federal Fargo/Moorhead LPP Diversion project total costs are based on the Fargo-Moorhead Metropolitan
  Area Flood Risk Management project Supplemental Draft Feasibility Report and Environmental Impact Statement, April 2011. Final cost-sharing amounts
  between the non-Federal partners have not yet been determined.
\2\ Additional local protection included as a part of the Fargo-Moorhead LPP North Dakota diversion project cost listed under Fargo and Moorhead at the
  top of this table.
\3\ Tolna Coulee cost includes $14 million for the control structure to prevent significant erosion in case of a natural overflow.
\4\ Cost-sharing for raising railroad embankment at Devils Lake estimated to be \1/3\ cost-shared by Burlington Northern Santa Fe Railway, \1/3\ by
  Amtrak, and \1/3\ by the North Dakota Department of Transportation through a U.S. Department of Transportation grant.
\5\ Federal participation in potential upstream storage projects is assumed to be available through future U.S. farm bill at approximately 50 percent
  cost-sharing; however, actual Federal funding availability and cost-sharing amounts is uncertain. Also, implementation of projects in each state is
  assumed to be at comparable levels, however this will depend on project implementation schedules by each state.
\6\ Operation and maint[enance] (O&M) costs of projects are not included in this tabulation, even though in some cases the O&M costs may be substantial.
  O&M costs are typically a non-Federal or local responsibility and should also be considered in the implementation decision for a project.
\7\ Information on specific projects at individual communities can be found on the City Assessment tables in Appendix C.
\8\ Funding for farmstead and rural ring dikes depend on the number of landowners requesting assistance. A rough estimate based on funding from recent
  years is included.

  <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
          Barr Factor Arc GIS 10.0. 2011-09-27 11:23 File: 
        15Client\St.Paul_DistrictCorps\Work_Orders\Red_River_Basin_Wide_

        Feasibility_Study\Maps\ReportMap\MapA-1GeneralLocationMap.mod. 
        User ID: TJA.
                             [Attachment B]
Red River Basin of the North RCPP Watershed Project Areas
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                             [Attachment C]
Red River Retention Authority Consolidated Subcommittee Reports
March 28, 2011
Retention Committee
Water Management Sub-committee
Chair: Gary Peterson
    New Farm Bill Funding[:]

  <bullet> Continue further study on the viability of tiling as a water 
        retention practice[:]

    <check> Collaborate with the RRRA Basin Technical and Scientific 
            Advisory Committee on water retention strategies, 
            specifically ag water management for both surface and sub-
            surface water.

    <check> Utilize the NRCS Conservation Innovative Grants program in 
            a pilot watershed to provide scientific findings on the 
            potential of using tile systems to retain water in the soil 
            profile.

    <check> Develop a cooperative agreement with USDA Agricultural 
            Research Service, Cooperative Extension Service, and the 
            land grant universities from University of Minnesota, North 
            Dakota State University, and South Dakota State University 
            to:

      <ctr-circle> Continue research on the impact of tiling on water 
            retention.

      <ctr-circle> Continue to evaluate the impacts of tile drainage on 
            water quality and wet-
              land health.

  <bullet> Provide Red River of the North Basin financial assistance 
        through Agricultural Water Enhancement Program (AWEP) and 
        Conservation Stewardship Program (CSP) for bundled agricultural 
        water management practices[:]

    <check> Nutrient management.

    <check> Pest management.

    <check> Erosion control.

    <check> Buffer and filter strips.

    <check> Water control structures on tile outlets.

    <check> Downstream retention ponds.

  <bullet> Based on scientific research, continue to provide low 
        interest rate loans through the ``Conservation Loan Program'' 
        administered through the Farm Service Agency (FSA) to implement 
        ag water management systems through the NRCS (drain tile).

  <bullet> Prioritize Red River of the North Basin Environmental 
        Quality Incentives Program (EQIP) Agricultural Water 
        Enhancement Program (AWEP) sub-program financial assistance for 
        the design and installation side water inlet structures.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Wilkin County, Minnesota side water inlet.

    Sub-committee observations:

    Tile has potential to be used as a water management tool in the Red 
River Basin. Experts from North Dakota State University, the Energy and 
Environmental Research Center, the tiling industry, International Water 
Institute and private landowners have conducted or are working on 
short-term studies on this type of water management. The preliminary 
findings show a need for further evaluation and study.
    There appears to be the potential to gain efficiencies in water 
retention, protect public safety, improve soil health and water 
quality. There are some studies indicating the soil can hold more water 
in the spring, but these studies are not conclusive. Many of the 
reports on water management efficiencies are anecdotal and need to be 
further studied by the scientific community. The potential is real, but 
we need to be certain we are not solving one water resource issue while 
creating another.
Retention Committee
Permitting Sub-committee
Chad L. Engels, Chairman
    Sub-Committee Recommendations:

  <bullet> EPA Guideline Change[:]

    <ctr-circle> EPA 404(b)(1) Guidelines, set out in 40 CFR section 
            230 (LEDPA)--404(b)(1) states a permit will not be issued 
            ``if there is a practicable alternative to the proposed 
            discharge which would have less adverse impact on the 
            aquatic ecosystem, so long as the alternative does not have 
            other significant adverse environmental consequences.'' Our 
            subcommittee has identified LEDPA as a significant obstacle 
            to building retention projects in terms of time and money. 
            A solution would be to replace The Least Environmental 
            Damaging Practicable Alternative (LEDPA) requirement with a 
            simple environmental mitigation requirement for the 
            proposed project.

  <bullet> SAMP[:]

    <ctr-circle> EPA 404 Nationwide Permit/Regional Permit--Currently, 
            retention projects must be permitted as individual 
            projects. Our subcommittee has learned that many categories 
            of projects are permitted under what are called 
            ``Nationwide Permits'' or ``Regional permits''. These 
            permit categories speed the process significantly by having 
            a common ``Purpose and Need'' and ``Description of Proposed 
            Alternatives and No Action Alternative'' in the EIS 
            requirements for flood retention projects covered by this 
            national or regional permit. Therefore, our subcommittee 
            will likely recommend that a Nationwide Permit (preferable) 
            or Regional General Permit (second choice) be developed for 
            three categories of retention projects in the Red River of 
            the North Watershed. These project categories include Off-
            Channel projects like North Ottawa, dry mainstem projects 
            like the Maple River Dam, and wetland retention projects 
            that temporarily store water above the delineated wetland 
            boundary.

    <ctr-circle> Consistency--The USACE should establish an interagency 
            agreement whereby one office assumes regulatory control of 
            retention projects within the entire Red River of the North 
            Watershed.

    <ctr-circle> Funding--The Federal Government should fund a USACE 
            regulatory position dedicated solely to processing Federal 
            permits for retention projects in the Red River of the 
            North Watershed.

    <ctr-circle> Involvement--The USACE should be a committed, active, 
            and involved participant in the ``Flood Damage Reduction 
            Work Group--Watershed District Project Teams'' process for 
            developing retention projects in Minnesota. Additionally, 
            the USACE should be involved at the ground level, if 
            requested, for retention projects developed in North Dakota 
            and South Dakota.

  <bullet> Corps Rule 40 CFR Change[:]

    <ctr-circle> NEPA Council on Environmental Quality (CEQ) Comment 
            Period--would recommend that Corps rules be changed so that 
            under no circumstances can the three comment periods 
            required under an EIS be extended beyond 30 days for the 
            Notice of Intent, 45 days for the Draft EIS, and 30 days 
            for the Final EIS.
Retention Committee
Easement Sub-committee
Chair: Jon Roeschlein
    Farm Bill Changes[:]

  <bullet> 514.13--Ineligible Landowners--We recommend that Watershed 
        Districts, Water Resource Districts, and the Red River 
        Retention Authority in the Red River of the North Basin be 
        eligible to enroll lands into the WRP. This provision would 
        expedite the implementation of flood water retention projects.

  <bullet> 514.14--Land Eligibility--It is recommended that all hydric 
        soils including non-drained retention areas located in the Red 
        River of the North Basin are eligible lands for the WRP.

  [<bullet>] 514.14d--Consideration should be given to add a new focus 
        area like that done for the Devils Lake area. Potential 
        language:

      Section 1237, Wetlands Reserve Program
                  (c) Eligibility.

                          Add (2)(C) Other land of an owner where the 
                        Secretary determines wetland functions and 
                        values can be established on such land.

  <bullet> 514.20 Ranking Criteria--It is a recommendation of this 
        committee that the Red River Retention Authority in cooperation 
        with the three State Conservationists develop WRP ranking 
        criteria specific to the Red River of the North Basin.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Spring 2010 North Ottawa Impoundment.

  <bullet> 514.41b--Definition of Restoration--We have come to 
        agreement on short-term definition that we are restoring the 
        value and function of wetland complexes that have been degraded 
        since settlement of the area. Long-term, there is a need to 
        provide clarification that allows for the establishment of 
        wetlands and wetland complexes that provide the same or better 
        functions and values as enhanced, rehabilitated or restored 
        wetland functions and values. If managed properly, the 
        functions and values should far exceed those of most naturally 
        occurring wetlands and those wetlands that are restored but not 
        managed.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Structure C North Ottawa Impoundment.

  <bullet> WRP Acreage Cap--State Conservationists be allowed to waive 
        the County Cropland Reenrollment limitations in the Red River 
        of the North Basin for purpose of water retention projects. 
        Also suggest a separate acreage limit for WRP and CRP. [(]i.e., 
        CRP 25%, WRP 25%[)].

    FSA Regulation change[:]

  <bullet> Buffer widths--Eligible buffer strip widths should be 
        increased to fully encompass the 100 year floodplain adjacent 
        to the channel or the floodway adjacent to the channel or up to 
        1,000.

  <bullet> CRP Acreage Cap--State Executive Director be allowed to 
        waive the County Cropland Reenrollment limitations in the Red 
        River of the North Basin for purpose of water retention 
        projects. Also suggest a separate acreage limit for CRP and 
        WRP. i.e., CRP 25%, WRP 25%.

  <bullet> Vegetation Management--There should be provisions added 
        where the State Executive Director could waive the payment 
        reduction on CRP and CCRP for biofuels harvesting or haying or 
        grazing when part of an approved management plan. It does not 
        make sense to use burning as the only viable option for 
        vegetative management on these sites targeted for water 
        retention projects and penalize the landowner for more 
        reasonable and practical management options.

    NRCS Policy change or farm bill change?

  <bullet> Multiple Easement Categories--It is recommended the EWP-FPE 
        allow for continued cropping of portions of the easement under 
        an approved conservation management plan.

  <bullet> Enhancement--It is recommended that EWP-FPE include 
        enhancement and allow retention in addition to restoration of 
        the floodplain.
Retention Committee
Farm Bill Programs Sub-committee
Chair: Rob Sando
    NRCS Policy Changes[:]

  <bullet> Encourage sidewater inlets/outlets as retention features in 
        EQIP/AWEP

    <check> Change NRCS ranking criteria with ``Encourage and 
            Prioritize'', to emphasize the installation and operation 
            of sidewater inlets/outlets with traps as higher priority 
            in the ranking process.

    <check> Encourage and emphasis Flood Damage Reduction (FDR) and 
            Natural Resource Enhancement (NRE) in NRCS ranking process.

    <check> Encourage landowners through local EQIP/AWEP applications 
            to refrain from draining water on property with traps on 
            sidewater inlets/outlets until the water in the drain or 
            stream recedes thus resulting in a higher score on their 
            eligibility status. This could be done by having landowners 
            sign an agreement resulting in a higher NRCS ranking score.
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
          Minnesota Red River Valley side water inlets.

    New Farm Bill Funding[:]

  <check> Increase the amount of funding for Technical Service 
        Providers in the Red River of the North Basin (practice design, 
        application and checkout).

  <check> Establish FEMA or public private partnership, or USDA Rural 
        Development to be used for protection of small agricultural 
        rural community (population less than 3,000) ring dike (50 
        percent to total project costs).

  <check> Establish FEMA or public private partnership, or USDA Rural 
        Development to be used for culvert sizing projects that provide 
        for distributed flood water retention in targeted/prioritized 
        areas as part of a sub-watershed plan. This would provide 
        landowner incentives for keeping the water where it lands as 
        part of the goal of reducing downstream flood peaks.

  <check> Provide AWEP funding to construct levees and dikes to manage 
        10 year frequency for overland flooding on agricultural land.

  <check> Increase EQIP/AWEP funding for forestry practices.

    <check> Utilize forestry management products and activities for 
        excess moisture.

    <check> Biomass Crop Assistance practice.

  <check> No Federal cost-share or incentive payment should exceed 75% 
        of the cost of installation

    P.L. 83-566 and EWP Change[:]

  <check> Where it is not practical for technical reasons to construct 
        ring dikes for a farmstead provide P.L. 83-566 and Emergency 
        Watershed Protection Program funds for relocation or buy out of 
        some or all of the farmstead at 50 percent cost-share.

  <check> No Federal cost-share or incentive payment should exceed 75% 
        of the cost ofinstallation.
Retention Committee
P.L. 83-566 Sub-committee
Chair: Dan Money
    Committee Recommendations:

  <bullet> Increase watershed size limit from 250,000 acres to 
        1,000,000 acres, and use only the upstream contributing area to 
        determine eligible size, not any downstream areas.

  <bullet> Increase the single site storage volume from 12,500 acre-
        feet to 75,000 acre-feet.

  <bullet> Increase the total project storage volume from 25,000 acre-
        feet to 250,000 acre-feet.

  <bullet> Increase the eligible construction cost-share from 0 percent 
        to 75 percent Federal cost-share for natural resource 
        enhancements.

  <bullet> Add language to alter the eligible technical assistance 
        cost-share to make technical assistance costs associated with 
        natural resource enhancement portions of the project eligible 
        for 75 percent cost-share.

  <bullet> Add language to limit the total project sponsor cost-share 
        (non-Federal) to 25 percent. Also, amortize the future expected 
        operations-maintenance-repair-replacement-rehabilitation costs 
        to a present value and allow the local sponsor to use this 
        obligation towards the max of 25 percent cost-share on initial 
        construction.

  <bullet> Increase project cost/timing approval by Congress 
        requirement from projects that exceed $5 million and/or 4,000 
        acre-feet to:

    (1)  allow approval by the NRCS State Conservationist for projects 
            up to $25
              million (or 25,000 acre-feet), and

    (2)  allow approval by the NRCS Chief for projects up to $50 
            million (or 50,000
              acre-feet). Approval by Congress would be required for 
            projects over $50
              million/50,000 acre-feet.

  <bullet> Eliminate the requirement under economic and environmental 
        principles and guidelines for water resources implementation 
        studies for individual benefit to cost ratio calculations on 
        each individual project and instead allow flood control 
        projects to be based upon an overall basin plan.

  <bullet> Designate the Red River Retention Authority as the unit of 
        government who will develop the benefit to cost ratio to be 
        used collectively for all projects within the Red River of the 
        North basin. Projects that fall under the basin plan will not 
        need to meet an individual cost benefit ratio criteria, but 
        will need to meet the basin cost benefit criteria.

  <bullet> Under technical services contracting, issue a Request for 
        Proposals for a multiple award of indefinite delivery/
        indefinite quantity contract for planning, design, and 
        implementation of flood control planning focused specifically 
        for the Red River of the North Basin.

  <bullet> Under dam rehabilitation, utilize Section 313 of Public Law 
        106-472 to provide dedicated funding for rehabilitation 
        projects in the Red River Basin where the primary purpose is 
        the development of gated flood storage. The intent is to 
        retrofit existing P.L. 83-566 projects that have little or no 
        storage to be able to build into them a storage component where 
        possible.
Middle Snake Tamarac Rivers Watershed District
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          P.L. 83-566 Off Channel Floodwater Impoundment Site.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          P.L. 83-566 Diversion Channel.

    The Chairman. Thank you, Mr. Finney.
    I now recognize myself for 5 minutes.
    Mr. Burns, you are exactly right about the droughts of the 
1950s. Granted, I was not around at the time, but the effect in 
the Southwest, Oklahoma and Texas, when it broke, starting in 
1957, 1958, and 1959, the deluge was just amazing, according to 
records and my parents' accounts. It did drive forth the 
process to accelerate this.
    First, let me turn to Mr. Emmons for a question.
    You are not just a conservation activist. You are an all-
around conservation-focused farmer. Expand for a moment, Jimmy, 
about how all this intertwines together, good stewardship of 
the soil, of the water retention structures, making these 
investments, the environment, if you would for just a bit.
    Mr. Emmons. Yes. It is a very intricate partnership from 
local producers, from there downstream. We have to worry about 
catching the first raindrop, get it in the soil. We have to 
worry about coming into the small watersheds, the release out 
of that, down through there.
    It is an intricate system of how we control the water when 
it comes. Where it is range management, Mr. Bramblett talked 
about cover crop systems above streams, all that helps with 
water quality as it moves down into the watersheds.
    But we still have to have those watersheds there to catch 
the heavy rainfalls like we were just talking about and also 
releasing that slowly out of that 10 day interval there. And so 
it takes a lot of O&M, operation and management, inspections on 
the dams to make sure that they are very functional.
    The Chairman. And it is worth reinforcing the point that 
the protection is provided from that let down pipe all the way 
to the ocean.
    Mr. Emmons. Oh, yes.
    The Chairman. It is not just on the farm or the neighbor 
down the road or the county road. It is all the way to the 
Atlantic if you live in Oklahoma, or it is all the way to the 
Pacific if you are on the west side of the Rocky Range.
    Mr. Emmons. Yes. What happens on my farm affects clear 
downstream to the ocean.
    The Chairman. Mr. Peterson, you have been involved in the 
process a good long time, clearly.
    Mr. Peterson. Yes, sir.
    The Chairman. And you have observed and been a big part of 
the progress that we have made. There is always more to do. 
Expand for a moment on that.
    Mr. Peterson. Well, as Mr. Bramblett told you, he told you 
a little bit about the backlog and the things they are facing 
in NRCS.
    I happen to believe Public Law 83-566 in these watershed 
programs is one of the best tools ever invented that not only 
do conservation work on the land, but flood management, flood 
damage reduction work. And it is just unlimited how many 
benefits we can get in this country from installing watershed 
kinds of activities throughout the United States.
    And as we mentioned, in Ranking Member Fudge's state, they 
are even doing a lot of land treatment projects now that don't 
have structures there, but we are addressing all those land 
treatment conservation measures.
    It is unlimited how much we could accomplish if we had the 
ability to do so. And that ability is somewhat limited not just 
by funding, but by the people available to do the work. But to 
me this is one of the best authorities we have ever had.
    The Chairman. Mr. Burns, in your community where the 
programs have been successfully implemented, do the citizens 
understand and appreciate that?
    Mr. Burns. Yes, sir. Yes, sir, they do. But, citizens 
downstream probably are better served than the local citizens. 
Now it is 348 miles from my home to the Gulf of Mexico, and the 
downstream partners, and I call them partners because they are 
downstream of me, benefits greatly.
    The Tarrant Regional Water District is a partner of ours in 
the maintenance of our structures and land treatments, and that 
is incredibly beneficial to them. They say that a penny 
invested saves them a dollar. They get a hundred-fold on the 
investments they put in my county.
    The Chairman. Mr. Emmons and I come from a community that 
was the center of the abyss of the Great Depression and the 
drought of the 1930s. And this is a legacy issue, not just a 
current issue, but a legacy issue, for both of us, in that we 
had an activist by the name of Red Males, my family's banker 
from 1924 until 1989, who was a big proponent after the 1934 
flood in helping drive Members of Congress in Oklahoma in this 
direction.
    It is important, right, Jimmy, that we continue to work on 
that great legacy laid down by our predecessors?
    Mr. Emmons. Oh, it is very important. I mean, that was an 
unprecedented flood back then and lots of loss of life. And as 
I allude to, in my family farm, I mean, it sheared off the top 
soil as deep as granddad had plowed it, and that is hard, hard 
to replace.
    But it also affects water quality downstream. And that is 
what you really need to think about in legacy here is, like you 
said, all the partners from my farm downstream that were 
affected by what we do there on my farm.
    So, yes, it is very, very important that we continue that 
legacy to protect our citizens, protect our roadways, and 
protect our soil.
    The Chairman. And to share these accomplishments with the 
country as a whole, the opportunities that prevail.
    Mr. Emmons. That is correct.
    The Chairman. With that, my time has expired.
    I turn to the Ranking Member for 5 minutes.
    Ms. Fudge. Thank you all for your testimony today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Ms. Fudge. The Trump Administration budget does not request 
any funding for the Small Watershed Rehabilitation Program for 
Fiscal Year 2018 citing that maintenance, repair, and operation 
of these dams are the responsibility of local project sponsors.
    Mr. Emmons, you mentioned farm sense in your testimony. 
Please speak to the importance of this federally assisted but 
locally planned and implemented program.
    Mr. Emmons. Well, the farm sense part of it, it is very 
important that we protect these assets. We are challenged in 
Oklahoma with reduced budgets too where we have a lot of 
conservation districts now that either are not staffed or have 
a part-time staff, and we are trying to share with other 
districts to get people out on the ground to physically inspect 
these dams and do regular maintenance on them.
    So it is very challenging. But still, the farm sense side 
of it tells me that we must protect these investments and 
protect our people, our livestock, our communities, and our 
roads and infrastructure down through that. Without that, then 
we have nothing.
    And Mr. Burns talked about how the protection of these 
watersheds has greatly increased from washing out lots of 
different structures in 1950 to a very few. That tells us that 
the system is working, but that doesn't mean that we need to 
ignore the system, because we have to maintain it. Whether it 
is a house or a dam, it has to have regular maintenance, and it 
has to be updated.
    From the pipes that go through the structures that could 
deteriorate and crack, to the embankments to the spillways, all 
has to be maintained. And that takes people on the ground. And 
it is very challenging. A lot of these conservation districts 
have reduced budgets.
    You talked about the Federal budget being reduced. That is 
a fact that we can't give up. We must stress the importance of 
that, how important it is to manage the investment. We would 
never in farming country put that kind of investment out and 
ignore it.
    Ms. Fudge. Thank you very much.
    Mr. Burns and Mr. Peterson, if you could just quickly say 
what you believe the effect on your communities and our nation 
would be if we do not continue to fund these programs.
    Mr. Burns. Could I----
    Mr. Peterson. Go ahead.
    Mr. Burns. I was very apprehensive coming up here. It made 
me very nervous to do this. And I was thinking about it on the 
way up here, driving up the interstate, that this system is 
like an interstate. There is local investment, but I can't 
invest in an interstate highway all the way to D.C. with local 
tax dollars even though I need it.
    If that makes sense to you, it gives you a little analogy 
about this. I can't afford the investment all the way to the 
Gulf of Mexico. But the benefits are there, and it is important 
to keep that up.
    Mr. Peterson. I would like to make a comment also, and I 
appreciate that question. I am probably going to demonstrate to 
many in the room that I am not a good economist, although I 
have worked with them all my life.
    But the fact of the matter is, when I talked about 2,100 
watershed projects throughout the nation and the $2.3 billion 
of average annual benefit, if you are a strict economist, I 
have worked with many who would say: Well, those are all 
regional projects, that only the people in that region need to 
fund them and work with them, but when you add all of those up 
that have been constructed throughout the United States, think 
of the national benefit. And that is the way I look at it.
    Ms. Fudge. Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentlelady yields back.
    The chair recognizes the Ranking Member of the full 
Committee for 5 minutes, Mr. Peterson.
    Mr. Peterson of Minnesota. Well, thank you, Mr. Chairman.
    Mr. Finney, after the discussion I had with Mr. Bramblett, 
you folks, the Retention Authority, did your people raise these 
issues with NRCS?
    Mr. Finney. Yes, sir, we have.
    Mr. Peterson of Minnesota. And they told you that we had to 
change the law. Is that what they----
    Mr. Finney. Exactly.
    Mr. Peterson of Minnesota. They didn't have any flexibility 
on the cost-benefit without----
    Mr. Finney. Not really. The cost-benefit thing has been 
kind of a problem to us in the basin specifically because we 
have a plan that is put forward that is a comprehensive plan of 
bringing together several of these projects to alleviate the 
total flooding on the main stem of the Red River.
    And for those of you that are not familiar with the Red 
River, we are one of the very few that flows to the north. We 
thaw out from the south to the north. Our river ends up 
eventually in the Hudson's Bay.
    That kind of tells you what kind of a problem we have. 
Downstream, 200 miles from us, the spring thaw occurs, and us 
poor schleps up on the Canadian border are sitting there froze 
up for the next 3 weeks. It gets to be kind of a problem.
    That is what we are looking for, this comprehensive 
approach to water management, these upstream retention 
structures. And the cost-benefit, of course, is when you do 
each individual little area, we aren't able to meet the 
criteria established by the Federals. It doesn't mean that we 
are going to discontinue our efforts to move forward. We will 
try to use the P.L. 83-566 as best as we can. But we will 
continue moving forward with both local and state money.
    Mr. Peterson of Minnesota. I think it is fair to say that 
the 250,000 acre limitation is really out of date. It hasn't 
been changed since the program was created.
    Mr. Finney. In our mind it is, Mr. Peterson. The main 
reason is we live in a very flat river valley, up from 12 miles 
to 250 miles wide, and there are only so many prime sites that 
we can use to store these kinds of projects.
    P.L. 83-566 limits us into the fact that, like I said, we 
have to pick off the plums. We want to use the best that we 
can. If we could get a little more capacity or if we could, 
make these kinds of things work, it would be better off for us.
    Mr. Peterson of Minnesota. And just for our Members, one of 
our big problems we have had is dealing with the Corps and 
trying to get permits and that bogged us down. But this fight 
goes back to the Corps not wanting us to be doing this. They 
want to run all of these projects. And that is part of the 
reason why we don't get an increase in the acreage size.
    But if you want to make sure that the project costs three 
or four times what it should, then put the Corps of Engineers 
in charge, and you will accomplish it.
    I don't know what we do to simplify this system. But as I 
said earlier, we are wasting a lot of money because we could be 
doing stuff out there. And it is not just the Corps. We have 
had trouble with the local DNR not approving things. It is just 
one thing after another.
    But one of the things, I have this list here, so I don't 
know what you are doing in Oklahoma, Mr. Chairman, but 
according to this list, you have 987 P.L. 83-566 projects, and 
we only have 37 in Minnesota. Either you are doing really good, 
or we are doing really bad.
    The Chairman. Mr. Chairman, if you lived through the Great 
Depression and drought from the 1930s, you would do everything 
you could to hold the water and soil in place.
    Mr. Peterson of Minnesota. I don't know if any of you folks 
that have been around this for a while, but can you explain to 
me why Iowa has 1,066, Missouri has 1,148, Oklahoma has 987, 
Texas, 697, and then these other states have 16 or 35? What is 
going on here? Why is that occurring?
    Mr. Burns. It is due to catastrophic weather events, 
likely.
    Mr. Peterson of Minnesota. The what?
    Mr. Burns. The likelihood of catastrophic weather events in 
those locales. That is what I attribute it to.
    Mr. Peterson. I think there is more to it than that, 
though. It is local leadership that is part of it, because 
local leaders had to recognize the program could assist them, 
and they reached out and adopted it. Many states still haven't.
    Mr. Emmons. Yes. It is locally-led conservation, the 
passionate from-the-heart people that puts it in place and 
tries to protect their soil and their water.
    Mr. Peterson of Minnesota. Well, we are hoping to catch up 
with you guys. That is our goal.
    Right, John.
    Mr. Finney. That is right.
    Mr. Peterson of Minnesota. Thank you, Mr. Chairman. I yield 
back.
    The Chairman. Thank you, Mr. Chairman. We want to share the 
good news with everybody. Absolutely. Let's get after it.
    With that, the chair recognizes the gentleman from Georgia 
for 5 minutes.
    Mr. Allen. Thank you, Mr. Chairman.
    And thanks to the panel for your comments and being here 
today to talk about these issues.
    I represent the 12th District of Georgia, and I have heard 
it said many times by our state leaders, of course, we have 
water wars with other states. But Georgia does not have a water 
problem. We get 51" of annual rainfall a year. We have a water 
management problem in Georgia, which is the subject that we are 
talking about today.
    But then we do have some dry times in Georgia. At least all 
of our corn is irrigated, or it better be. And, of course, they 
are sucking that water out of those caverns, and then that 
causes problems downstream.
    Nobody wants to solve this issue more than our folks in 
Georgia and our neighboring states.
    In the Corps, we have found that is an issue. But going 
back, you have the Federal Government and then you have all our 
state governments. And somehow there seems to be some problem 
working together.
    Could you elaborate, anybody on the panel, as far as how in 
the world we could fix that and allow the Federal Government to 
do its role in conjunction with the state and local? As we 
said, this is a local problem, particularly the maintenance of 
these properties.
    Mr. Emmons, could you elaborate on that?
    Mr. Emmons. Well, that is not an easy problem. You would 
think that people could come together for the common good. We 
have seen that challenging in the past. We have been blessed 
that we had some Federal dollars for rehab in Oklahoma, thanks 
to Congressman Lucas, in the 2014 Farm Bill. The big challenge 
is state matching funds of that to get the dams in rehab.
    With state budgets shrinking, that becomes very, very hard. 
We were very blessed this year that we did get some increase in 
dollars for that rehab. It was a very hard-fought battle to get 
that money in a $900+ million deficit budget. It took a lot of 
people from our districts working at the state capital to get 
that done. And we think this is just the beginning. We think 
that will grow.
    But it really comes back down to locally-led and getting 
the people that vote out to speak to the ones that are making 
the decisions and share our passion about how we go about 
protecting their lives.
    It was talked about earlier, when people build below these 
structures without even thinking. And then in 2015, we had a 
flood in a town south of me, Elk City. We were very fortunate 
that day to be able to fly with the National Watershed 
Coalition in a helicopter. And the significant flooding the day 
after that where these dams were flowing out the spillways, we 
had some issues there that those dams need to be rehabbed 
because they are past their life expectancy.
    To answer your question is we have to work with our 
legislators and get the people that vote, that care, to realize 
the importance of these structures and the land practices.
    It is not all about the structures. You talked about in 
Georgia, it is about managing the land above that, whether it 
be range management, like myself, I do a lot in cover crop 
practices. And it is very important that we manage that 
rainfall when it comes to infiltrate. I would love to have 50"+ 
in western Oklahoma.
    Mr. Allen. Yes. Right. Yes. The Corps' answer to that flood 
problem is they always lower our lakes in the wintertime. But 
that is very disturbing for our recreational users. I mean, 
what are your thoughts on that as far as management goes? Any 
other thoughts from the other members of the panel about what I 
brought up as far as working together?
    Mr. Peterson. Could I make a comment on the difference in 
philosophy, maybe, between the Corps and NRCS? I respect the 
Corps quite a bit. They are marvelous technicians. They do what 
they feel like they are directed to do.
    But there is a book that I would recommend for your late-
night reading called, Big Dam Foolishness written by a 
gentleman named Elmer Peterson from Oklahoma. It talks about 
the difference in philosophies and how one program went one way 
and one went another. It is a marvelous book on the background 
and philosophies between the two agencies.
    Mr. Allen. Okay. Good.
    The Chairman. Would the gentleman yield to for me for a 
moment?
    Mr. Allen. Yes.
    The Chairman. There is an additional issue to consider. The 
actual structures, when they are on a farm, really doesn't add 
to the quality of life for the landowner. Only one in 30, 40, 
maybe 50 actually ever hold, in these typical structures, 
enough water to be called a fishing hole. Otherwise they are 
dry-weather ponds.
    You have this earthen structure. You have changed the lay 
of the land. The landowner is helping his or her neighbors 
downstream. They really don't gain that much from it. From 
them, it is a sense of being a part of the common good to start 
with, and then it cascades down.
    These structures were never condemned. The properties were 
allowed to be constructed after easements were signed, 
permission given by landowners dating back to the 1940s.
    Mr. Allen. We are talking about dry ponds here?
    The Chairman. That is basically most of the structures in 
my core area.
    Mr. Allen. When we have a flood in these dry ponds, then we 
are washing out these dams?
    The Chairman. No. No. The upstream flood control dams are a 
series of small dams. When you have a flood, each of the dams 
catches the water that comes from above it.
    As the Deputy Chief pointed out earlier, the 10 day goal is 
then to meter the water out. They act as a shock absorber. 
Instead of this deluge going down the creek and down the river 
and building, they slow it down, they meter it out so it is 
manageable within the existing stream banks, which protects 
wildlife, too, by the way, as well as domesticated livestock.
    Mr. Allen. The subject we are talking about here today is 
the Federal Government actually doing what it is supposed to be 
doing as far as that relief downstream.
    The Chairman. How the system has worked is why we have this 
match between local entities and the Federal Government, 
because the local entities can't pay for it. And typically it 
wouldn't benefit them, the protection given from 3 miles below 
the dam all the way to the Gulf of Mexico. But by the Federal 
Government participating, we set up these networks that protect 
everybody below the stream.
    Mr. Allen. Okay.
    The Chairman. In a 100 year targeted goal.
    Mr. Allen. You all want to comment on that?
    Mr. Burns. Eighty-five of my structures are usually between 
1 acre and 5 acres. They do retain some water, and most of the 
time if does last all summer. Prior to 2015, we had another 6 
or 7 years of drought, and most of those were dry. The 
landowner nor any of the locals that like to fish there were 
benefiting at all.
    Mr. Allen. Well, I hope we can get this figured out, and I 
yield back.
    The Chairman. Thank you. The gentleman yields back.
    The chair recognizes the gentleman from Arizona for 5 
minutes.
    Mr. O'Halleran. Thank you, Mr. Chairman.
    I just want to say I have been working with conservation 
districts now for 20+ years, and it has been such a pleasure. 
And it is really good to have some folks here, and I want to 
compliment the Chairman on having folks who have real-life 
experience in this stuff, because it is hard to understand out 
there. And especially bringing in special interest people in 
here. No thanks. I like people from rural America that know 
what their land is all about. This Committee is one of those 
committees where we all share these types of common values.
    But if we were going to look at rural America as we should, 
as our breadbasket, our natural resources, where they all come 
from, where our power plants are, how we are going to survive 
as a society, that is the bedrock, whether it is a rural 
America or Native American reservations, across that whole 
spectrum.
    But life is different out there from a tax standpoint. Life 
is different out there as far as being able to find cooperation 
and be able to build these types of structures without Federal 
help. And it is also different in maintaining them over time. 
And so that is why this partnership is so important.
    And if we don't do that, it is actually a waste of the 
prior expenditures that we have put into it. And fiscally, that 
doesn't make much sense at all to me. And it is a legacy issue. 
We did build these. Whether there are 5,000 of them out there 
that have to have work on them, it is our responsibility to 
work with partners to get that done. And I am hoping as we go 
through the farm bill or through the budget process, that we 
are going to be able to get this issue away from the zero 
number into somewhere much more meaningful to get the work 
done.
    But we also have to take into account the ongoing 
activities in the local area. What we are building downstream 
from these areas, what climate is or isn't doing to the 
process, and making sure that--I don't even know if the 
assessment of the dams right now takes into account the 
differences in climate from 20 years ago.
    But what happens if we don't do something? The impacts to 
rural America are tremendous, just tremendous. We have 
increased flood risk. We have a public health risk. I mean, 
health and safety, deaths, American citizens, loss of economic 
potential, increased FEMA floodplains, impact on family 
investments, the lack of maintenance of irrigation districts, 
irrigation into canals, the loss of water resources, water 
quality. You could go on and on and on.
    So in these couple of minutes that are remaining, I would 
like to hear from you about how you feel about these types of 
losses and what you feel we can do about them to make sure we 
go in the right direction here.
    Mr. Emmons. Well, my work that I have done with land and 
range management is, if you look at the Mississippi River flow 
since the very first monitoring that was done in the 
Mississippi, it was very consistent back before we plowed the 
prairie up. There were some ups, a little downs, but it was 
pretty flat. As the native prairie started being tilled up and 
put in production, we started seeing bigger swings. And the 
more we tilled, the worse that got, because it gets back to the 
point Mr. Bramblett brought up a while ago about organic matter 
in the soil. We can't capture the water in the soil as that 
organic matter was depleted.
    I think that it makes a lot of good sense that we start 
putting more land management practice with the cover crops and 
range management to get our organic built back up so that for 
every one percent we can catch 27,500 gallons of water per 
acre.
    Now, if you do the math, and I have done a presentation on 
this, in the Mississippi Delta flow region, if we would 
increase our infiltration rates at \1/2\", that is 83 days of 
the water that goes over Niagara Falls. Get it in the soil, 
keep it in the soil, and that will lessen the effect 
downstream.
    Mr. O'Halleran. I was just down in Galveston over the 
weekend at the commissioning of the USS Gabrielle Giffords. And 
I was looking at the beach. And the Congressman from Texas 
tells me, he says: ``Well, the water changes color down further 
south in Texas because up here we have all the sediment coming 
out of the Mississippi River, still down in Galveston. It is 
still changing color. And it gets blue and green further 
south.''
    I yield back. Thank you.
    The Chairman. The gentleman yields back.
    The chair recognized the gentleman from Mississippi for 5 
minutes.
    Mr. Kelly. Thank you, Mr. Chairman.
    And thank you, witnesses, for being here. I apologize for 
walking out not hearing your testimony, but we have an Armed 
Services hearing that is going on simultaneously.
    Mr. Peterson, our witnesses today have all successfully 
made the case for the economic benefits of flood control dams. 
However, the conservation value remains in how it protects and 
in some cases expands our resources. In addition to the 
traditional watershed programs, how has RCPP furthered the 
progress on watershed issues?
    Mr. Peterson. I must admit, I am not the expert on RCPP. I 
do know about the program, and my conservation district is not 
using it necessarily right now. But if any program or program 
dollars are able to put some watershed protection on the 
ground, I am certainly supportive of that. But maybe one of my 
colleagues up here has more experience with RCPP directly.
    Mr. Kelly. Thank you.
    And I would open that to any of you who have a comment.
    Mr. Burns. My own local water control improvement district 
and soil and water conservation district are basically all 
volunteers. It is very tough to get through that process 
without a grant writer. It is not that it is unavailable to us, 
but we have yet to take advantage of it because it adds a small 
amount of complication to the process that we haven't 
experienced in decades past. But it is still a good program, 
and it works well on a region-wide basis.
    Mr. Kelly. Thank you.
    And, Mr. Emmons, like you, the people of Mississippi 
understand the value of the stewardship of the land. And 
conservation programs and watershed infrastructure really are 
vital to many of my constituents.
    As someone who has engaged in some innovative practices 
over the year, what recommendations do you have for this 
Committee when addressing watershed-wide issues?
    Mr. Emmons. Well, like I stated earlier, we have to put 
some more practices on the ground above the structures to 
infiltrate that water, increase the organic matter. But it 
still comes down to the local people in the conservation 
districts there managing that resource that we put out there in 
those structures and ensuring that they work right. But it is 
still very important that we manage that land above them and 
below them so that we can slow that water. Ranking Member Fudge 
talked about the water quality downstream that will be greatly 
enhanced if we can do that.
    Mr. Kelly. And I would just say that the watershed programs 
do so much for the local communities, many of the people who 
don't even realize the value that it gets for them.
    I thank all you gentlemen for what you have done in this 
program.
    And, Mr. Chairman, I yield back.
    The Chairman. The gentleman yields back.
    The chair recognizes the gentleman from California for 5 
minutes.
    Mr. LaMalfa. Thank you again, Mr. Chairman, and for the 
panelists for traveling here today.
    Mr. Peterson, on the issue, I hear it from farmers and 
ranchers back home, with NRCS. And people are pretty happy 
overall, but the real frustration is with implementation of the 
projects. The actual folks who get out on the ground and do the 
engineering and the staff work needed out in the field is what 
I hear mostly about. That was mentioned early on in your 
testimony.
    Aside from budgets, what structural change do you think 
would be helpful to NRCS' program to stock it with the right 
people who can do more--well, I won't prejudice the question. 
What do you think needs to be done to move the projects along 
faster and have that be a stronger focus perhaps, please?
    Mr. Peterson. Well, the answer to that is fairly easy as 
far as I am concerned, and that is stop cutting professional 
staff in the agency. If you go back to the agency's highest 
employment time, it was probably in the 1970s with 18,000 
people. Now they are down around 10,500 people with far more 
program responsibilities than they used to have. And here we 
are trying to implement a lot of these programs that require 
competent professional staff. The agency, from the time I left 
it 25 years ago until today, has lost a great deal of the 
people that we need to manage these programs properly, and I 
would just like to see that stopped.
    Mr. LaMalfa. Okay, so no more cuts. But what is the ratio 
of people that are able to actually implement the projects 
versus those that are----
    Mr. Peterson. That question probably would have been better 
asked of Mr. Bramblett when he was here, because he had all the 
current information on projects in the backlog.
    Mr. LaMalfa. Yes. We ran out of minutes on that, as it goes 
up here.
    Anybody else on the panel wish to touch on that.
    Mr. Peterson. I can touch on one fact, that the permitting 
process is quite lengthy, even though there is a section 404 
process, and there are some practices that are put on the 
ground that require mitigation. And I believe----
    Mr. LaMalfa. Now, this is mitigation for doing things that 
are positive environmentally.
    Mr. Peterson. Exactly. And these projects should be 
receiving the credits for the mitigation rather than having to 
give them, if that makes sense, because it is----
    Mr. LaMalfa. Do you feel it is outside of the law where 
there are clear exemptions for a lot of agriculture, other 
activities that were pretty clear as Congress wrote them, and 
then they have been overtaken by interpretations that are----
    Mr. Peterson. I believe you are correct.
    Mr. LaMalfa. What do you think we should be doing about 
that?
    Mr. Peterson. Streamline it in some way. But I am sorry, I 
don't have the specific answers for you. But like I say, that 
permitting process for these small structures needs to be----
    Mr. LaMalfa. Kind of frustrating now, because it is 
permitting the slowing down of things that are positive 
environmentally given that.
    Mr. Burns. Absolutely.
    Mr. LaMalfa. Win-win, isn't it?
    Anybody else on the panel.
    Mr. Emmons. Yes. I mean, talking about your original 
question and to that question, we see reduced staffing at NRCS. 
And they have several programs, the EQIP Program, CSP Program, 
all are very cumbersome. CSP has just come through another 
revised step, requires more time for the local NRCS.
    Mr. LaMalfa. Where did that step come from?
    Mr. Emmons. Upstream. It came from here.
    Mr. LaMalfa. Yes. We are here to help, right?
    Mr. Emmons. Yes. As these programs have become more 
cumbersome and more time-consuming for that local conservation 
that is less time that he has to come out and help us with the 
structures for our land practices. Very good programs, very 
good programs, but very cumbersome. And with RCPP, that is 
another example, a very good program that, once you get it on 
the ground you can do great things, but it is very cumbersome 
to get it implemented.
    Mr. LaMalfa. Well, we need checks and balances so you don't 
do rampant projects without proper review. But I guess we need 
help understanding here or attacking the core problem of when 
is too much permitting, where is the line between just enough 
permitting, just enough review, and this cumbersome business 
you are talking about here, because, yes, you want to have 
guidelines, but you also want the rubber to meet the road in 
getting projects done.
    Mr. Burns. Probably some bracketing as far as acreage 
covered or size of the structure and then possibly some 
exemption to a portion of that, if it meets some criteria.
    Mr. LaMalfa. Yes.
    Mr. Emmons. And you have to have some trust that the local 
people that own the land have the greatest passion for the 
land. Don't make it so hard that we can't implement the 
practices.
    Mr. LaMalfa. I am a little over time here, but do you find 
that the folks on the ground at NRCS know what to do, but they 
are getting again their regional office or D.C. a signal that 
frustrates them? Is that pretty common?
    Mr. Emmons. Yes.
    Mr. Burns. That is very common.
    Mr. LaMalfa. Okay. Well, I appreciate that. And anymore 
follow-up you would like to send anybody or me, we would love 
to have that and be able to attack this.
    Mr. Chairman, I thank you and yield back.
    The Chairman. The gentleman's time has expired.
    The chair now turns to a fellow Subcommittee Chairman on 
the House Agriculture Committee, the gentleman from 
Pennsylvania, for 5 minutes.
    Mr. Thompson. Mr. Chairman, thank you very much.
    Thank you to all the members of the panel for being here, 
bringing your experience and expertise on important issues of 
small watersheds.
    I have a question I just want to throw out in general to 
all four of you, if you would feel inclined to respond. 
Basically, infrastructure and job creation typically go hand in 
hand. Has that been the case with what we have been able to 
stimulate or facilitate with Public Law 83-566?
    Mr. Emmons. Yes, I would start with that. We are in Dewey 
County on our fourth rehabilitation project. There are three of 
those dams within eyesight of my house. Yes, we saw that the 
amount of dollars that turns over in the local community is 
very significant. We have contractors come in, they had 
lodging, they buy fuel, they buy food. Plus, all the technical 
staff that puts that project together prior to construction.
    And then afterwards, before the district takes back over, 
NRCS does some more on-the-ground assessments to make sure 
everything is just right before the district takes back over.
    We have seen a great number of dollars influx into the 
local communities when we are doing them rehab projects.
    Mr. Thompson. Very good. Any other of the gentlemen have 
experience with that?
    Mr. Burns. We see the same benefits. Some local contractors 
get bids on these projects when there are rehabilitation 
projects or other projects that are emergency watershed 
protection where there is some lake by it or some kind of 
damage to the dam that is contracted out. And we also use some 
local resources for gabion stone and things like that that 
support other businesses. There is a good trickle down for that 
that are utilized in the communities.
    Mr. Burns. I am sure the NRCS today can tell you about how 
many jobs are created with these construction projects that 
they have. I know in my day we could do that. We made some 
estimates of that. But I can tell you that there is job 
creation as a result of this construction.
    Mr. Thompson. Very good.
    Mr. Finney, RCPP was one of the largest changes in the 
conservation title in the last farm bill. It was designed to 
address conservation concerns on a landscape level. Now that it 
has been fully implemented, how has it worked in conjunction 
with Public Law 83-566 and the rehab program?
    Mr. Finney. I can't exactly speak to the rehab program. But 
the planning that we are doing with the P.L. 83-566, the RCPP 
has allowed development of conservation practices upstream of 
our proposed projects as well as protecting the local drainage 
systems. We have been able to implement these kinds of 
practices to avoid soil erosion as well wind erosion and also 
protect the waters coming down from upstream to downstream into 
our retention projects.
    Mr. Thompson. Very good.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentlemen yields back.
    Before we adjourn, the chair would like to thank the second 
panel for your insights and real-world experiences. Just as in 
our first panel, it has been very insightful in every way.
    And with that, I would turn to the Ranking Member to make 
any closing comments that she would make.
    Ms. Fudge. Thank you very much, Mr. Chairman. And thank you 
for this hearing today.
    I thank you all for your testimony.
    I thank the Members for participating at the level that we 
have today. It was very productive, very insightful, and I 
thank you all.
    I yield back.
    The Chairman. Thank you, Ranking Member.
    And this is the first of, no doubt, of a long series of 
discussions as we work through the next farm bill process. 
Nothing can be more important than protecting our natural 
resources, the lives of our fellow citizens, our domesticated 
livestock, and wildlife too. And in these programs, we cover 
all of those important, critical areas.
    With that, under the Rules of the Committee, the record for 
today's hearing will remain open for 10 calendar days to 
receive additional material and supplemental written responses 
from the witnesses to any question posed by a Member.
    This hearing of the Subcommittee on Conservation and 
Forestry is adjourned.
    [Whereupon, at 11:56 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
 Submitted Report by Hon. Frank D. Lucas, a Representative in Congress 
                             from Oklahoma
Report to Congress_USDA-NRCS Watershed Protection and Flood Prevention 
        Program Multi-Year Plan
December 2015
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Contents
  Preface
  Introduction
  Background
  A Federal-State-Local Partnership
  Authorized Purposes
  Stakeholder Input
  Agency Assessment of National Needs
  Process for Prioritizing Watershed Project Proposals
  Summary
  References
  Appendix A: Identified Watershed Project Needs, FY 2016-2020
  Appendix B: Watershed Operations Appropriations, 1947-2015
  Appendix C: Watershed Protection and Flood Prevention Act--P.L. 83-
    566
Preface
    The Agriculture, Rural Development, Food and Drug Administration, 
and related Agencies Appropriations Bill, 2015, included the following 
Congressional directive:

          ``Watershed Protection and Flood Prevention Plan.--The 
        Committee directs NRCS to establish a long-term, multi-year 
        plan to guide needed investments in watershed surveys and 
        planning and watershed operations as authorized under the 
        Watershed Protection and Flood Prevention Act, P.L. 83-566. The 
        plan should establish a process for setting and ranking 
        watershed operations and flood prevention priorities, 
        reflecting the agency's mission, goals, and requirements; 
        consideration of existing investment in planning, 
        infrastructure, and land treatment; and future needs for 
        investment to improve watershed condition or prevent or 
        mitigate watershed impairments. The plan should also include 
        estimated funding requirements. As the agency develops the 
        plan, the Committee encourages it to provide interested parties 
        an opportunity to provide input. The agency is directed to 
        develop the plan and report to Congress within 90 days after 
        enactment of this Act.''

    The following plan is provided by the Natural Resources 
Conservation Service (NRCS) in response to this request.
Introduction
    The watershed program established through the Watershed Protection 
and Flood Prevention Act of 1954, as amended (Public Law 83-566) 
(watershed program) authorizes the Natural Resources Conservation 
Service (NRCS) to work with local sponsors to install watershed 
protection and improvement projects (see Appendix C for P.L. 83-566 
language). These projects create and protect vital infrastructure while 
conserving and protecting natural resources and contributing to local 
economies.
    The watershed program was designed to address the critical 
challenges facing rural water resource protection and management. The 
watershed program initially focused on the design and construction of 
structural water control measures. Projects starting in the late 1970s 
focused on watershed plans and a greater emphasis on land treatment 
measures. Watershed planning also provides a basis for partnering at 
state and local levels to identify and co-invest in projects reflecting 
the highest priority needs.
    Watershed scale approaches are foundational to progress toward 
today's challenges such as reducing nitrogen and phosphorus transport 
to Lake Erie, Gulf of Mexico, and the Chesapeake Bay. Other water 
management challenges that will be best addressed at the watershed 
scale include agricultural irrigation efficiency in California's 
Central Valley and in the Colorado River Basin; water management 
improvements to protect and restore environmentally and economically 
significant fisheries in the Pacific Northwest; acid mine drainage 
remediation needs in Appalachia and the Intermountain West; and flood 
protection for infrastructure and communities in the Central Plains and 
Northeastern States.
    These and other benefits are well-founded in scientific research. 
For example, thirteen watershed scale projects summarized by Osmond, et 
al. (2012) not only demonstrated the effectiveness of watershed scale 
planning for improving water quality; but those studies also provided 
identification of critical source areas of nutrients and sediment 
(Meals, et al., 2012b); important socioeconomic drivers for enhancing 
conservation adoption at a watershed scale; best measures for 
quantifying outcomes; and numerous other parameters for successful 
watershed scale planning and implementation (Meals, et al., 2012a).
    This multi-year plan describes near-term needs including the 
existing approved project backlog, remediation of existing structures, 
and emerging needs, along with a process for guiding future investments 
to improve watershed condition. The watershed program can provide a 
valuable tool for agriculture and rural communities across the nation 
to address serious water management threats from extreme drought to 
unprecedented flooding.

          The vision is a Watershed Protection and Flood Prevention 
        Program delivered in partnership with local sponsors to protect 
        and enhance agriculture and the environment through measures 
        that provide landscape resilience, flood prevention, and water 
        quantity and quality benefits for individuals and communities.
Background
    Over the past 6 decades the nation has invested $6.2 billion 
(nominal dollars) through the watershed program to install over 2,000 
projects across the country (Fig. 1) to create and protect vital 
infrastructure while conserving and protecting natural resources and 
contributing to local economies (see Appendix B for a table of 
historical appropriations). The objectives of many of the original 
projects were to reduce flooding, improve drainage, and increase 
irrigation efficiencies. In the 1960s, high priority was placed on 
projects that provided jobs to combat poverty and encourage rural 
development; many of these projects involved establishing recreation 
areas. In later years projects focused on land treatment measures to 
solve natural resource problems, such as substandard water quality and 
loss of wildlife habitat.
Figure 1: Watershed Projects Funded, 1947-2010
Watershed Operation Projects--Number of Projects Funded
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    These watershed projects continue to deliver benefits that are 
increasingly important as population and food security demands rise, 
and the frequency and intensity of extreme weather events increase 
(Cai, et al., 2014). By avoiding and reducing flood damages, NRCS 
estimates that this program annually provides over $352 million in 
benefits to agriculture and over $462 million in benefits to non-
agricultural uses, such as roads, bridges, and homes. Other benefits 
such as erosion control, water conservation, water quality improvement 
and irrigation efficiency exceed $441 million on agricultural lands and 
over $957 million from recreation, fish and wildlife, rural water 
supply and municipal and industrial water supply, annually. In total, 
as a result of installed watershed projects made possible through the 
investment from NRCS and local sponsors, the watershed program provides 
an estimated $2.2 billion in average annual benefits across the nation 
(Fig. 2).
Figure 2. Watershed Program Benefits--Average Annual Monetary Benefits 
        (2014 Dollars)
Watershed Operation Projects--Average Annual Benefits
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Another way to view these benefits is by the number of people and 
communities who benefit directly from watershed projects. The existing 
projects are protecting over 610,000 homes, 46,000 businesses, 180,000 
farms and ranches, 61,000 bridges, and 28,000 domestic water supplies 
(Fig. 3). As a result, over 48 million people across the United States 
benefit from the watershed program every year.\1\
---------------------------------------------------------------------------
    \1\ Benefit estimates presented here are drawn from the benefit 
cost analyses that are completed for each watershed project prior to 
implementation, and which monetize the estimated annual benefits for 
the project. Projects must have a greater than 1:1 benefit-cost ratio 
for approval. The estimates presented here have been adjusted for 
inflation and are considered conservative.
---------------------------------------------------------------------------
Figure 3. Watershed Program Benefits--Number of People Benefitting
Watershed Operation Projects--Average People Benefitting
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

A Federal-State-Local Partnership
    At the core of the watershed program is a unique Federal-state-
local partnership with project sponsors. Local sponsors identify needs, 
provide funding, and commit to operating and maintaining the completed 
projects over the long-term. The amount of funding and related 
arrangements depends on the type of project being implemented. 
Historically, local sponsors have provided an average of 60 percent of 
the total project funding. The non-Federal contributions include local 
and state in-kind contributions and funding for construction, permits, 
easement acquisition, and operations and maintenance for the project 
life. Working in cooperation with local sponsoring organizations, NRCS 
prepares detailed watershed plans that outline soil and water 
management resource concerns and alternatives to address them, 
including estimated benefits and costs, cost-share funding and 
arrangements, and operation and maintenance arrangements. Projects are 
locally driven, addressing critical needs for the community and 
delivering multiple streams of benefits.

          Secretary Ezra Taft Benson wrote in the 1955 [Y]earbook of 
        Agriculture, ``The new watershed protection program (P.L. 83-
        566) clearly should not be looked upon as some miracle coming 
        out of the Federal treasury. If it is successful, it will be 
        because local people working through their organizations with 
        the help of their state government assume and maintain 
        principle initiative.''

    The watershed program provides the authority to carry out 
Cooperative River Basin Studies and Watershed Surveys and Planning 
Program activities. The Cooperative River Basin Studies authorities 
include cooperative river basin studies, floodplain management studies, 
flood insurance studies, and interagency coordination and program 
formulation. These combine the efforts of Federal, state, and local 
agencies to establish a basis for the development of coordinated water 
resource programs. Investigation and survey reports serve as guides for 
the development of water, land, and related resources in agricultural, 
rural, and urban areas within upstream watershed settings. They also 
serve as a basis for coordination with major river systems and other 
phases of water resource management and development. Watershed Surveys 
and Planning allows NRCS and local partners to plan actions to address 
identified resource concerns within a watershed.
    NRCS provides Federal financial assistance to project sponsors for 
the installation costs of land treatment measures to achieve 
environmental and public benefits such as surface and groundwater 
quality improvement, water conservation, and flood mitigation.
    As of December 2014, the Federal Principles, Requirements, and 
Guidelines (PR&G) superseded the Economic and Environmental Principles 
and Guidelines for Water and Related Land Resources Implementation 
Studies (P&G) to guide the formulation and evaluation of all water 
resources projects. The PR&G are intended to ensure proper and 
consistent planning by Federal agencies in the formulation and 
evaluation of water and related land resources implementation studies. 
Benefits and costs are estimated using the best current techniques and 
are calculated accurately, consistently, and in compliance with other 
economic evaluation requirements.
    Prior to implementation of the project, the National Environmental 
Policy Act (NEPA) requires NRCS to analyze the environmental impacts of 
such actions and make the analysis available to the public before 
decisions are made and actions are taken unless the action is 
categorically excluded.
    Environmental Impact Statements (EIS) or Environmental Assessments 
(EA) address ecological conditions such as water and air quality, 
watershed or ecosystem health, species diversity and richness. In 
addition, aspects for the economic and social, historical and cultural, 
political, and many other factors that may influence major changes in 
land use or management of the soil, water, air, plant, or animal 
resources are considered. Impacts of the future population centers and 
transportation infrastructure are also included.
Authorized Purposes
    The authorized purposes for watershed projects are wide-ranging, 
and mutually supportive:

  <bullet> Flood prevention--Flood prevention measures reduce flooding 
        and damage caused by floodwater, including reducing runoff, 
        erosion and sediment. These measures may include structural 
        measures, such as dams or levees; nonstructural measures, such 
        as easements, flood proofing, or infrastructure relocation; or 
        a combination of both types of measures (Fig. 4).

  <bullet> Watershed protection--Watershed protection includes onsite 
        treatment of watershed natural resource concerns, such as water 
        quality or water quantity. Project measures may target controls 
        for offsite floodwater, erosion, sediment and agriculture 
        related pollutants (Fig. 5).

  <bullet> Agricultural water management--Agricultural water management 
        includes measures that help to manage water supply for 
        agriculture and rural communities. Measures such as drainage 
        management, groundwater recharge, irrigation management, water 
        conservation, water quality improvement, and rural water supply 
        are included (Fig. 6).

  <bullet> Municipal and industrial water supply--Municipal and 
        industrial water supply includes measures necessary to provide 
        storage capacity in reservoirs to increase the availability of 
        water for present and future use (Fig. 7).

  <bullet> Fish and wildlife habitat and public recreation 
        development--Fish and wildlife habitat and public recreation 
        development are often companion purposes in watershed projects. 
        These project purposes may be included in a watershed plan when 
        the sponsor agrees to operate and maintain a reservoir or other 
        area for public recreation or fish and wildlife access (Fig. 
        8).

    The following figures provide examples of existing watershed 
projects and the types of benefits delivered.
Figure 4. Watershed Project, Virginia
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          This project includes structural (dam) and nonstructural 
        measures to manage water for this community, providing flood 
        prevention, water quality, and recreation benefits.
Figure 5. Watershed Project, Tama, Iowa
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          This project combines terraces, buffer strips, and grass 
        planting measures to address local water quality natural 
        resource concerns.
Figure 6. Grade Stabilization, Gracemont, Oklahoma
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          This project in Kickapoo Creek, Oklahoma reduces streambank 
        erosion and improves water quality.
Figure 7. Three Mile Lake, Union County, Iowa
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          This project provides water supply, flood prevention and 
        recreation benefits.
Figure 8. Watershed Project, Western Missouri
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          This project provides water supply and recreational 
        opportunities.
Stakeholder Input
    In preparing this multi-year plan, NRCS reached out to stakeholders 
on priority needs and recommendations for program implementation. 
Several national organizations provided comments, which are summarized 
below.
    Focus investments on agricultural water supply and resilience to 
climate change. Commenters encouraged USDA-NRCS to specifically 
recognize the threats to agriculture from climate change, specifically 
the anticipated impacts on water supply for agriculture and the related 
impacts on food supply, prices, and producer financial risk. Commenters 
recommended that the priority for watershed program investments be on 
agricultural water supply and resilience to climate change impacts. 
Future investment decisions should be guided toward agricultural 
viability, resilience, and reducing vulnerability. Commenters 
recognized that this approach may drive a focus toward new projects as 
a result of emerging vulnerabilities from climate-induced stresses to 
water supply and management.
    Include forest restoration on private lands to protect water 
supplies as a priority. Commenters encouraged USDA-NRCS to recognize 
the significant threat to water supplies that is posed by loss of 
forested lands. The commenters noted that an estimated 53 percent of 
water supply in the contiguous 48 states originates on forestland and 
that western forests are particularly at risk, many of which are 
privately owned and play a significant role in water supply and water 
quality. Restoration of forests on private land to improve their 
resilience helps to reduce wildfire risks for private and adjacent 
public forestlands.
    Align investments with other agencies where possible to maximize 
impact. One commenter recommended that USDA-NRCS provide priority for 
projects that complement or align with work being conducted by other 
agencies (e.g., U.S. Forest Service) to amplify benefits. For example 
prioritizing projects that would restore private forestland where 
Federal land management agencies are conducting similar activities on 
adjacent public lands.
    Establish a continuing review and ranking of watershed projects. 
Recognizing that a significant backlog exists in previously authorized 
watershed projects and that some may no longer be of local interest, 
commenters recommended that USDA-NRCS assess all previously authorized 
yet uncompleted projects. It was recommended that the resulting list of 
projects should be prioritized in conjunction with partners, and the 
priority setting process include a ``readiness criteria test'' for 
implementation. In addition, commenters recommended that projects in 
queue be reviewed and re-ranked annually to allow the program to be 
responsive to changing conditions.
    Advocate for legislative changes to streamline implementation. 
Commenters noted that circumstances have changed significantly since 
the watershed program was authorized (1954) and opportunity exists to 
streamline and improve operations. These recommendations for 
legislative changes, outside the scope of this plan, focused on: 
broadening and balancing program purposes and eligibility; removing 
structure size limitations; improving data and benefits information; 
harmonizing program with similar authorities in other agencies; 
addressing cost-share rates; eliminating unused authorities and lower 
priority purposes; and improving clarity and intent.
Agency Assessment of National Needs
    In addition to invited comments, NRCS also evaluated specific 
watershed protection and flood prevention project needs and associated 
costs as part of this plan development. This included a review of the 
existing authorized but unfunded projects, existing projects needing 
remediation, and potential new projects. Through this process, 220 
projects were identified; addressing a variety of purposes from flood 
prevention and watershed protection to agricultural water management 
and municipal and industrial water supply. The total cost of these 
projects was estimated at nearly $1.4 billion from FY 2016 through 2020 
(Fig. 9), which includes the share that would be contributed by the 
state or local partners, generally about 25 percent of total costs. 
Appendix A provides greater detail on project locations, purposes, and 
estimated costs.
Figure 9. Estimated Funding Need for Watershed Projects, by State, 
        2016-2020
(Over $1.4 billion in funding needed)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Estimated funding needs to complete projects vary by fiscal year 
reflecting differences in the project status, length of time to 
complete, and complexity of the project. Figure 10 shows the level of 
estimated funding and number of active projects by fiscal year. The 220 
identified projects cover more than one fiscal year; the project 
numbers presented in the figure below reflect projects that would be 
underway at that time and are not additive across fiscal years.
Figure 10. Estimated Funding Need and Active Projects, by Fiscal Year
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The majority (\2/3\) of projects focus on one of four single 
purposes--Flood Prevention, Agricultural Water Management, Land 
Treatment, or Water Quality (Fig. 11). Flood Prevention accounted for 
over 80 percent of these single-purpose projects and was identified as 
a shared purpose in another 19 percent of projects, making it the most 
common objective of the identified needs.
Figure 11. Estimated Funding Need by Number of Project Purposes
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Projects were also identified in terms of the type of activity to 
be conducted. Most project needs focused on completing construction of 
previously planned and designed components. Less than five percent of 
identified funding is for remediation needs--existing projects where 
measures are needed to correct oversights in structural designs or 
construction. Table 1 shows the number of projects and estimated 
funding by the stage of the project.

  Table 1. Number of Projects by Stage and Associated Estimated Funding
                                  Need
------------------------------------------------------------------------
      Project Stage          Estimated Funding      Number of Projects
------------------------------------------------------------------------
      Remediation               $61,147,500                      49
         Planning               $23,295,000                      12
  Planning/Design                $1,000,000                       1
           Design               $26,746,700                      13
Design/Construction            $403,388,640                      81
     Construction              $128,202,000                      32
 Planning/Design/              $760,238,600                      32
      Construction
                         -----------------------------------------------
  Grand Total...........     $1,404,018,440                     220
------------------------------------------------------------------------

Process for Prioritizing Watershed Project Proposals
    The Watershed and Flood Prevention Operations (WFPO) Program 
provides technical and financial assistance to states, local 
governments and Tribes (project sponsors) to plan and implement 
authorized watershed project plans for the purpose of:

  <bullet> watershed protection.

  <bullet> flood mitigation.

  <bullet> water quality improvements.

  <bullet> soil erosion reduction.

  <bullet> rural, municipal and industrial water supply.

  <bullet> irrigation.

  <bullet> water management.

  <bullet> sediment control.

  <bullet> fish and wildlife enhancement.

  <bullet> hydropower.

    In order to be approved, projects must (1) be publicly sponsored, 
(2) be 250,000 acres or less, and (3) have at least 20 percent of 
benefits related to agriculture, including rural communities. In 
addition and in accordance with statute, projects that will exceed $5 
million in Federal contributions or with single structures holding more 
than 2,500 acre-feet require Congressional approval.
    Sponsor capacity is an essential project element; sponsors must 
demonstrate capacity to implement, operate, and maintain the project, 
including possessing the necessary authorities; funding; acquisition of 
easements or other rights needed; and demonstrated capability to 
operate and maintain the project upon completion.
    Pursuant to Congressional guidance, the agency process for 
prioritizing watershed projects must consider (1) the agency's mission, 
(2) existing investment in watershed projects, and (3) future needs for 
improving watershed condition and mitigating the potential for 
watershed impairments.
Agency Mission
    NRCS' Mission Statement is ``Helping People Help the Land,'' which 
highlights the agency's role in developing and delivering high quality 
products and services that enable people to be good stewards of the 
nation's soil, water, and related natural resources on non-Federal 
lands. The vision is a landscape where working farms, forests, and 
ranches are in balance with a healthy environment. This mission 
statement aligns seamlessly with the purposes of the watershed program 
and the agency's emphasis on assisting agricultural producers and 
communities address the dual challenges of adapting to and mitigating 
the effects of climate change.
Existing Investment
    To guide investment in existing watershed projects, NRCS will focus 
on those projects where remediation is required. These are projects 
where the engineering design or related aspects of implementation are 
not operating as intended, as evaluated and verified through 
inspection. An estimated 49 projects in eight states are in need of 
remediation at an estimated $55 million, or four percent of total needs 
for the period 2016-2020. Based on funding availability, NRCS will 
allocate an appropriate level to address remediation needs on an annual 
basis.
Future Needs
    To guide investment in future needs for improving watershed 
condition and mitigating potential for watershed impairments, NRCS is 
establishing a process based on state and national priorities. The 
process will include an annual announcement program funding (APF) that 
will outline the specific state and national priorities to be 
emphasized in the funding year. This allows the agency to focus funding 
effectively, while providing flexibility over time to accommodate 
emerging watershed protection priorities. NRCS will evaluate and rank 
potential projects for funding annually based on alignment with program 
priorities established at the state and national levels to be locally 
responsive, and nationally consistent:

  1.  State priorities--State Conservationists identify state watershed 
            project priorities with advice from the State Technical 
            Committee. Priorities will consider current conditions and 
            threats such as the effects of climate change, and the 
            major natural resource challenges facing agriculture and 
            rural communities, such as water supply or flooding.

  2.  National Priorities--National priorities focus on durability and 
            equity. Project proposals will be ranked based on the 
            following:

      <bullet> Partner leverage and contributions.

      <bullet> Positive return on investment and higher benefit-cost 
            ratio.

      <bullet> Contributions to a regional water management need or 
            concern.

      <bullet> Benefits in high-poverty or historically under-served 
            communities.

      <bullet> Durability of water management solutions for the 
            benefitted area (e.g.,
              economic benefits exceed estimated operation and 
            maintenance (O&M) costs
              for the long-term; local O&M assured; success of the 
            project is not depend-
              ent on environmental or economic factors outside the 
            project area).

    This annual process and the associated ranking factors will result 
in prioritizing projects that will address a locally important, 
pressing natural resource issue in a timely manner.
    Sponsors would be expected to respond to the APF for any project 
proposed for funding, including those needs outlined in this report and 
detailed in Appendix A. This proactive process ensures that funding 
will be directed to those projects best positioned for immediate 
implementation.
Summary
    Many challenges that face our nation's food security, water 
quality, water supplies, wildlife habitat, rural economies, and 
communities are most cost-effectively and efficiently addressed at a 
watershed scale. The USDA-NRCS watershed program is authorized to 
address these and related challenges. Historic droughts, floods, and 
other extreme weather events in recent years have demonstrated the 
value of previous investments in this program--nearly $2.2 billion in 
benefits each year accrue as a result of these investments. Today, the 
watershed program offers the opportunity to address pressing water 
management issues facing agriculture and communities.
    In preparing this multi-year plan NRCS conducted an assessment of 
current needs. Through that process nearly $1.4 billion in estimated 
funding needs for 2016-2020 were identified. In addition, NRCS sought 
input from stakeholders on priorities for the program, going forward. 
Recommendations were used to help shape a priority setting process that 
accommodates local needs and national priorities. NRCS will use the 
prioritization process outlined in this plan to focus funding on the 
highest priority projects for improving watershed condition and 
building landscape resilience and preserving, protecting, and improving 
the nation's land and water resources and quality of the environment.
References
    Cai, W., S. Borlace, M. Lengaigne, P. vanRensch, M. Collins, G. 
Vecchi, A. Timmermann, A. Santoso, M. McPhaden, L. Wu, M. England, G. 
Wang, E. Guilyardi, and F. Jin. 2014. Increasing frequency of extreme 
El Nino events due to greenhouse warming. Nature Climate Change. 4: 
111-116. doi:10.1038/nclimate2100.
    Fischer, E., and R. Knutti. 2015. Anthropogenic contribution to 
global occurrence of heavy-precipitation and high-temperature extremes. 
Nature Climate Change. 5: 560-564. doi:10.1038/nclimate2617.
    Meals, D., D. Osmond, D. Hoag, M. Arabi, A. Luloff, G. Jennings, M. 
McFarland, J. Spooner, A. Sharpley, and D. Line. 2012a. Lessons learned 
from the NIFA-CEAP: Developing agricultural watershed projects. NC 
State University, Raleigh, NC.
    Meals, D., A. Sharpley, and D. Osmond. 2012b. Lessons learned from 
the NIFA-CEAP: Identifying critical source areas. NC State University, 
Raleigh, NC.
    Osmond, D., D. Meals, D. Hoag, and M. Arabi. (Eds.) 2012. How to 
build better agricultural conservation programs to protect water 
quality: the National Institute of Food and Agriculture--Conservation 
Effects Assessment Project experience. Soil and Water Conservation 
Society. Ankeny, IA.

      Appendix A: Identified Watershed Project Needs, FY 2016-2020
------------------------------------------------------------------------
                              Eligible        Project       Estimated
   State    Project Name     Purpose(s)       Status         Funding
------------------------------------------------------------------------
                            Fiscal Year 2016
------------------------------------------------------------------------
Alabama     Big Nance     FP               Remedial             $500,000
             Creek Site
             4
            Mush Creek    FP               Remedial             $500,000
             Site 2
            Powell Creek  FP               Remedial           $1,000,000
             Site 3
            Powell Creek  FP               Remedial           $1,000,000
             Site 4
Arizona     Fredonia FRS  FP               Remedial          $23,000,000
            Arkansas      AWM              Design               $125,000
             Bayou Meto
            Departee      FP               Construction         $750,000
             Creek
            Departee      FP               Design               $150,000
             Creek
            Grand         AWM              Design               $125,000
             Prairie
California  Beardsley     FP, LT, AWM,     M&I Planning         $300,000
            Lower Llagas  FP, LT, AWM,     Design               $500,000
             Creek         M&I, WQ, F&W
            Lower Silver  FP, LT, WQ       Planning             $500,000
             Creek
            McCoy Wash    FP, LT, WQ       Design               $500,000
Colorado    6 Mile St.    LT, AWM, WQ      Construction         $900,000
             Charles
            Highland      LT, WQ           Construction       $1,500,000
             Breaks
            Holbrook      LT, AWM, WQ      Construction         $500,000
             Lake Ditch
            Limestone-    LT, WQ           Construction         $500,000
             Graveyard
             Creeks
Georgia     Bull Creek 3  FP, LT           Remedial             $400,000
            North Broad   FP, LT           Remedial             $150,000
             River 33
Hawaii      Lahaina       FP, LT           Design/            $9,900,000
                                            Constructio
                                            n
            Upcountry     AWM              Design/            $2,550,000
             Maui                           Constructio
                                            n
Indiana     Muddy Fork    FP, F&W, M&I     Planning             $250,000
             of Silver
             Creek
            Prairie       FP, WQ           Planning             $300,000
             Creek
             (Daviess)
Iowa        Clarke        AWM              Design/            $3,315,000
             County                         Constructio
             Water                          n
             Supply
            West Fork of  FP               Design/              $411,800
             Big Creek                      Constructio
                                            n
Kansas      Doyle Creek-- FP               Construction         $879,000
             Site 11
            Elk Creek--   FP               Design                $39,000
             Site 4
            Grasshopper   FP               Design                $37,000
             Coal--Site
             29
            North Black   FP               Construction         $445,000
             Vermillion-
             -Site 201
            South Fork    FP               Construction         $939,000
             Wolf--Site
             12-26
Kentucky    Pike County-- FP               Planning           $1,000,000
             Floodplain
             Easement
            Rockhouse     FP, LT, F&W      Planning             $350,000
             Creek
            South Fork    FP, LT           Planning           $1,000,000
             Little
             River
            West Fork     FP               Planning             $750,000
             Mayfield
             Creek
Massachuse  Allen Site    FP, LT, F&W      Remedial/            $200,000
 tts         Dam                            Design
            Cape Cod      LT, F&W, WQ      Planning/          $3,000,000
             Water                          Design
             Resources
             Restoration
             Project
            Deerfield     LT, WQ           Planning             $300,000
             River
            Great Marsh   LT, F&W, WQ      Planning             $225,000
             Restoration
             Project
Minnesota   Rice Lake     WQ               Planning/            $345,000
                                            Design
Mississipp  Abiaca Dam 3  FP               Remedial             $250,000
 i           (Y-34-03)
            Byhalia       FP               Remedial             $200,000
             Creek
             Watershed
             Dam 4
            Long Beach    FP               Construction       $2,500,000
             Canal 1
             Phase 1
            Ltl           LT               Construction         $500,000
             Tallahatchi
             e--Oaklimet
             er
            Ltl           LT               Construction         $500,000
             Tallahatchi
             e--Upper
             Tallahatchi
             e
            Piney Creek   LT               Construction         $750,000
             GCS
            Sabougla      LT               Construction         $500,000
             Watershed
            Town Creek    FP               Remedial             $200,000
            Town Creek    FP               Construction       $2,500,000
             Dam 5
            Yazoo--Arcab  LT               Construction         $500,000
             utla Creek
            Yazoo--Skuna  LT               Remedial             $200,000
             Structure
             No. 6
Missouri    East Locust   AWM, FP, F&W     Planning/          $5,000,000
             Creek                          Design
            Little Otter  AWM, FP, F&W     Construction       $2,000,000
             Creek
            N. Mariana    FP, LT, AWM      Design/            $1,250,000
             Islands                        Constructio
             Kagman                         n
             Watershed
Nebraska    Papio Creek   FP               Planning             $600,000
             S-5, S-22,
             D-31, D-78
New Jersey  Assunpink     FP, F&W          Remedial              $90,000
             Site 19
New York    Ashokan       LT               Design/               $30,000
                                            Constructio
                                            n
            Lower         LT               Design/              $330,000
             Cannonsvill                    Constructio
             e                              n
            Moonda/       FP               Planning             $200,000
             Saterly
             Creek
            Neversink     LT               Design/               $10,000
                                            Constructio
                                            n
            Newtown       FP               Design               $100,000
             Hoffman
             Site 18
            Pepacton      LT               Design/              $180,000
                                            Constructio
                                            n
            Roundout      LT               Design/               $20,000
                                            Constructio
                                            n
            Schoharie     LT               Design/              $100,000
                                            Constructio
                                            n
            Upper         LT               Design/              $330,000
             Cannonsvill                    Constructio
             e                              n
North       Red River     FP, LT, WQ       Planning/          $1,000,000
 Dakota      Detention                      Design
Oklahoma    Bear 3        FP               Remedial             $750,000
            Bear 5        FP               Remedial             $125,000
            Boggy Creek   FP               Remedial             $225,000
             25
            Calvary 12    FP               Remedial             $120,000
            Fast Runner   FP               Remedial              $50,000
             3
            Lower Bayou   FP               Design               $450,000
             12
            Lower Red     FP               Design               $475,000
             Rock 1
            Middle Deep   FP               Design               $510,000
             Red Run 7A
            Sugar Creek   FP               Design               $395,000
             (Binger
             Site)
            Sugar Creek   FP               Design               $325,000
             Drop REM
            Turkey Creek  FP               Design               $425,000
             9
            Upper Blue    FP               Design               $425,000
             River 46
            Upper Blue    FP               Design               $375,000
             River 48
            Upper Blue    FP               Design               $375,000
             River 48
Oregon      Alder Slope   AWM, WQ          Construction         $275,000
             Irrigation
            Arnold        AWM, M&I, WQ,    Design/            $1,516,000
             Irrigation    F&W              Constructio
             District                       n
            Central       AWM, M&I, WQ,    Design/            $8,791,820
             Oregon        F&W              Constructio
             Irrigation                     n
             District
            Champoeg      AWM, WQ          Planning             $275,000
             Watershed
            Mud Springs-- WQ, AWM          Design               $160,200
             NUID
             Lateral 58--
             11
            North Agency  WQ, AWM          Planning             $217,500
             Plains
            North         AWM, WQ, LT      Construction       $1,100,000
             Prairie
             Creek
             Irrigation
            North Unit    AWM, M&I, WQ,    Design/              $730,000
             Irrigation    F&W              Constructio
             District                       n
            Ochoco        AWM, M&I, WQ,    Design/              $595,000
             Irrigation    F&W              Constructio
             District                       n
            Swalley       AWM, M&I, WQ,    Planning             $295,000
             Irrigation    F&W
             District
            Three         AWM, M&I, WQ,    Construction       $2,580,000
             Sisters       F&W
             Irrigation
             District
            Tumalo        AWM, M&I, WQ,    Design/            $2,000,000
             Irrigation    F&W              Constructio
             District                       n
            Twilight      WQ, AWM          Design                $80,000
             Water
             Quality
            Upper Grande  LT, WQ           Planning             $365,000
             Ronde
             Watershed
            Vale Bench    WQ, AWM          Planning             $165,000
             Lateral 227
Pennsylvan  Bentley       FP               Planning              $20,000
 ia          Creek
            Little Toby   WQ               Planning              $20,000
             Creek
            Mill Creek    WQ               Planning              $50,000
Rhode       Pocasset      FP               Planning             $150,000
 Island      River Flood
             Mitigation
             Project
Tennessee   Bear Creek    FP               Design               $200,000
             (Scott)
Texas       Big Creek     FP, M&I, F&W     Design               $500,000
             (Tri-
             County)
            Choctaw       FP               Design               $500,000
             Creek
            Ecleto Creek  FP               Design               $800,000
            Elm Creek     FP               Design             $1,000,000
             (1250)
            Elm Creek     FP               Design             $1,000,000
             (Cen-Tex)
            Lakeview      FP               Remedial             $500,000
            Trinity--Big  FP               Design               $500,000
             Sandy Creek
            Trinity--Gra  FP               Remedial             $200,000
             ys Creek
Utah        Anabella      AWM, FP          Design             $4,200,000
             Canal
            Cottonwood    FP, AWM          Design             $3,200,000
             Canyon
             (Anabella)
            Flat Canyon   FP, AWM          Design             $8,500,000
             DB
            Marion Canal  AWM, FP          Planning           $1,500,000
            Willow Creek  FP, AWM          Design               $350,000
Virginia    North Fork    LT, WQ           Design/            $1,000,000
             Powell                         Constructio
             River                          n
West        Big Sandy--   FP, WQ, LT       Planning             $500,000
 Virginia    Dry Fork
            Potomac--Los  FP, M&I          Construction      $35,000,000
             t River 16
Wyoming     Kaycee        FP               Design               $350,000
------------------------------------------------------------------------
                            Fiscal Year 2017
------------------------------------------------------------------------
Alabama     Camp Branch   LT, WQ           Design/              $396,000
                                            Constructio
                                            n
            Harrison      LT, WQ           Design/              $225,000
             Mill/                          Constructio
             Panther                        n
             Creek
            Northeast     LT, WQ           Design,            $1,878,500
             Yellow                         Constructio
             River                          n
            Pates Creek   LT, WQ           Design/              $228,000
                                            Constructio
                                            n
Alaska      Delta         FP               Construction      $13,000,000
             Clearwater
Arkansas    Bayou Meto    AWM              Construction       $6,250,000
            Big Slough    FP               Design               $250,000
             Site 7
            Departee      FP               Design               $125,000
             Creek
            Grand         AWM              Construction       $6,250,000
             Prairie
California  Beardsley     FP, LT, AWM,     Planning             $300,000
                           M&I
            Lllagas       FP, LT, AWM,     Planning         $127,250,000
             Creek         M&I, WQ
            Lower         FP, LT, AWM,     Planning           $1,750,000
             Calaveras--   M&I, WQ
             Mormon
            Lower Llagas  FP, LT, AWM,     Design               $500,000
             Creek         M&I, WQ, F&W
            Lower Silver  FP, LT, WQ       Design               $750,000
             Creek
            McCoy Wash    FP, LT, WQ       Design               $750,000
            Mill          FP, LT, AWM,     Planning           $1,190,000
                           M&I, WQ
            Oasis         FP, LT, WQ       Planning           $1,000,000
            Upper         FP, LT, AWM,     Planning           $2,870,000
             Calaveras     M&I, WQ
            Upper Deer--  FP, LT, AWM,     Planning           $2,590,000
             Upper White   M&I, WQ
            Upper Dry     FP, LT, AWM,     Planning             $980,000
                           M&I, WQ
            Upper Poso    FP, LT, AWM,     Planning           $2,030,000
                           M&I, WQ
Colorado    6 Mile St.    LT, AWM, WQ      Construction         $900,000
             Charles
            Highland      LT, WQ           Construction       $1,500,000
             Breaks
            Holbrook      LT, AWM, WQ      Construction         $500,000
             Lake Ditch
            Limestone--G  LT, WQ           Construction         $500,000
             raveyard
             Creeks
Hawaii      Lahaina       FP, LT           Construction       $6,800,000
            Lower         AWM, LT          Design/              $500,000
             Hamakua                        Constructio
             Ditch                          n
            Upcountry     AWM              Design               $600,000
             Maui
            Wailuku--Ale  FP               Design               $300,000
             naio
Indiana     Muddy Fork    FP, F&W, M&I     Planning             $250,000
             of Silver
             Creek
            Prairie       FP, WQ           Planning             $300,000
             Creek
             (Daviess)
Iowa        Clarke        AWM              Design/           $13,150,000
             County                         Constructio
             Water                          n
             Supply
            Twelve Mile   FP               Design/              $235,000
             Creek                          Constructio
                                            n
            West Fork of  FP               Design/              $514,600
             Big Creek                      Constructio
                                            n
Kansas      Elk Creek--   FP               Design                $40,000
             Site 12
            Elk Creek--   FP               Construction         $463,900
             Site 4
            Grasshopper   FP               Construction         $435,000
             Coal--Site
             29
            Squaw Creek   FP               Design                $35,000
             Lower Wolf--
             Site 5-9
            Squaw Creek   FP               Design                $44,000
             Lower Wolf--
             Site 6-4a
Kentucky    Pike County-- FP               Plan/              $1,000,000
             Floodpain                      Implement
             Easement
            Rockhouse     FP, LT, F&W      Design               $700,000
             Creek
            South Fork    FP, LT           Design               $700,000
             Little
             River
            West Fork     FP               Design               $300,000
             Mayfield
             Creek
Massachuse  Allen Site    FP, LT, F&W      Remedial             $500,000
 tts         Dam
            Cape Cod      LT, F&W, WQ      Plan/Design/       $4,000,000
             Water                          Constructio
             Resources                      n
             Restoration
             Project
            Deerfield     LT, WQ           Planning             $300,000
             River
            Great Marsh   LT, F&W, WQ      Planning             $225,000
             Restoration
             Project
Minnesota   Rice Lake     WQ               Construction       $1,915,000
Mississipp  Long Beach    FP               Construction       $2,500,000
 i           Canal 1
             Phase 2
            Ltl           LT               Construction         $500,000
             Tallahatchi
             e--Oaklimet
             er
            Ltl           LT               Construction         $500,000
             Tallahatchi
             e--Upper
             Tallahatchi
             e
            Piney Creek   LT               Construction         $750,000
             GCS
            Town Creek    LT               Construction         $500,000
            Yazoo--Arcab  LT               Construction         $500,000
             utla Creek
            Yazoo--Skuna  LT               Remedial             $250,000
             Yoda Creek
             Structure
Missouri    Big Creek     FP               Construction       $1,000,000
             Hurricane
             Ck
            East Locust   AWM, FP, F&W     Construction      $12,000,000
             Creek
            Upper Locust  FP               Construction       $1,000,000
             Creek
            West Fork of  FP               Construction       $1,000,000
             Big Creek
N. Mariana  Kagman        FP, LT, AWM      Design/              $650,000
 Islands     Watershed                      Constructio
                                            n
Nebraska    Papio S-22    FP               Design               $200,000
            Papio S-5     FP               Design               $500,000
New York    Ashokan       LT               Design/               $30,000
                                            Constructio
                                            n
            Lower         LT               Design/              $330,000
             Cannonsvill                    Constructio
             e                              n
            Moonda/       FP               Planning             $200,000
             Saterly
             Creek
            Neversink     LT               Design/               $10,000
                                            Constructio
                                            n
            Newtown       FP               Design                $50,000
             Hoffman
             Site 18
            Pepacton      LT               Design/              $180,000
                                            Constructio
                                            n
            Roundout      LT               Design/               $20,000
                                            Constructio
                                            n
            Schoharie     LT               Design/              $100,000
                                            Constructio
                                            n
            Upper         LT               Design/              $330,000
             Cannonsvill                    Constructio
             e                              n
Oklahoma    Dry Creek 17  FP               Remedial              $75,000
            Little Deep   FP               Remedial              $95,000
             Fork 20
            Lower Bayou   FP               Construction       $1,300,000
             12
            Lower Red     FP               Remedial             $150,000
             Rock 16
            Middle Deep   FP               Construction       $1,400,000
             Red Run 7A
            North Deer    FP               Remedial             $142,500
             Creek 1
            Quawpaw 27    FP               Remedial             $110,000
            Sugar Creek   FP               Remedial             $210,000
             Drop
            Sugar Creek   FP               Remedial           $2,500,000
             Drop
            Upper Black   FP               Remedial             $125,000
             Bear 36
            Upper Blue    FP               Design               $450,000
             River 35
            Upper Blue    FP               Design               $450,000
             River 36
            Upper Blue    FP               Construction         $850,000
             River 46
            Upper Blue    FP               Construction         $950,000
             River 48
Oregon      Alder Slope   AWM, WQ          Construction         $962,000
             Irrigation
            Arnold        AWM, M&I, WQ,    Construction       $2,060,000
             Irrigation    F&W
             District
            Central       AWM, M&I, WQ,    Construction       $3,649,220
             Oregon        F&W
             Irrigation
             District
            Champoeg      AWM, WQ          Design               $495,000
             Watershed
            Mud Springs-- WQ, AWM          Construction         $150,000
             NUID
             Lateral 58--
             11
            North Agency  WQ, AWM          Design               $217,500
             Plains
            North         AWM, WQ, LT      Construction       $2,200,000
             Prairie
             Creek
             Irrigation
            North Unit    AWM, M&I, WQ,    Construction         $880,000
             Irrigation    F&W
             District
            Ochoco        AWM, M&I, WQ,    Construction       $1,230,000
             Irrigation    F&W
             District
            Swalley       AWM, M&I, WQ,    Construction         $510,000
             Irrigation    F&W
             District
            Three         AWM, M&I, WQ,    Construction       $1,846,000
             Sisters       F&W
             Irrigation
             District
            Tumalo        AWM, M&I, WQ,    Construction       $2,000,000
             Irrigation    F&W
             District
            Twilight      WQ, AWM          Design               $160,000
             Water
             Quality
            Upper Grande  LT, WQ           Planning             $380,000
             Ronde
             Watershed
            Vale Bench    WQ, AWM          Planning             $275,000
             Lateral 227
Pennsylvan  Bentley       FP               Design             $1,200,000
 ia          Creek
            Little Toby   WQ               Design               $200,000
             Creek
            Mill Creek    WQ               Design               $350,000
            unnamed       FP               Planning             $200,000
             watershed
Rhode       Pocasset      FP               Design             $1,530,000
 Island      River Flood
             Mitigation
             Project
Tennessee   Bear Creek    WQ               Construction       $2,000,000
             (Scott)
            Hurricane     FP, M&I          Design               $750,000
             Creek
            North Fork    FP               Remedial/            $800,000
             Forked Deer                    Design
Texas       Big Creek     FP, M&I, F&W     Design/            $5,000,000
             (Tri-                          Constructio
             County)                        n
            Choctaw       FP               Construction       $6,000,000
             Creek
            Elm Creek     FP               Design/            $4,000,000
             (1250)                         Constructio
                                            n
            Trinity--Big  FP               Construction       $6,000,000
             Sandy Creek
            Trinity--Cha  FP               Remedial           $3,000,000
             mbers Creek
            Trinity--Pil  FP               Remedial           $3,000,000
             ot Grove
            Trinity--Ric  FP               Remedial           $3,000,000
             hland Creek
Utah        Cedar Ridge   FP, AWM          Design             $3,800,000
            Coyote Gulch  FP               Planning           $2,800,000
             Wash
             (Ivins)
            Gould's Wash  FP, AWM          Design             $4,500,000
             DB
            St. George    FP               Planning           $3,200,000
             DBs
            Vigin         FP               Planning           $1,500,000
Virginia    North Fork    LT, WQ           Design/              $500,000
             Powell                         Constructio
             River                          n
Wyoming     Kaycee        FP               Construction       $1,235,400
------------------------------------------------------------------------
                            Fiscal Year 2018
------------------------------------------------------------------------
Alabama     Whitewater    LT, WQ           Design/              $114,000
             Creek                          Constructio
                                            n
            Wilkerson     LT, WQ           Design/              $396,000
             Creek                          Constructio
                                            n
Arkansas    Bayou Meto    AWM              Construction       $6,250,000
            Big Slough    FP               Construction       $1,250,000
             Site 7
            Departee      FP               Construction       $5,500,000
             Creek
            Grand         AWM              Construction       $6,250,000
             Prairie
California  Beardsley     FP, LT, AWM,     Design               $500,000
                           M&I
            Lllagas       FP, LT, AWM,     Planning          $10,000,000
             Creek         M&I, WQ
            Lower         FP, LT, AWM,     Planning           $1,750,000
             Calaveras--   M&I, WQ
             Mormon
            Lower Llagas  FP, LT, AWM,     Construction       $3,000,000
             Creek         M&I, WQ, F&W
            Lower Silver  FP, LT, WQ       Design               $750,000
             Creek
            McCoy Wash    FP, LT, WQ       Design               $750,000
            Mill          FP, LT, AWM,     Planning           $1,190,000
                           M&I, WQ
            Oasis         FP, LT, WQ       Planning             $750,000
            Upper         FP, LT, AWM,     Planning           $2,870,000
             Calaveras     M&I, WQ
            Upper Deer--  FP, LT, AWM,     Planning           $2,590,000
             Upper White   M&I, WQ
            Upper Dry     FP, LT, AWM,     Planning             $980,000
                           M&I, WQ
            Upper Poso    FP, LT, AWM,     Planning           $2,030,000
                           M&I, WQ
Colorado    6 Mile St.    LT, AWM, WQ      Construction         $900,000
             Charles
            Highland      LT, WQ           Construction       $1,500,000
             Breaks
            Holbrook      LT, AWM, WQ      Construction         $500,000
             Lake Ditch
            Limestone--G  LT, WQ           Construction         $500,000
             raveyard
             Creeks
Hawaii      Kahaluu       FP, LT, REC      Planning             $100,000
            Lower         AWM, LT          Design/            $1,500,000
             Hamakua                        Constructio
             Ditch                          n
            Wailuku--Ale  FP               Construction       $1,100,000
             naio
            Waimanalo     AWM              Planning/            $200,000
                                            Design
Indiana     Muddy Fork    FP, F&W, M&I     Design               $470,000
             of Silver
             Creek
            Prairie       FP, WQ           Design               $330,000
             Creek
             (Daviess)
Iowa        Clarke        AWM              Construction       $5,634,600
             County
             Water
             Supply
            East Fork of  FP               Design/            $1,259,000
             the Grand                      Constructio
             River                          n
            West Fork of  FP               Construction         $514,600
             Big Creek
Kansas      Elk Creek--   FP               Construction         $467,500
             Site 12
            Middle        FP               Design               $100,000
             Creek--Site
             11
            Squaw Creek   FP               Design                $58,000
             Lower Wolf--
             Site 5-8
            Squaw Creek   FP               Construction         $414,000
             Lower Wolf--
             Site 5-9
            Squaw Creek   FP               Construction         $523,000
             Lower Wolf--
             Site 6-4a
Kentucky    Pike County-- FP               Implementati         $500,000
             Floodpain                      on
             Easement
            Rockhouse     FP, LT, F&W      Construction       $4,500,000
             Creek
            South Fork    FP, LT           Construction       $5,000,000
             Little
             River
            West Fork     FP               Construction       $5,000,000
             Mayfield
             Creek
Massachuse  Cape Cod      LT, F&W, WQ      Plan/Design/       $8,000,000
 tts         Water                          Constructio
             Resources                      n
             Restoration
             Project
            Deerfield     LT, WQ           Planning             $300,000
             River
Mississipp  Ellison       LT               Remedial             $250,000
 i           Creek GCS 1
            Ltl           LT               Construction         $500,000
             Tallahatchi
             e--Oaklimet
             er
            Ltl           LT               Construction         $500,000
             Tallahatchi
             e--Upper
             Tallahatchi
             e
            Piney Creek   LT               Construction         $750,000
             GCS
            Town Creek    LT               Construction         $200,000
            Yazoo--Arcab  LT               Construction         $250,000
             utla Creek
            Yazoo--Skuna  LT               Construction         $500,000
             River
Missouri    Big Creek     FP               Construction       $1,000,000
             Hurricane
             Ck
            East Locust   AWM, FP, F&W     Construction      $12,000,000
             Creek
            East Yellow   FP               Construction       $1,000,000
             Creek
            Upper Locust  FP               Construction       $1,000,000
             Creek
            West Fork of  FP               Construction       $1,000,000
             Big Creek
N. Mariana  Kagman        FP, LT, AWM      Construction       $4,500,000
 Islands     Watershed
Nebraska    Papio D-31    FP               Design               $200,000
            Papio S-22    FP               Design               $200,000
            Papio S-5     FP               Construction       $4,000,000
New York    Ashokan       LT               Design/               $30,000
                                            Constructio
                                            n
            Lower         LT               Design/              $330,000
             Cannonsvill                    Constructio
             e                              n
            Moonda/       FP               Design               $100,000
             Saterly
             Creek
            Neversink     LT               Design/               $10,000
                                            Constructio
                                            n
            Newtown       FP               Construction         $300,000
             Hoffman
             Site 18
            Pepacton      LT               Design/              $180,000
                                            Constructio
                                            n
            Roundout      LT               Design/               $20,000
                                            Constructio
                                            n
            Schoharie     LT               Design/              $100,000
                                            Constructio
                                            n
            Upper         LT               Design/              $330,000
             Cannonsvill                    Constructio
             e                              n
Oklahoma    Bear 44       FP               Remedial             $210,000
            Brushy        FP               Design               $425,000
             Peaceable 5
            Cotton Coon   FP               Design               $425,000
             Mission 12A
            Cotton Coon   FP               Design               $425,000
             Mission 12B
            Jack Creek 6  FP               Design               $400,000
            Lower Black   FP               Remedial             $175,000
             Bear 21
            Lower Red     FP               Construction       $2,500,000
             Rock 1
            Middle Deep   FP               Construction       $1,250,000
             Red Run 7A
            Turkey Creek  FP               Construction       $2,100,000
             9
            Uncle John 5  FP               Remedial             $225,000
            Upper Black   FP               Remedial             $150,000
             Bear 28
            Upper Black   FP               Remedial             $180,000
             Bear 28
            Upper Blue    FP               Construction       $1,100,000
             River 48
            Upper Red     FP               Design               $375,000
             Rock Site 7
Oregon      Alder Slope   AWM, WQ          Construction         $176,000
             Irrigation
            Arnold        AWM, M&I, WQ,    Construction       $1,491,000
             Irrigation    F&W
             District
            Central       AWM, M&I, WQ,    Construction       $3,810,000
             Oregon        F&W
             Irrigation
             District
            Champoeg      AWM, WQ          Construction         $550,000
             Watershed
            North Agency  WQ, AWM          Construction         $298,100
             Plains
            North         AWM, WQ, LT      Construction         $550,000
             Prairie
             Creek
             Irrigation
            North Unit    AWM, M&I, WQ,    Construction       $1,880,000
             Irrigation    F&W
             District
            Ochoco        AWM, M&I, WQ,    Construction       $1,210,000
             Irrigation    F&W
             District
            Swalley       AWM, M&I, WQ,    Construction         $230,000
             Irrigation    F&W
             District
            Three         AWM, M&I, WQ,    Construction       $2,010,000
             Sisters       F&W
             Irrigation
             District
            Tumalo        AWM, M&I, WQ,    Construction       $1,900,000
             Irrigation    F&W
             District
            Twilight      WQ, AWM          Design               $162,500
             Water
             Quality
            Upper Grande  LT, WQ           Planning             $415,000
             Ronde
             Watershed
            Vale Bench    WQ, AWM          Planning             $220,000
             Lateral 227
Pennsylvan  Bentley       FP               Design               $300,000
 ia          Creek
            Little Toby   WQ               Design               $100,000
             Creek
            Mill Creek    WQ               Design/              $950,000
                                            Constructio
                                            n
            unnamed       FP               Planning             $200,000
             watershed
Rhode       Pocasset      FP               Construction      $51,000,000
 Island      River Flood
             Mitigation
             Project
Tennessee   Hurricane     FP, M&I          Construction       $2,500,000
             Creek
            North Fork    FP               Design               $250,000
             Forked Deer
Texas       Big Creek     FP, M&I, F&W     Construction       $5,000,000
             (Tri-
             County)
            Caney Creek   FP               Construction       $5,400,000
            Elm Creek     FP               Construction      $11,000,000
             (1250)
            Elm Creek     FP               Construction      $12,000,000
             (Cen-Tex)
Utah        Green River   AWM              Planning           $6,000,000
             Canal
            Helper City   FP               Planning           $2,500,000
Virginia    North Fork    LT, WQ           Design/              $500,000
             Powell                         Constructio
             River                          n
West        Big Sandy--   FP, WQ, LT       Planning             $500,000
 Virginia    Tug Fork--
             Elkhorn
             Creek
------------------------------------------------------------------------
                            Fiscal Year 2019
------------------------------------------------------------------------
Arkansas    Bayou Meto    AWM              Construction       $6,250,000
            Grand         AWM              Construction       $6,250,000
             Prairie
California  Beardsley     FP, LT, AWM,     Construction       $3,500,000
                           M&I
            Lllagas       FP, LT, AWM,     Design            $10,000,000
             Creek         M&I, WQ
            Lower         FP, LT, AWM,     Design             $1,750,000
             Calaveras--   M&I, WQ
             Mormon
            Lower Llagas  FP, LT, AWM,     Construction       $3,000,000
             Creek         M&I, WQ, F&W
            Lower Silver  FP, LT, WQ       Construction       $7,000,000
             Creek
            McCoy Wash    FP, LT, WQ       Construction      $11,500,000
            Mill          FP, LT, AWM,     Design             $1,190,000
                           M&I, WQ
            Oasis         FP, LT, WQ       Design             $7,000,000
            Upper         FP, LT, AWM,     Design             $2,870,000
             Calaveras     M&I, WQ
            Upper Deer--  FP, LT, AWM,     Design             $2,590,000
             Upper White   M&I, WQ
            Upper Dry     FP, LT, AWM,     Design               $980,000
                           M&I, WQ
            Upper Poso    FP, LT, AWM,     Design             $2,030,000
                           M&I, WQ
Colorado    6 Mile St.    LT, AWM, WQ      Construction         $900,000
             Charles
            Highland      LT, WQ           Construction       $1,500,000
             Breaks
            Holbrook      LT, AWM, WQ      Construction         $500,000
             Lake Ditch
            Limestone--G  LT, WQ           Construction         $500,000
             raveyard
             Creeks
Hawaii      Kahaluu       FP, LT, REC      Design               $100,000
            Upcountry     AWM              Construction       $5,350,000
             Maui
            Wailuku--Ale  FP               Design               $700,000
             naio
Indiana     Muddy Fork    FP, F&W, M&I     Construction       $4,700,000
             of Silver
             Creek
            Prairie       FP, WQ           Construction       $3,300,000
             Creek
             (Daviess)
Iowa        East Fork of  FP               Design/            $1,259,000
             the Grand                      Constructio
             River                          n
            Turkey Creek  FP               Construction         $118,000
Kansas      Middle        FP               Construction       $1,186,500
             Creek--Site
             11
            Squaw Creek   FP               Construction         $690,500
             Lower Wolf--
             Site 5-8
            Upper Black   FP               Design                $33,000
             Vermillion-
             -Site 14
            Upper Black   FP               Design                $38,000
             Vermillion-
             -Site 227
Kentucky    Pike County-- FP               Implementati         $500,000
             Floodplain                     on
             Easement
            Rockhouse     FP, LT, F&W      Construction       $3,000,000
             Creek
            South Fork    FP, LT           Construction       $2,000,000
             Little
             River
            West Fork     FP               Construction       $1,000,000
             Mayfield
             Creek
Massachuse  Cape Cod      LT, F&W, WQ      Plan/Design/       $7,000,000
 tts         Water                          Constructio
             Resources                      n
             Restoration
             Project
Mississipp  Ltl           LT               Construction         $500,000
 i           Tallahatchi
             e--Oaklimet
             er
            Ltl           LT               Construction         $500,000
             Tallahatchi
             e--Oaklimet
             er
            Ltl           LT               Construction         $500,000
             Tallahatchi
             e--Upper
             Tallahatchi
             e
            Piney Creek   LT               Construction         $750,000
             GCS
            Sabougia      LT               Construction         $500,000
             Watershed
            Yazoo--Arcab  LT               Construction         $500,000
             utla Creek
            Yazoo--Skuna  LT               Construction         $500,000
             River
Missouri    Big Creek     FP               Construction       $1,000,000
             Hurricane
             Ck
            East Locust   AWM, FP, F&W     Construction      $12,000,000
             Creek
            Upper Locust  FP               Construction       $1,000,000
             Creek
            West Fork of  FP               Construction       $1,000,000
             Big Creek
N. Mariana  Kagman        FP, LT, AWM      Construction       $1,800,000
 Islands     Watershed
Nebraska    Papio D-31    FP               Design               $200,000
            Papio D-78    FP               Design               $400,000
            Papio S-22    FP               Construction       $3,500,000
New York    Ashokan       LT               Design/               $30,000
                                            Constructio
                                            n
            Lower         LT               Design/              $330,000
             Cannonsvill                    Constructio
             e                              n
            Moonda/       FP               Construction       $1,000,000
             Saterly
             Creek
            Neversink     LT               Design/               $10,000
                                            Constructio
                                            n
            Pepacton      LT               Design/              $180,000
                                            Constructio
                                            n
            Roundout      LT               Design/               $20,000
                                            Constructio
                                            n
            Schoharie     LT               Design/              $100,000
                                            Constructio
                                            n
            Upper         LT               Design/              $330,000
             Cannonsvill                    Constructio
             e                              n
Oklahoma    Bear Creek 2  FP               Remedial             $175,000
             REM
            Boggy Creek   FP               Remedial             $175,000
             21 REM
            Boggy Creek   FP               Remedial             $200,000
             3 REM
            Cotton Coon   FP               Construction       $2,500,000
             Mission 12A
            Cotton Coon   FP               Construction       $2,500,000
             Mission 12B
            Cotton Coon   FP               Design               $450,000
             Mission 14
            Kickappo      FP               Design               $375,000
             Nations 8
            South         FP               Remedial             $110,000
             Clinton Lat
             2 REM
            South         FP               Remedial             $110,000
             Clinton Lat
             7 REM
            Sugar Creek   FP               Construction       $1,250,000
             (Binger
             Site)
            Turkey 8 REM  FP               Remedial             $250,000
            Upper Blue    FP               Construction       $2,100,000
             River 35
            Upper Blue    FP               Construction       $1,750,000
             River 36
            Upper Blue    FP               Design               $450,000
             River 47
            Upper Muddy   FP               Design               $410,000
             Boggy 19
            Upper Red     FP               Construction       $2,250,000
             Rock Site 7
Oregon      Alder Slope   AWM, WQ          Construction         $176,000
             Irrigation
            Arnold        AWM, M&I, WQ,    Construction       $1,725,000
             Irrigation    F&W
             District
            Central       AWM, M&I, WQ,    Construction       $3,810,000
             Oregon        F&W
             Irrigation
             District
            Champoeg      AWM, WQ          Construction         $660,000
             Watershed
            North Agency  WQ, AWM          Construction         $217,500
             Plains
            North         AWM, WQ, LT      Construction         $330,000
             Prairie
             Creek
             Irrigation
            North Unit    AWM, M&I, WQ,    Construction       $1,870,000
             Irrigation    F&W
             District
            Ochoco        AWM, M&I, WQ,    Construction       $1,310,000
             Irrigation    F&W
             District
            Swalley       AWM, M&I, WQ,    Construction         $105,000
             Irrigation    F&W
             District
            Three         AWM, M&I, WQ,    Construction       $1,580,000
             Sisters       F&W
             Irrigation
             District
            Tumalo        AWM, M&I, WQ,    Construction       $2,070,000
             Irrigation    F&W
             District
            Twilight      WQ, AWM          Design               $162,500
             Water
             Quality
            Upper Grande  LT, WQ           Planning             $365,000
             Ronde
             Watershed
            Vale Bench    WQ, AWM          Planning              $20,000
             Lateral 227
Pennsylvan  Bentley       FP               Construction       $4,500,000
 ia          Creek
            Little Toby   WQ               Construction         $350,000
             Creek
            Mill Creek    WQ               Construction         $600,000
            unnamed       FP               Planning             $200,000
             watershed
Tennessee   Hurricane     FP, M&I          Construction         $300,000
             Creek
            North Fork    FP               Design             $1,800,000
             Forked Deer
Texas       Choctaw       FP               Construction      $18,300,000
             Creek
            Ecleto Creek  FP               Construction      $10,000,000
            Trinity--Cha  FP               Remedial           $3,000,000
             mbers Creek
            Trinity--Pil  FP               Remedial           $3,000,000
             ot Grove
Virginia    North Fork    LT, WQ           Design/              $500,000
             Powell                         Constructio
             River                          n
------------------------------------------------------------------------
                            Fiscal Year 2020
------------------------------------------------------------------------
Arkansas    Bayou Meto    AWM              Construction       $6,250,000
            Grand         AWM              Construction       $6,250,000
             Prairie
California  Lllagas       FP, LT, AWM,     Construction     $127,250,000
             Creek         M&I, WQ
            Lower         FP, LT, AWM,     Construction      $21,500,000
             Calaveras--   M&I, WQ
             Mormon
            Lower Llagas  FP, LT, AWM,     Construction       $3,000,000
             Creek         M&I, WQ, F&W
            Lower Silver  FP, LT, WQ       Construction       $7,000,000
             Creek
            McCoy Wash    FP, LT, WQ       Construction      $11,500,000
            Mill          FP, LT, AWM,     Construction      $14,060,000
                           M&I, WQ
            New Site      FP, LT, AWM,     Construction       $3,400,000
                           M&I, WQ
            Oasis         FP, LT, WQ       Construction      $91,250,000
            Upper         FP, LT, AWM,     Construction      $36,380,000
             Calaveras     M&I, WQ
            Upper Deer--  FP, LT, AWM,     Construction      $32,660,000
             Upper White   M&I, WQ
            Upper Dry     FP, LT, AWM,     Construction      $11,270,000
                           M&I, WQ
            Upper Poso    FP, LT, AWM,     Construction      $25,220,000
                           M&I, WQ
Hawaii      Kahaluu       FP, LT, REC      Construction         $800,000
            Lower         AWM, WQ          Design/            $1,500,000
             Hamakua                        Constructio
             Ditch                          n
            Wailuku--Ale  FP               Construction       $2,600,000
             naio
            Waimanalo     AWM              Construction         $800,000
Iowa        East Fork of  FP               Construction       $1,257,000
             the Grand
             River
            Mill Creek    LT               Design/              $353,000
                                            Constructio
                                            n
            Mosquito of   FP               Design/              $118,000
             Harrison                       Constructio
                                            n
Kansas      North Middle  FP               Design                $27,900
             Forks Wolf--
             Site 15-4
            North Middle  FP               Design                $29,500
             Forks Wolf--
             Site 15-5
            North Middle  FP               Design                $24,300
             Forks Wolf--
             Site 19-8
            Upper Black   FP               Construction         $393,000
             Vermillion-
             -Site 14
            Upper Black   FP               Construction         $446,500
             Vermillion-
             -Site 227
Massachuse  Cape Cod      LT, F&W, WQ      Construction       $3,000,000
 tts         Water
             Resources
             Restoration
             Project
Mississipp  Ltl           LT               Construction         $500,000
 i           Tallahatchi
             e--Oaklimet
             er
            Ltl           LT               Construction         $500,000
             Tallahatchi
             e--Oaklimet
             er
            Ltl           LT               Construction         $500,000
             Tallahatchi
             e--Upper
             Tallahatchi
             e
            Piney Creek   LT               Construction         $750,000
             GCS
            Town Creek    LT               Construction         $250,000
            Yazoo--Skuna  LT               Construction         $500,000
             River
Missouri    Big Creek     FP               Construction       $1,000,000
             Hurricane
             Ck
            East Locust   AWM, FP, F&W     Construction      $12,000,000
             Creek
            East Yellow   FP               Construction       $1,000,000
             Creek
            West Fork of  FP               Construction       $1,000,000
             Big Creek
N. Mariana  Kagman        FP, LT, AWM      Construction         $250,000
 Islands     Watershed
Nebraska    Papio D-31    FP               Construction       $1,500,000
            Papio D-78    FP               Construction       $1,500,000
New York    Ashokan       LT               Design/               $30,000
                                            Constructio
                                            n
            Lower         LT               Design/              $330,000
             Cannonsvill                    Constructio
             e                              n
            Moonda/       FP               Construction       $1,000,000
             Saterly
             Creek
            Neversink     LT               Design/               $10,000
                                            Constructio
                                            n
            Pepacton      LT               Design/              $180,000
                                            Constructio
                                            n
            Roundout      LT               Design/               $20,000
                                            Constructio
                                            n
            Schoharie     LT               Design/              $100,000
                                            Constructio
                                            n
            Upper         LT               Design/              $330,000
             Cannonsvill                    Constructio
             e                              n
Oklahoma    Bear Creek    FP               Design               $500,000
             Site 1
            Brushy        FP               Construction       $2,250,000
             Peaceable 5
            Cotton Coon   FP               Construction       $2,100,000
             Mission 14
            Cotton Coon   FP               Design               $525,000
             Mission
             Site 13
            Jack Creek 6  FP               Construction       $2,500,000
            Kickappo      FP               Construction       $1,900,000
             Nations 8
            Little        FP               Design               $475,000
             Washita
             River Site
             37
            Oak Creek 9   FP               Remedial             $175,000
            Stillwater    FP               Remedial             $250,000
             35
            Turkey 11     FP               Remedial             $210,000
            Upper Black   FP               Remedial             $310,000
             Bear 51
            Upper Blue    FP               Construction       $2,100,000
             River 47
            Upper Muddy   FP               Construction       $2,250,000
             Boggy 19
            Upper Muddy   FP               Remedial             $125,000
             Boggy 26
            Upper Muddy   FP               Design               $500,000
             Boggy 30
            Upper Red     FP               Remedial             $250,000
             Rock 42
            Upper Red     FP               Construction       $1,750,000
             Rock Site 7
            Wildhorse     FP               Design               $475,000
             Creek Site
             88
Oregon      Alder Slope   AWM, WQ          Construction         $176,000
             Irrigation
            Arnold        AWM, M&I, WQ,    Design               $800,000
             Irrigation    F&W
             District
            Central       AWM, M&I, WQ,    Design             $1,700,000
             Oregon        F&W
             Irrigation
             District
            Champoeg      AWM, WQ          Construction         $660,000
             Watershed
            North         AWM, WQ, LT      Construction         $110,000
             Prairie
             Creek
             Irriga[ti]o
             n
            North Unit    AWM, M&I, WQ,    Design               $850,000
             Irrigation    F&W
             District
            Ochoco        AWM, M&I, WQ,    Design               $650,000
             Irrigation    F&W
             District
            Swalley       AWM, M&I, WQ,    Planning              $50,000
             Irrigation    F&W
             District
            Three         AWM, M&I, WQ,    Construction         $750,000
             Sisters       F&W
             Irrigation
             District
            Tumalo        AWM, M&I, WQ,    Design             $1,000,000
             Irrigation    F&W
             District
            Twilight      WQ, AWM          Design                $30,000
             Water
             Quality
            Upper Grande  LT, WQ           Planning              $40,000
             Ronde
             Watershed
Pennsylvan  Bentley       FP               Construction         $300,000
 ia          Creek
            Little Toby   WQ               Construction          $50,000
             Creek
            Mill Creek    WQ               Construction          $50,000
            unnamed       FP               Planning           $1,000,000
             watershed
Tennessee   North Fork    FP               Construction       $2,000,000
             Forked Deer
Texas       Big Creek     FP, M&I, F&W     Construction      $10,000,000
             (Tri-
             County)
            Big Creek     FP, M&I, F&W     Construction      $10,000,000
             (Tri-
             County)
            Middle        FP               Construction       $2,700,000
             Colorado--S
             outhwest
             Laterals
            Middle        FP, M&I, F&W     Construction       $5,400,000
             Colorado--U
             pper Pecan
             Bayou
            Trinity--Ric  FP               Remedial           $3,000,000
             hland Creek
Virginia    North Fork    LT, WQ           Design/              $500,000
             Powell                         Constructio
             River                          n
West        Big Sandy--   FP, WQ, LT       Planning             $500,000
 Virginia    Pond Creek
                                                        ----------------
  Grand                                                   $1,404,018,440
   Total
------------------------------------------------------------------------
Eligible Purpose Key:
 
FP--Flood Prevention.
LT--Land Treatment/Watershed Protection.
F&W--Public Recreation.
AWM--Agricultural Water Management.
M&I--Municipal and Industrial Water Supply.
WQ--Water Quality Management.


       Appendix B: Watershed Operations Appropriations, 1947-2015
------------------------------------------------------------------------
 Fiscal Year        Amount Funded      Fiscal Year      Amount Funded
------------------------------------------------------------------------
      1947              $2,100,000           1982          $176,611,000
      1948               3,000,000           1983           181,295,000
      1949               6,000,000           1984           175,000,000
      1950               9,500,000           1985           175,325,850
      1951              10,315,000           1986           176,691,000
      1952               6,559,600           1987           161,182,000
      1953               7,750,000           1988           161,679,000
      1954              12,000,000           1989           161,797,400
      1955              14,732,000           1990           161,855,000
      1956              22,000,000           1991           163,163,000
      1957              29,500,000           1992           173,885,000
      1958              38,720,000           1993           187,162,000
      1959              43,500,000           1994           199,236,000
      1960              40,750,000           1995            70,000,000
      1961              56,370,000           1996           100,000,000
      1962              78,787,000           1997           101,036,000
      1963              86,702,200           1998           101,036,000
      1964              89,072,000           1999            91,643,000
      1965              97,602,000           2000            99,443,000
      1966              91,973,000           2001            99,224,000
      1967              95,826,100           2002           106,590,000
      1968              96,156,000           2003           109,285,000
      1969              82,132,000           2004            86,487,000
      1970              90,770,000           2005            74,971,000
      1971             100,334,000           2006            75,000,000
      1972             132,099,000           2007                     0
      1973             115,675,500           2008            29,790,000
      1974             121,674,000           2009            24,289,000
      1975             109,641,600         * 2009           145,000,000
      1976             167,076,000           2010            30,000,000
      1977             129,649,000           2011                     0
      1978             143,280,000           2012                     0
      1979             148,107,000           2013                     0
      1980             152,244,000           2014                     0
      1981             177,024,000           2015                     0
------------------------------------------------------------------------
  Total Funding...................................       $6,207,297,250
------------------------------------------------------------------------
* (ARRA).

Appendix C: Watershed Protection and Flood Prevention Act--P.L. 83-566
    Section 1001. Declaration of policy.
    Section 1002. Definitions
    Section 1003. Assistance to local organizations.
    Section 1003a. Cost share assistance.
    Section 1004. Conditions for Federal assistance.
    Section 1005. Works of improvement.
    Section 1006. Cooperative programs.
    Section 1006a. Loans or advancements for financing local share of 
    costs; repayment; interest; maximum amount.
    Section 1006b. Territorial application.
    Section 1007. Authorization of appropriations.
    Section 1008. Notification of Secretary of the Interior of approval 
    of assistance; surveys and investigations; report and 
    recommendations; consideration; cost of surveys, investigations and 
    reports.
    Section 1009. Joint investigations and surveys by Secretary of the 
    Army and Secretary of Agriculture; reports to Congress.
    Section 1010. Data.
    Section 1011. Watershed restoration and enhancement agreements.
    Section 1012. Rehabilitation of structural measures near, at, or 
    past their evaluated life expectancy.
Watershed Protection and Flood Prevention
    Sec. 1001. Declaration of policy.

    Erosion, floodwater, and sediment damages in the watersheds of the 
rivers and streams of the United States, causing loss of life and 
damage to property, constitute a menace to the national welfare; and it 
is the sense of Congress that the Federal Government should cooperate 
with states and their political subdivisions, soil or water 
conservation districts, flood prevention or control districts, and 
other local public agencies for the purpose of preventing such damages, 
of furthering the conservation, development, utilization, and disposal 
of water, and the conservation and utilization of land and thereby of 
preserving, protecting, and improving the nation's land and water 
resources and the quality of the environment.

    Sec. 1002. Definitions.

    For the purposes of this chapter, the following terms shall mean:

          The ''Secretary''--the Secretary of Agriculture of the United 
        States.
          ``Works of improvement''--any undertaking for--

                  (1) flood prevention (including structural and land 
                treatment measures),
                  (2) the conservation, development, utilization, and 
                disposal of water, or
                  (3) the conservation and proper utilization of land, 
                in watershed or sub-watershed area not exceeding two 
                hundred and fifty thousand acres and not including any 
                single structure which provides more than twelve 
                thousand five hundred acre-feet of floodwater detention 
                capacity, and more than twenty-five thousand acre-feet 
                of total capacity. No appropriation shall be made for 
                any plan involving an estimated Federal contribution to 
                construction costs in excess of $5,000,000, or which 
                includes any structure which provides more than twenty-
                five hundred acre-feet of total capacity unless such 
                plan has been approved by resolutions adopted by the 
                appropriate Committees of the Senate and House of 
                Representatives: Provided, That in the case of any plan 
                involving no single structure providing more than 4,000 
                acre-feet of total capacity the appropriate Committees 
                shall be the Committee on Agriculture, Nutrition, and 
                Forestry of the Senate and the Committee on Agriculture 
                of the House of Representatives and in the case of any 
                plan involving any single structure of more than 4,000 
                acre-feet of total capacity the appropriate Committees 
                shall be the Committee on Environment and Public Works 
                of the Senate and the Committee on Public Works and 
                Transportation of the House of Representatives, 
                respectively. Each project must contain benefits 
                directly related to agriculture, including rural 
                communities that account for at least 20 percent of the 
                total benefits of the project. A number of such sub-
                watersheds when they are component parts of a larger 
                watershed may be planned together when the local 
                sponsoring organizations so desire.

          ``Local organization''--any state, political subdivision 
        thereof, soil or water conservation district, flood prevention 
        or control district, or combinations thereof, or any other 
        agency having authority under state law to carry out, maintain 
        and operate the works of improvement; or any irrigation or 
        reservoir company, water users' association, or similar 
        organization having such authority and not being operated for 
        profit that may be approved by the Secretary; or any Indian 
        Tribe or Tribal organization, as defined in section 450b of 
        title 25, having authority under Federal, state, or Indian 
        Tribal law to carry out, maintain, and operate the works of 
        improvement.

    Sec. 1003. Assistance to local organizations.

    In order to assist local organizations in preparing and carrying 
out plans for works of improvement, the Secretary is authorized, upon 
application of local organizations if such application has been 
submitted to, and not disapproved within 45 days by, the state agency 
having supervisory responsibility over programs provided for in this 
chapter, or by the Governor if there is no state agency having such 
responsibility--

          (1) to conduct such investigations and surveys as may be 
        necessary to prepare plans for works of improvement;
          (2) to prepare plans and estimates required for adequate 
        engineering evaluation;
          (3) to make allocations of costs to the various purposes to 
        show the basis of such allocations and to determine whether 
        benefits exceed costs;
          (4) to cooperate and enter into agreements with and to 
        furnish financial and other assistance to local organizations: 
        Provided, That, for the land-treatment measures, the Federal 
        assistance shall not exceed the rate of assistance for similar 
        practices under existing national programs;
          (5) to obtain the cooperation and assistance of other Federal 
        agencies in carrying out the purposes of this section;
          (6) to enter into agreements with landowners, operators, and 
        occupiers, individually or collectively, based on conservation 
        plans of such landowners, operators, and occupiers which are 
        developed in cooperation with and approved by the soil and 
        water conservation district in which the land described in the 
        agreement is situated, to be carried out on such land during a 
        period of not to exceed 10 years, providing for changes in 
        cropping systems and land uses and for the installation of soil 
        and water conservation practices and measures needed to 
        conserve and develop the soil, water, woodland, wildlife, 
        energy, and recreation resources of and enhance the water 
        quality of lands within the area included in plans for works of 
        improvement, as provided for in such plans, including watershed 
        or sub-watershed work plans in connection with the eleven 
        watershed improvement programs authorized by section 13 of the 
        Act of December 22, 1944 (58 Stat. 887), as amended and 
        supplemented. Applications for assistance in developing such 
        conservation plans shall be made in writing to the soil and 
        water conservation district involved, and the proposed 
        agreement shall be reviewed by such district. In return for 
        such agreements by landowners, operators, and occupiers the 
        Secretary shall agree to share the costs of carrying out those 
        practices and measures set forth in the agreement for which he 
        determines that cost-sharing is appropriate and in the public 
        interest. The portion of such costs, including labor, to be 
        shared shall be that part which the Secretary determines is 
        appropriate and in the public interest for the carrying out of 
        the practices and measures set forth in the agreement, except 
        that the Federal assistance shall not exceed the rate of 
        assistance for similar practices and measures under existing 
        national programs. The Secretary may terminate any agreement 
        with a landowner, operator, or occupier by mutual agreement if 
        the Secretary determines that such termination would be in the 
        public interest, and may agree to such modifications of 
        agreements, previously entered into hereunder, as he deems 
        desirable to carry out the purposes of this paragraph or to 
        facilitate the practical administration of the agreements 
        provided for herein. Notwithstanding any other provision of 
        law, the Secretary, to the extent he deems it desirable to 
        carry out the purposes of this paragraph, may provide in any 
        agreement hereunder for (1) preservation for a period not to 
        exceed the period covered by the agreement and an equal period 
        thereafter of the cropland, crop acreage, and allotment history 
        applicable to land covered by the agreement for the purpose of 
        any Federal program under which such history is used as a basis 
        for an allotment or other limitation on the production of any 
        crop; or (2) surrender of any such history and allotments.

    Sec. 1003a. Cost-share assistance.

    (a) Easements.--The Secretary may provide cost-share assistance to 
project sponsors to enable such sponsors to acquire perpetual wetland 
or floodplain conservation easements to perpetuate, restore and enhance 
the natural capability of wetlands and floodplains to retain excessive 
floodwaters, improve water quality and quantity, and provide habitat 
for fish and wildlife.
    (b) Amount.--The Secretary shall require that project sponsors of 
watershed projects provide up to 50 percent of the cost of acquiring 
easements under subsection (a) of this section.

    Sec. 1004. Conditions for Federal assistance.

    The Secretary shall require as a condition to providing Federal 
assistance for the installation of works of improvement that local 
organizations shall--

          (1) acquire, or with respect to interests in land to be 
        acquired by condemnation provide assurances satisfactory to the 
        Secretary that they will acquire, without cost to the Federal 
        Government from funds appropriated for the purposes of this 
        chapter, such land, easements, or rights-of-way as will be 
        needed in connection with works of improvement installed with 
        Federal assistance: Provided, That when a local organization 
        agrees to operate and maintain any reservoir or other area 
        included in a plan for public fish and wildlife or recreational 
        development, the Secretary shall be authorized to bear not to 
        exceed \1/2\ of the costs of (a) the land, easements, or 
        rights-of-way acquired or to be acquired by the local 
        organization for such reservoir or other area, and (b) minimum 
        basic facilities needed for public health and safety, access 
        to, and use of such reservoir or other area for such purposes: 
        Provided further, That the Secretary shall be authorized to 
        participate in recreational development in any watershed 
        project only to the extent that the need therefore is 
        demonstrated in accordance with standards established by him, 
        taking into account the anticipated man-days of use of the 
        projected recreational development and giving consideration to 
        the availability within the region of existing water-based 
        outdoor recreational developments: Provided further, That the 
        Secretary shall be authorized to participate in not more than 
        one recreational development in a watershed project containing 
        less than seventy-five thousand acres, or two such developments 
        in a project containing between seventy-five thousand and one 
        hundred and fifty thousand acres, or three such developments in 
        projects exceeding one hundred and fifty thousand acres: 
        Provided further, That when the Secretary and a local 
        organization have agreed that the immediate acquisition by the 
        local organization of land, easements, or rights-of-way is 
        advisable for the preservation of sites for works of 
        improvement included in a plan from encroachment by 
        residential, commercial, industrial, or other development, the 
        Secretary shall be authorized to advance to the local 
        organization from funds appropriated for construction of works 
        of improvement the amounts required for the acquisition of such 
        land, easements or rights-of-way; and, except where such costs 
        are to be borne by the Secretary, such advance shall be repaid 
        by the local organization, with interest, prior to construction 
        of the works of improvement, for credit to such construction 
        funds: Provided further, That the Secretary shall be authorized 
        to bear an amount not to exceed \1/2\ of the costs of the land, 
        easements, or rights-of-way acquired or to be acquired by the 
        local organization for mitigation of fish and wildlife habitat 
        losses, and that such acquisition is not limited to the 
        confines of the watershed project boundaries;
          (2) assume--

                  (A) such proportionate share, as is determined by the 
                Secretary to be equitable in consideration of national 
                needs and assistance authorized for similar purposes 
                under other Federal programs, of the costs of 
                installing any works of improvement, involving Federal 
                assistance (excluding engineering costs), which is 
                applicable to the agricultural phases of the 
                conservation, development, utilization, and disposal of 
                water or for fish and wildlife development, 
                recreational development, ground water recharge, water 
                quality management, or the conservation and proper 
                utilization of land: Provided, That works of 
                improvement for water quality management shall consist 
                primarily of water storage capacity in reservoirs for 
                regulation of streamflow, except that any such storage 
                and water releases shall not be provided as a 
                substitute for adequate treatment or other methods of 
                controlling waste at the source, and shall be 
                consistent with standards and regulations adopted by 
                the Water Resources Council on Federal cost-sharing for 
                water quality management, and
                  (B) all of the cost of installing any portion of such 
                works applicable to other purposes except that any part 
                of the construction cost (including engineering costs) 
                applicable to flood prevention and features relating 
                thereto shall be borne by the Federal Government and 
                paid for by the Secretary out of funds appropriated for 
                the purposes of this chapter: Provided, That, in 
                addition to and without limitation on the authority of 
                the Secretary to make loans or advancements under 
                section 1006a of this title, the Secretary may pay for 
                any storage of water for present or anticipated future 
                demands or needs for municipal or industrial water 
                included in any reservoir structure constructed or 
                modified under the provisions of this chapter as 
                hereinafter provided: Provided further, That the cost 
                of water storage to meet future demands may not exceed 
                30 per centum of the total estimated cost of such 
                reservoir structure and the local organization shall 
                give reasonable assurances, and there is evidence, that 
                such demands for the use of such storage will be made 
                within a period of time which will permit repayment 
                within the life of the reservoir structure of the cost 
                of such storage: Provided further, That the Secretary 
                shall determine prior to initiation of construction or 
                modification of any reservoir structure including such 
                water supply storage that there are adequate assurances 
                by the local organization or by an agency of the state 
                having authority to give such assurances, that the 
                Secretary will be reimbursed the cost of water supply 
                storage for anticipated future demands, and that the 
                local organization will pay not less than 50 per centum 
                of the cost of storage for present water supply 
                demands: And provided further, That the cost to be 
                borne by the local organization for anticipated future 
                demands may be repaid within the life of the reservoir 
                structure but in no event to exceed fifty years after 
                the reservoir structure is first used for the storage 
                of water for anticipated future water supply demands, 
                except that--

                          (1) no reimbursement of the cost of such 
                        water supply storage for anticipated future 
                        demands need be made until such supply is first 
                        used, and
                          (2) no interest shall be charged on the cost 
                        of such water-supply storage for anticipated 
                        future demands until such supply is first used, 
                        but in no case shall the interest-free period 
                        exceed 10 years. The interest rate used for 
                        purposes of computing the interest on the 
                        unpaid balance shall be determined in 
                        accordance with the provisions of section 1006a 
                        of this title.
                          (3) make arrangements satisfactory to the 
                        Secretary for defraying costs of operating and 
                        maintaining such works of improvement, in 
                        accordance with regulations presented by the 
                        Secretary of Agriculture;
                          (4) acquire, or provide assurance that 
                        landowners or water users have acquired, such 
                        water rights, pursuant to state law, as may be 
                        needed in the installation and operation of the 
                        work of improvement;
                          (5) obtain agreements to carry out 
                        recommended soil conservation measures and 
                        proper farm plans from owners of not less than 
                        50 per centum of the land situated in the 
                        drainage area above each retention reservoir to 
                        be installed with Federal assistance; and
                          (6) submit a plan of repayment satisfactory 
                        to the Secretary for any loan or advancement 
                        made under the provisions of section 1006a of 
                        this title.

    Sec. 1005. Works of improvement.

    (1) Engineering and Other Services; Reimbursement; Advances.--At 
such time as the Secretary and the interested local organization have 
agreed on a plan for works of improvement, and the Secretary has 
determined that the benefits exceed the costs, and the local 
organization has met the requirements for participation in carrying out 
the works of improvement as set forth in section 1004 of this title, 
the local organization may secure engineering and other services, 
including the design, preparation of contracts and specifications, 
awarding of contracts, and supervision of construction, in connection 
with such works of improvement, by retaining or employing a 
professional engineer or engineers satisfactory to the Secretary or may 
request the Secretary to provide such services: Provided, That if the 
local organization elects to employ a professional engineer or 
engineers, the Secretary shall reimburse the local organization for the 
costs of such engineering and other services secured by the local 
organization as are properly chargeable to such works of improvement in 
an amount not to exceed the amount agreed upon in the plan for works of 
improvement or any modification thereof: Provided further, That the 
Secretary may advance such amounts as may be necessary to pay for such 
services, but such advances with respect to any works of improvement 
shall not exceed five per centum of the estimated installation cost of 
such works.
    (2) Federal Construction; Request by Local Organization.--Except as 
to the installation of works of improvement on Federal lands, the 
Secretary shall not construct or enter into any contract for the 
construction of any structure: Provided, That, if requested to do so by 
the local organization, the Secretary may enter into contracts for the 
construction of structures.
    (3) Transmission of Certain Plans to Congress.--Whenever the 
estimated Federal contribution to the construction costs of works of 
improvement in the plan for any watershed or sub-watershed area shall 
exceed $5,000,000 or the works of improvement include any structure 
having a total capacity in excess of twenty-five hundred acre-feet, the 
Secretary shall transmit a copy of the plan and the justification 
therefore to the Congress through the President.
    (4) Transmission of Certain Plans and Recommendations to 
Congress.--Any plans for works of improvement involving an estimated 
Federal contribution to construction costs in excess of $5,000,000 or 
including any structure having a total capacity in excess of twenty-
five hundred acre-feet

          (a) which includes works of improvement for reclamation or 
        irrigation, or which affects public or other lands or wildlife 
        under the jurisdiction of the Secretary of the Interior,
          (b) which includes Federal assistance for floodwater 
        detention structures,
          (c) which includes features which may affect the public 
        health, or
          (d) which includes measures for control or abatement of water 
        pollution, shall be submitted to the Secretary of the Interior, 
        the Secretary of the Army, the Secretary of Health and Human 
        Services, or the Administrator of the Environmental Protection 
        Agency, respectively, for his views and recommendations at 
        least thirty days prior to transmission of the plan to the 
        Congress through the President. The views and recommendations 
        of the Secretary of the Interior, the Secretary of the Army, 
        the Secretary of Health and Human Services, and the 
        Administrator of the Environmental Protection Agency, if 
        received by the Secretary prior to the expiration of the above 
        thirty-day period, shall accompany the plan transmitted by the 
        Secretary to the Congress through the President.

    (5) Rules and Regulations.--Prior to any Federal participation in 
the works of improvement under this chapter, the President shall issue 
such rules and regulations as he deems necessary or desirable to carry 
out the purposes of this chapter, and to assure the coordination of the 
work authorized under this chapter and related work of other agencies, 
including the Department of the Interior and the Department of the 
Army.

    Sec. 1006 Cooperative Programs.

    The Secretary is authorized in cooperation with other Federal and 
with states and local agencies to make investigations and surveys of 
the watershed of rivers and other waterways as a basis for the 
development of coordinated programs. In areas where the programs of the 
Secretary of Agriculture may affect public or other lands under the 
jurisdiction of the Secretary of the Interior, the Secretary of the 
Interior is authorized to cooperate with the Secretary of Agriculture 
in the planning and development of works or programs for such lands.

    Sec. 1006a Loans or advancements for financing local share of 
costs; repayment; interest; maximum amount.

    The Secretary is authorized to make loans or advancements

          (a) to local organizations to finance the local share of 
        costs of carrying out works of improvement provided for in this 
        chapter, and
          (b) to state and local agencies to finance the local share of 
        costs of carrying out works of improvement (as defined in 
        section 1002 of this title) in connection with the eleven 
        watershed improvement programs authorized by section 13 of the 
        Act of December 22, 1944 (58 Stat. 887), as amended and 
        supplemented: Provided, That the works of improvement in 
        connection with said eleven watershed improvement programs 
        shall be integral parts of watershed or sub-watershed work 
        plans agreed upon by the Secretary of Agriculture and the 
        concerned state and local agencies. A loan or advance under 
        this section shall be made under a contract or agreement that 
        provides, under such terms and conditions as the Secretary 
        considers appropriate, for the repayment of the loan or advance 
        in not more than 50 years from the date when the principal 
        benefits of the works of improvement first become available, 
        with interest at a rate not to exceed the current market yield 
        for outstanding municipal obligations with remaining periods to 
        maturity comparable to the average maturity for the loan, 
        adjusted to the nearest \1/8\ of 1 percent. With respect to any 
        single plan for works of improvement, the amount of any such 
        loan or advancement shall not exceed $10,000,000.

    Sec. 1006b Territorial application.

    The provisions of this chapter shall be applicable to Hawaii, 
Alaska, Puerto Rico, and the Virgin Islands.

    Sec. 1007. Authorization of appropriations.

    There are hereby authorized to be appropriated such sums as may be 
necessary to carry out the purposes of this chapter, such sums to 
remain available until expended. No appropriation hereafter available 
for assisting local organizations in preparing and carrying out plans 
for works of improvement under the provisions of section 1003 of this 
title or clause (a) of section 1006a of this title shall be available 
for any works of improvement pursuant to this chapter or otherwise in 
connection with the eleven watershed improvement programs authorized by 
section 13 of the Act of December 22, 1944 (58 Stat. 887), as amended 
and supplemented, or for making loans or advancements to state and 
local agencies as authorized by clause (b) of section 1006a of this 
title.

    Sec. 1008 Notification of Secretary of the Interior of approval of 
assistance; surveys and investigations; report and recommendations; 
consideration; cost of surveys; investigations and reports.

    When the Secretary approves the furnishing of assistance to a local 
organization in preparing a plan for works of improvement as provided 
for in section 1003 of this title:

          (1) The Secretary shall so notify the Secretary of the 
        Interior in order that the latter, as he desires, may make 
        surveys and investigations and prepare a report with 
        recommendations concerning the conservation and development of 
        wildlife resources and participate, under arrangements 
        satisfactory to the Secretary of Agriculture, in the 
        preparation of a plan for works of improvement that is 
        acceptable to the local organization and the Secretary of 
        Agriculture.
          (2) Full consideration shall be given to the recommendations 
        contained in any such report of the Secretary of the Interior 
        as he may submit to the Secretary of Agriculture prior to the 
        time the local organization and the Secretary of Agriculture 
        have agreed on a plan for works of improvement. The plan shall 
        include such of the technically and economically feasible works 
        of improvement for wildlife purposes recommended in the report 
        by the Secretary of the Interior as are acceptable to, and 
        agreed to by, the local organization and the Secretary of 
        Agriculture, and such report of the Secretary of the Interior 
        shall, if requested by the Secretary of the Interior, accompany 
        the plan for works of improvement when it is submitted to the 
        Secretary of Agriculture for approval or transmitted to the 
        Congress through the President.
          (3) The cost of making surveys and investigations and of 
        preparing reports concerning the conservation and development 
        of wildlife resources shall be borne by the Secretary of the 
        Interior out of funds appropriated to his Department.

    Sec. 1009 Joint investigations and surveys by Secretary of the Army 
and Secretary of Agriculture; reports to Congress.

    The Secretary of the Army and the Secretary of Agriculture, when 
authorized to do so by resolutions adopted by the Committee on 
Environment and Public Works of the Senate or the Committee on Public 
Works and Transportation of the House of Representatives, are 
authorized and directed to make joint investigations and surveys in 
accordance with their existing authorities of watershed areas in the 
United States, Puerto Rico, and the Virgin Islands, and to prepare 
joint reports on such investigations and surveys setting forth their 
recommendations for the installation of the works of improvement needed 
for flood prevention or the conservation, development, utilization, and 
disposal of water, and for flood control and allied purposes. Such 
joint reports shall be submitted to the Congress through the President 
for adoption and authorization by the Congress of the recommended works 
of improvement: Provided, That the project authorization procedure 
established by this chapter shall not be affected.

    Sec. 1010 Data.

    The Secretary shall collect and maintain data on a national and 
state by state basis concerning--

          (1) expenditures for the individual flood control and 
        conservation measures for which assistance is provided under 
        this chapter; and
          (2) the expected flood control or environmental (including 
        soil erosion) benefits that will result from the implementation 
        of such measures.

    Sec. 1011. Watershed restoration and enhancement agreements.

    (a) In General.--For Fiscal Year 1997 and each fiscal year 
thereafter, appropriations made for the Bureau of Land Management may 
be used by the Secretary of the Interior for the purpose of entering 
into cooperative agreements with the heads of other Federal agencies, 
Tribal, state, and local governments, private and nonprofit entities, 
and landowners for the protection, restoration, and enhancement of fish 
and wildlife habitat and other resources on public or private land and 
the reduction of risk from natural disaster where public safety is 
threatened that benefit these resources on public lands within the 
watershed.
    (b) Direct and Indirect Watershed Agreements.--The Secretary of the 
Interior may enter into a watershed restoration and enhancement 
agreement--

          (1) directly with a willing private landowner; or
          (2) indirectly through an agreement with a state, local, or 
        Tribal government or other public entity, educational 
        institution, or private nonprofit organization.

    (c) Terms and Conditions.--In order for the Secretary to enter into 
a watershed restoration and enhancement agreement--

          (1) the agreement shall--

                  (A) include such terms and conditions mutually agreed 
                to by the Secretary and the landowner;
                  (B) improve the viability of and otherwise benefit 
                the fish, wildlife, and other biotic resources on 
                public land in the watershed;
                  (C) authorize the provision of technical assistance 
                by the Secretary in the planning of management 
                activities that will further the purposes of the 
                agreement;
                  (D) provide for the sharing of costs of implementing 
                the agreement among the Federal Government, the 
                Landowner, and other entities, as mutually agreed on by 
                the affected interests; and
                  (E) ensure that any expenditure by the Secretary 
                pursuant to the agreement is determined by the 
                Secretary to be in the public interest; and

          (2) the Secretary may require such other terms and conditions 
        as are necessary to protect the public investment on private 
        lands, provided such terms and conditions are mutually agreed 
        to by the Secretary and other landowners, state and local 
        governments or both.

    Sec. 1012. Rehabilitation of structural measures near, at, or past 
their evaluated life expectancy.

    (a) Definitions.--For purposes of this section:

          (1) Rehabilitation.--The term ''rehabilitation'', with 
        respect to a structural measure constructed as part of a 
        covered water resource project, means the completion of all 
        work necessary to extend the service life of the structural 
        measure and meet applicable safety and performance standards. 
        This may include:

                  (A) protecting the integrity of the structural 
                measure or prolonging the useful life of the structural 
                measure beyond the original evaluated life expectancy;
                  (B) correcting damage to the structural measure from 
                a catastrophic event;
                  (C) correcting the deterioration of structural 
                components that are deteriorating at an abnormal rate;
                  (D) upgrading the structural measure to meet changed 
                land use conditions in the watershed served by the 
                structural measure or changed safety criteria 
                applicable to the structural measure; or
                  (E) decommissioning the structure, if requested by 
                the local organization.

          (2) Covered water resource project.--The term ''covered water 
        resource project'' means a work of improvement carried out 
        under any of the following:

                  (A) This chapter
                  (B) Section 13 of the Act of December 22, 1944 
                (Public Law 78-534; 58 Stat. 905).
                  (C) The pilot watershed program authorized under the 
                heading ''Flood Prevention'' of the Department of 
                Agriculture Appropriation Act, 1954 (Public Law 156; 67 
                Stat. 214).
                  (D) Subtitle H of title XV of the Agriculture and 
                Food Act of 1981 (16 U.S.C. 3451 et seq.; commonly 
                known as the Resource Conservation and Development 
                Program).

          (3) Structural measure.--The term ''structural measure'' 
        means a physical improvement that impounds water, commonly 
        known as a dam, which was constructed as part of a covered 
        water resource project, including the impoundment area and 
        flood pool.

    (b) Cost-Share Assistance for Rehabilitation.--

          (1) Assistance authorized.--The Secretary may provide 
        financial assistance to a local organization to cover a portion 
        of the total costs incurred for the rehabilitation of 
        structural measures originally constructed as part of a covered 
        water resource project. The total costs of rehabilitation 
        include the costs associated with all components of the 
        rehabilitation project, including acquisition of land, 
        easements, and rights-of-ways, rehabilitation project 
        administration, the provision of technical assistance, 
        contracting, and construction costs, except that the local 
        organization shall be responsible for securing all land, 
        easements, or rights-of-ways necessary for the project.
          (2) Amount of assistance; limitations.--The amount of Federal 
        funds that may be made available under this subsection to a 
        local organization for construction of a particular 
        rehabilitation project shall be equal to 65 percent of the 
        total rehabilitation costs, but not to exceed 100 percent of 
        actual construction costs incurred in the rehabilitation. 
        However, the local organization shall be responsible for the 
        costs of water, mineral, and other resource rights and all 
        Federal, state, and local permits.
          (3) Relation to land use and development regulations.--As a 
        condition on entering into an agreement to provide financial 
        assistance under this subsection, the Secretary, working in 
        concert with the affected unit or units of general purpose 
        local government, may require that proper zoning or other 
        developmental regulations are in place in the watershed in 
        which the structural measures to be rehabilitated under the 
        agreement are located so that--

                  (A) the completed rehabilitation project is not 
                quickly rendered inadequate by additional development; 
                and
                  (B) society can realize the full benefits of the 
                rehabilitation investment.

    (c) Technical Assistance for Watershed Project Rehabilitation.--The 
Secretary, acting through the Natural Resources Conservation Service, 
may provide technical assistance in planning, designing, and 
implementing rehabilitation projects should a local organization 
request such assistance. Such assistance may consist of specialists in 
such fields as engineering, geology, soils, agronomy, biology, 
hydraulics, hydrology, economics, water quality, and contract 
administration.
    (d) Prohibited Use.--

          (1) Performance of operation and maintenance.--Rehabilitation 
        assistance provided under this section may not be used to 
        perform operation and maintenance activities specified in the 
        agreement for the covered water resource project entered into 
        between the Secretary and the local organization responsible 
        for the works of improvement. Such operation and maintenance 
        activities shall remain the responsibility of the local 
        organization, as provided in the project work plan.
          (2) Renegotiation.--Notwithstanding paragraph (1), as part of 
        the provision of financial assistance under subsection (b) of 
        this section, the Secretary may renegotiate the original 
        agreement for the covered water resource project entered into 
        between the Secretary and the local organization regarding 
        responsibility for the operation and maintenance of the project 
        when the rehabilitation is finished.

    (e) Application for Rehabilitation Assistance.--A local 
organization may apply to the Secretary for technical and financial 
assistance under this section if the application has also been 
submitted to and approved by the state agency having supervisory 
responsibility over the covered water resource project at issue or, if 
there is no state agency having such responsibility, by the Governor of 
the state. The Secretary shall request the state dam safety officer (or 
equivalent state official) to be involved in the application process if 
state permits or approvals are required. The rehabilitation of 
structural measures shall meet standards established by the Secretary 
and address other dam safety issues. At the request of the local 
organization, personnel of the Natural Resources Conservation Service 
of the Department of Agriculture may assist in preparing applications 
for assistance.
    (f) Ranking of Requests for Rehabilitation Assistance.--The 
Secretary shall establish such system of approving rehabilitation 
requests, recognizing that such requests will be received throughout 
the fiscal year and subject to the availability of funds to carry out 
this section, as is necessary for proper administration by the 
Department of Agriculture and equitable for all local organizations. 
The approval process shall be in writing, and made known to all local 
organizations and appropriate state agencies.
    (g) Prohibition on Certain Rehabilitation Assistance.--The 
Secretary may not approve a rehabilitation request if the need for 
rehabilitation of the structure is the result of a lack of adequate 
maintenance by the party responsible for the maintenance.
    (h) Authorization of Appropriations.--There is authorized to be 
appropriated to the Secretary to provide financial and technical 
assistance under this section--

          (1) $5,000,000 for Fiscal Year 2001;
          (2) $10,000,000 for Fiscal Year 2002;
          (3) $15,000,000 for Fiscal Year 2003;
          (4) $25,000,000 for Fiscal Year 2004; and
          (5) $35,000,000 for Fiscal Year 2005.

    (i) Assessment of Rehabilitation Needs.--The Secretary, in concert 
with the responsible state agencies, shall conduct an assessment of the 
rehabilitation needs of covered water resource projects in all states 
in which such projects are located.
    (j) Recordkeeping and Reports.--

          (1) Secretary.--The Secretary shall maintain a data base to 
        track the benefits derived from rehabilitation projects 
        supported under this section and the expenditures made under 
        this section. On the basis of such data and the reports 
        submitted under paragraph (2), the Secretary shall prepare and 
        submit to Congress an annual report providing the status of 
        activities conducted under this section.
          (2) Grant recipients.--Not later than 90 days after the 
        completion of a specific rehabilitation project for which 
        assistance is provided under this section, the local 
        organization that received the assistance shall make a report 
        to the Secretary giving the status of any rehabilitation effort 
        undertaken using financial assistance provided under this 
        section.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
